<html>
<title> - OVERSIGHT OF THE CHILD SUPPORT ENFORCEMENT PROGRAM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
           OVERSIGHT OF THE CHILD SUPPORT ENFORCEMENT PROGRAM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 1999

                               __________

                             Serial 106-31

                               __________

         Printed for the use of the Committee on Ways and Means



                     U.S. GOVERNMENT PRINTING OFFICE
64-324 CC                    WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 15, 1999, announcing the hearing...........     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Olivia A. 
  Golden, Ph.D., Assistant Secretary for Children and Families...     6

                                 ______

Bank of America, and Children's Rights Council, Terry W. Cady....    86
Conference of State Court Administrators, and Connecticut Supreme 
  Court, Hon. Robert C. Leuba....................................    77
Maryland Department of Human Resources, Teresa L. Kaiser.........    47
Massachusetts Department of Revenue, Marilyn Ray Smith...........    37
Minnesota Department of Human Services, and National Child 
  Support Enforcement Association, Laura Kadwell.................    23
New Jersey Division of Family Development, Alisha Griffin........    70
New York State Office of Temporary and Disability Assistance, 
  Robert Doar....................................................    94
Ohio Department of Human Services, Barbara L. Saunders...........    66
Urban Institute, Elaine J. Sorensen..............................    50
Virginia Department of Social Services, Nick Young...............    31

                       SUBMISSIONS FOR THE RECORD

Alliance for Non-Custodial Parents' Rights, Burbank, CA, John 
  Smith, statement...............................................   108
American Coalition for Fathers and Children, David A. Roberts, 
  statement......................................................   110
Association for Children for Enforcement of Support, Inc., 
  Toledo, OH, Geraldine Jensen, statement and attachment.........   115
Baskerville, Stephen, Washington, DC, statement..................   121
Coalition of Parent Support, Livermore, CA, Richard Bennett, 
  statement......................................................   123
Fathers for Equal Rights, Dallas, TX, David Allen Shelton, 
  statement......................................................   127
Men's Health Network, Tracie Snitker, statement..................   128
Moms Against Abuse, Memphis, TN, statement.......................   130
Mothers of Lost Children, Anne Hart, letter......................   131


           OVERSIGHT OF THE CHILD SUPPORT ENFORCEMENT PROGRAM

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11 a.m., in room 
B-318, Rayburn House Office Building, Hon. Nancy L. Johnson 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

September 15, 1999

No. HR-10

Johnson Announces Hearing on Oversight of the Child Support Enforcement 
                                Program

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on implementation of 1996 
reforms of the Child Support Enforcement Program. The hearing will take 
place on Thursday, September 23, 1999, in room B-318 Rayburn House 
Office Building, beginning at 11:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include a representative from the Clinton 
Administration, researchers, program administrators, and advocates. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written Statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    In 1996, Congress enacted major reforms of many of the nation's 
welfare programs (P.L. 104-193, the Personal Responsibility and Work 
Opportunity Reconciliation Act). Among the programs reformed was the 
Child Support Enforcement Program. This joint Federal-State program was 
enacted by Congress in 1975 to increase the amount of child support 
noncustodial parents pay to help meet the expenses of rearing their 
children. Although the collection of child support payments by the 
program increased over the years, by 1995 many interested parties were 
dissatisfied with the program's performance. As a result, sweeping 
reforms were included in the 1996 welfare reform law with bipartisan 
support.
      
    The implementation of these reforms has raised four issues. First, 
perhaps the most important reform in the 1996 legislation was the 
creation of a directory of basic information on every person hired in 
the United States. This new hire information is reported by employers 
to a centralized data repository in every State; States in turn report 
their data to the Federal Government. Thus, child support agencies now 
operate data bases that permit rapid wage withholding in an increasing 
number of child support cases, including interstate cases. Second, 
every State is now operating a hospital-based program aimed at 
establishing paternity for births outside marriage. States are finding 
that up to 70 percent of fathers are present in the hospital around the 
time of the birth and are willing to voluntarily sign paternity 
acknowledgment orders at that time. Third, States are organizing 
programs that systematically search financial institutions for the 
assets of noncustodial parents who owe past-due child support. Finally, 
the welfare reform law created a new program to improve relations among 
separated, divorced, and never-married parents in order to facilitate 
access to, and visitation of, children by noncustodial parents. States 
have now awarded funding from this grant program to a variety of 
governmental and nongovernmental organizations to conduct these access 
and visitation programs.
      
    In announcing the hearing, Chairman Johnson Stated: ``The child 
support reforms we passed in 1996 were by far the most extensive and 
important in the history of the program. Taken together, the reforms 
should greatly increase paternity establishment, creation of child 
support orders, and collection of child support payments. I am 
especially hopeful that we can increase child support payments for poor 
and low-income mothers, particularly those leaving or avoiding welfare. 
This hearing gives us the opportunity to review program information and 
actual data on program performance to see if our 1996 reforms are being 
aggressively implemented and whether collections are improving.''
      

FOCUS OF THE HEARING:

      
    The Subcommittee will examine four major issues raised by 
implementation of the 1996 child support reforms. Witnesses have been 
invited to provide the Subcommittee with detailed information about how 
each of these provisions is being implemented in the States and whether 
there is solid evidence that they are improving program performance. 
The Subcommittee will also hear from an advocacy group representing 
noncustodial parents, from the administrator of a State program, and 
from a representative of a State court system that is directly involved 
in the program about whether the access and visitation grants are 
achieving the goal of facilitating access and visitation by 
noncustodial parents.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written Statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their Statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Thursday, 
October 7, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written Statements 
wish to have their Statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each Statement presented for printing to the Committee by a 
witness, any written Statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any Statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All Statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
Statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his Statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each Statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``HTTP://WWW.HOUSE.GOV/WAYS__MEANS/''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Good morning. Though we 
are going to have to adjourn shortly for a couple of votes, we 
will get started and see how far we can get before we need to 
take a short break. But it is a pleasure to welcome you all 
here today for this hearing on child support enforcement.
    In 1996, for the third time in little more than a decade, 
Congress enacted substantial reforms to the Child Support 
Enforcement Program. The 1996 reforms were widely regarded as 
the most extensive. Among the more important reforms were the 
creation of the new hire database, a host of requirements on 
paternity establishment, the provision on financial institution 
data matches, and the requirement that States have laws 
permitting the revocation of driver's licenses for parents who 
are delinquent in paying their child support.
    Now, 3 years after enactment of the reform, we are 
beginning to have information on whether reforms are having 
impacts on collections and other important outcomes of the 
Child Support Program. The major purpose of today's hearing is 
to review this information.
    After the administration provides us with an overview of 
progress in implementing the reforms, and a review of 
information on outcomes achieved so far, we will hear from 
several States who have implemented some of the major reforms. 
We will also learn about the effects of these new provisions, 
especially on child support collections.
    Along with the provisions designed to increase child 
support payments by parents who don't live with their children, 
the 1996 law also included a provision designed to help parents 
who live apart from their children gain the thing they seem to 
want the most--access to their children. I believe this 
provision reflected Congress' concern with the plight of 
parents who do not live with their children. We also realize 
that custody and visitation are exclusively under State and 
local jurisdiction.
    On the other hand, we were convinced that local programs 
could be mounted that would help resolve disputes between 
divorcing and never married parents and pave the way to smooth 
and regular contact between nonresident parents and their 
children.
    Let me say that, in my opinion, continuing and frequent 
contact between fathers and their children is of immense 
importance. In fact, Ben Cardin and I will soon introduce 
legislation that will fund local projects aimed at improving 
relations between parents themselves and between fathers and 
their children.
    We are very fortunate to have three witnesses today who 
will provide us with testimony on the access and visitation 
projects funded in our 1996 legislation. Based on their written 
testimony, I was very encouraged that some good projects are 
being conducted around the country.
    I am also pleased that Judge Robert Leuba from my home 
State of Connecticut will present testimony on behalf of the 
Conference of State Court Administrators. Let me congratulate 
the Conference of State Court Administrators for their very 
important role in implementing these access and visitation 
programs in a number of States.
    I close with the speculation that, as suggested by today's 
hearing, the Child Support Program is entering a new phase. In 
the past, the Child Support Program focused on collecting money 
from nonresident parents. As important as is economic support, 
emotional support of parents, healthy ties, are more important.
    We are now beginning a new, more mature phase in which both 
at the Federal and local levels we realize that the interest of 
the child requires that we facilitate communication, 
cooperation, and mutual accommodation between parents who live 
apart, just as we do amongst between parents who live together.
    Of course, fathers must pay child support. We are now 
coming to realize that public programs must not view fathers or 
mothers simply as payors. Above all, we must base our programs 
on the understanding that most nonresident parents are willing 
to provide financial support, and that a system that works with 
fathers or nonresident mothers, and treats them with respect 
and dignity, will, in the long run, be better for children, 
better for parenting, and better for our society.
    I would like to yield now to my colleague, Mr. Cardin.
    Mr. Cardin. Well, thank you, Madam Chair. First, let me 
start by applauding you for not only holding this hearing but 
also for your work in authoring and creating many of the 
reforms that we are looking at today on child support 
enforcement. I think we are all going to be very pleased by the 
fact that many of these reforms are starting to pay off major 
dividends in our community.
    While many of the welfare proposals of the 1996 act were 
contentious and controversial, the child support provisions, 
from the very inception, were bipartisan, we worked together, 
and we created, we think, some major improvements in the child 
support process in our Nation. There was a clear recognition 
that asking more from mothers on welfare, without doing more to 
enforce the moral and legal obligations for the noncustodial 
parent to support their children, would have been a clear 
inequity.
    Unlike much of the welfare laws, the child support reforms 
focus on centralization rather than devolution. The reason for 
this is quite simple. To have an effective track, collect, and 
distribution system for child support payments required some 
degree of centralization. It leads to economies of scale and 
makes it easier to enforce child support orders when parents 
move from one place to another.
    I am not suggesting that the child support enforcement 
system is now perfect, since far too much still goes 
uncollected. However, I am hopeful that some of the reforms put 
in place in 1996 will lead to more resources for children.
    For example, I expect our witnesses to tell us whether the 
National Directory of New Hires has been helpful in tracking 
down delinquent parents. Furthermore, I am looking forward to 
hearing about other reforms now required by Federal law, such 
as suspending driver's licenses for individuals who refuse to 
meet their parental obligations.
    My home State of Maryland has utilized this procedure to 
collect more than $100 million in past-due child support since 
1996, and I am glad that Teresa Kaiser is here from my State of 
Maryland to talk about that.
    In addition, I hope there is a discussion about the State 
disbursement unit or SDU requirements, which mandates a central 
collection and distribution point for child support payments. 
This provision benefits both employers who are withholding 
child support obligations from workers' checks and the families 
who are waiting for the money.
    Nevertheless, I agree with my colleague from California, 
Mr. Matsui, and others who suggest we need to reevaluate the 
Federal financial penalty for noncompliance with the SDU 
requirement. I believe this Subcommittee will and should 
address this issue before Congress adjourns.
    Madam Chair, raising children is the responsibility of both 
parents. A strong and effective child support enforcement 
system is our best tool to deal with individuals unwilling to 
meet their basic obligations. However, there is a difference 
between deadbeat fathers and dead-broke fathers. Therefore, I 
hope we will continue to work together on proposals to help 
noncustodial fathers find employment so they can support their 
children.
    And, finally, I believe child support payments made by low-
income fathers should go to their families, not the State 
welfare agency. Such a passthrough policy would not only 
provide more financial resources to low-income families, but 
would help the noncustodial parent be more the family unit in 
raising the child.
    I look forward to the testimony of our many distinguished 
panelists. I think this is an extremely important subject, a 
very important hearing, and I think we can continue to work in 
a very constructive, bipartisan way.
    Chairman Johnson of Connecticut. I think we will go vote 
and then come back and start your testimony afterward. Thank 
you.
    [Recess.]
    Chairman Johnson of Connecticut. It is a pleasure to 
welcome Hon. Olivia Golden, Assistant Secretary for Children 
and Families at the U.S. Department of Health and Human 
Services, to our hearing today.

STATEMENT OF HON. OLIVIA A. GOLDEN, PH.D., ASSISTANT SECRETARY 
FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Golden. Thank you very much. Madam Chairman and 
Subcommittee Members, thank you for giving me the opportunity 
to testify on child support enforcement and to share the 
promising results we are beginning to witness from the changes 
that you helped to make possible.
    In fiscal year 1998, a record $14.3 billion in child 
support was collected, an increase of nearly 80 percent since 
1992. The number of child support cases in which collections 
were made rose to $4.5 million, compared to $2.8 million in 
1992. In addition, the number of paternities established or 
acknowledged reached a record 1.5 million in fiscal year 1998, 
almost triple the 1992 figure.
    The Personal Responsibility and Work Opportunity 
Reconciliation Act, PRWORA, provided new tools that promise our 
Nation's children the emotional and financial support they need 
and deserve. While it is still early, these tools are already 
making an important difference. For example, using the expanded 
Federal Parent Locator Service, we were able to provide States 
with information on double the number of interstate cases from 
the year before. And using the Passport Denial Program, we have 
collected over $2\1/4\ million in lump-sum child support.
    Today, as you have requested, I will focus my testimony on 
some of the most recent child support enforcement tools--the 
National Directory of New Hires, Federal Case Registry, 
financial institution data matches, State disbursement unit 
activities and paternity establishment, and, as you mentioned, 
Madam Chairman, Grants to States for access and visitation.
    First, the National Directory of New Hires and the Federal 
Case Registry give States unprecedented ability to track 
noncustodial parents across State lines. These interstate cases 
represent approximately 26 percent of all families in the child 
support enforcement system. The National Directory of New Hires 
was implemented on time, as required, on October 1, 1997, and, 
as of August 1999, all 50 States, the District of Columbia, 
Puerto Rico, and 146 Federal agencies are reporting employment 
data.
    Last fall, I had the opportunity to meet a parent who spoke 
about how this program had made a difference in her life and 
the lives of her two sons. Their father was hard to keep track 
of, and, even after hiring a private collection agency that 
promised to find him, she received no support. Suddenly, she 
began receiving regular checks through the mail, and she soon 
learned that her sons' father had been found through new hire 
reporting.
    She told us that her dream of buying a new home for her 
family could one day be a reality. I cannot think of a better 
endorsement for the work we have been doing.
    In addition, I am delighted to report that last year the 
National New Hire Reporting Program was a finalist in the 1998 
Innovations in American Government Awards Program, which is 
jointly sponsored by the Ford Foundation and Harvard 
University. In tandem with the New Hire Directory, a Federal 
Case Registry was included in the Federal Parent Locator 
Service beginning October 1, 1998.
    The Federal Case Registry contains over 12 million child 
support cases, and we automatically compare cases in the 
registry with the employment data in the National Directory of 
New Hires. Successful matches go back to the appropriate State 
for enforcement, including the initiation of wage withholding.
    In fiscal year 1999, as a result of these matches, the home 
address or employer of 2.8 million noncustodial parents owing 
child support was identified. Together, the National Directory 
of New Hires and the Federal Case Registry comprise a complete 
automated system for locating noncustodial parents that is 
already having an effect on child support collections.
    For example, using data from the National Directory of New 
Hires, Massachusetts found one of its most egregious child 
support evaders who was arrested in Idaho for owing his two 
children over $45,000 in back child support. He is now paying 
support through wage withholding from his new job.
    Even with the speed of this system, there are some 
noncustodial parents who are able to stay one step ahead. In 
cases such as these, the other remedies created by PRWORA are 
having an impact. One of these is the Passport Denial Program. 
Under this program, noncustodial parents with arrearages of at 
least $5,000 can be denied U.S. passports upon application.
    The program was implemented jointly with the State 
Department in June 1998 and is currently denying 30 to 40 
passports per day. One obligor working overseas returned to the 
U.S. to renew his passport, and his application was denied. The 
next day he brought in a $33,000 cashier's check which covered 
all of the child support that he owed.
    Another new activity for us, also emanating from welfare 
reform, is the financial institution data match, which requires 
States to match delinquent obligors against account records in 
every financial institution doing business in their State. To 
ease the burden on multistate financial institutions, Congress 
included a provision that allows these institutions to deal 
with a single point of contact--the Federal Office of Child 
Support Enforcement--rather than with each State separately.
    So on a quarterly basis, we send names and Social Security 
numbers of delinquent noncustodial parents to participating 
financial institutions. The system responds to privacy concerns 
by ensuring that the data match only includes account 
information of known delinquent noncustodial parents. 
Successful matches are returned to us, and we pass them on to 
the State.
    Over the past year, agreements have been successfully 
negotiated with over 2,300 financial institutions, and there 
are early indications that the program will be a significant 
step forward for children. As of September 7, 1999, with only 6 
institutions reporting, 77,000 matched accounts with a value of 
$93 million have been distributed to 45 States, the District of 
Columbia, and the Virgin Islands.
    As one example, the State of Florida has begun to process 
over 2,000 account matches, with cash balances totaling $2.8 
million. The total amount of child support owed by those 
individuals exceeds $12 million.
    In conjunction with better systems for locating 
noncustodial parents and pursuing delinquent obligors, the law 
requires all State child support programs, as Mr. Cardin 
highlighted, to establish a State disbursement unit, SDU, for 
the collection and disbursement of child support payments. SDUs 
ensure that there is no delay in getting child support to 
children.
    Successful State experiences with centralized disbursement 
units preceded their inclusion in welfare reform. These States 
discovered that SDUs increased the number of payments that 
could be processed, allowed for faster processing, and resulted 
in administrative cost savings.
    In addition, the employer community strongly supported the 
SDU requirement, due to the efficiency and simplicity of having 
each State provide just one place to send income withholding 
collections.
    About half the States were required to establish an SDU by 
October 1, 1998, and the remaining States, under the law, have 
until October 1, 1999. As of today, 21 States, the District of 
Columbia, and three territories have successfully implemented 
SDUs. We are working closely with the remaining States and 
continuing to monitor progress.
    While it is too early to report on results, successful 
implementation of SDUs by all of the States will play a 
significant role in providing our Nation's children with 
support collections more quickly and efficiently.
    I would like to turn now to what may be considered the 
foundation of the Child Support Program, paternity 
establishment. Paternity establishment is a crucial step toward 
securing a long-lasting emotional and financial connection 
between a father and his child. For the first time ever, in 
each of the last 2 years there were more paternities 
established per year than children born out of wedlock. So now 
we are making progress in reducing the total number of children 
who do not have a father legally established in their lives.
    A major factor in the increase in paternities established 
has been the success of the In-Hospital Paternity 
Acknowledgement Program. The success of voluntary 
acknowledgment requires the cooperation of the parents. The 
enormous increases in this program show that many, many parents 
want to do the right thing for the child they brought into the 
world.
    Under welfare reform, these programs and the results they 
produce have expanded as States were required to streamline 
their legal processes for paternity establishment and increase 
their voluntary outreach efforts. We worked closely with States 
by providing technical assistance, such as a training video and 
access to other State best practices.
    Finally, strengthening the FPLS and improving paternity 
establishment and child support collections are important, but 
support for children goes beyond financing. The grants to 
States for access and visitation initiative provides for an 
annual funding level of $10 million to support and facilitate 
noncustodial parents' access to, and visitation of, their 
children. Access and visitation services are crucial to 
ensuring that both parents provide not only financial but also 
emotional support to their children.
    There are a range of activities States may fund under the 
law, including mediation, counseling, education, the 
development of parenting plans, visitation enforcement, and the 
development of guidelines for visitation and alternative 
custody arrangements. To date, every jurisdiction except Guam 
has participated in the program.
    We are now starting to see the first reports of the State 
activities and efforts utilizing these funds. Based on 
preliminary information from the first year, fiscal year 1997, 
the program serves almost 20,000 individuals, with the most 
prevalent activities being mediation, development of parenting 
plans, supervised visitation, and parenting education. We are 
pleased with the program's progress to date and look forward to 
learning valuable lessons on how best to involve both parents 
in their children's lives.
    In closing, let me say how much I appreciate our 
partnership with this Subcommittee and the Congress, and our 
partnership with the States, which have been critical to 
strengthening the Child Support Enforcement Program.
    Thank you for the opportunity to testify, and I would be 
pleased to answer any questions that you may have.
    [The prepared statement follows:]

Statement of Hon. Olivia A. Golden, Ph.D., Assistant Secretary for 
Children and Families, U.S. Department of Health and Human Services

    Madam Chairman and distinguished members of the 
Subcommittee, thank you for giving me the opportunity to 
testify on the child support enforcement program. Welfare 
reform made dramatic changes in our ability to collect child 
support and I am especially pleased to share today the 
promising results we are beginning to witness given this 
Subcommittee's direct involvement in making these changes 
possible.
    In FY 1998, a record $14.3 billion in child support was 
collected under the leadership of the Office of Child Support 
Enforcement (OCSE). This represents an increase of $6.3 
billion, or nearly 80 percent since 1992. In addition, the 
number of child support cases in which collections were made 
rose to 4.5 million, a 59 percent increase over the 2.8 million 
cases in 1992.
    The number of paternities established or acknowledged 
reached a record 1.5 million in FY 1998, almost tripling the 
1992 figure of 512,000. Of these, over 614,000 paternities were 
established through in-hospital acknowledgement programs. An 
additional 844,000 paternities were established through the 
Child Support Enforcement program. Engaging fathers in the 
lives of their children can create the emotional bonds and 
financial security that are crucial to their children's health 
and well being. I'll speak more to our efforts in this area 
later in my testimony.
    Through enactment of the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA), President Clinton and 
Congress have provided unprecedented tools to the Child Support 
Enforcement Program, tools which promise to secure for many of 
our nation's children the emotional and financial support that 
they need and deserve. While it is still early, these tools are 
already making an important difference. For example, using the 
expanded Federal Parent Locator Services we were able to 
provide States information on double the number of interstate 
cases from the year before. And using the Passport Denial 
program, we have collected over $2.25 million in lump sum child 
support payments.
    We are excited about these dramatic achievements, and are 
convinced that the future of child support enforcement will 
continue on this successful path. Today as requested by the 
Subcommittee, I will focus my testimony on some of the most 
recent support enforcement tools, like the National Directory 
of New Hires, the Federal Case Registry and Financial 
Institution Data Matches, as well as State Disbursement Units, 
activities in paternity establishment and Grants to States for 
Access and Visitation.

Expanded Federal Parent Locator Service: The National Directory of New 
                    Hires and Federal Case Registry

    Prior to enactment of the PRWORA, the Federal Parent 
Locator Service (FPLS) was a conduit for the exchange of 
locator information between individual State Parent Locator 
Services and several large Federal databases, such as that of 
the Social Security Administration and the Internal Revenue 
Service. This system was vital to addressing the interstate 
nature of the program but was limited by its reactive nature, 
protracted turnaround time, aged information and multiple 
systems requests. PRWORA addressed these weaknesses and 
included significant enhancements of State and Federal data 
systems. Under the law, States are required to have a State 
Directory of New Hires and a State Case Registry for child 
support enforcement. Parallel to these State data bases, the 
FPLS was expanded to include a National Directory of New Hires 
and a Federal Case Registry.
    Together, the National Directory of New Hires and the 
Federal Case Registry give States the unprecedented ability to 
track non-custodial parents across State lines, which 
historically is one of the most difficult tasks in collecting 
child support payments. These ``interstate'' cases, where non-
custodial parents live and work in a State other than where 
their children reside, represent approximately 26 percent of 
all families in the child support enforcement system but 
account for only approximately 8 percent of IV-D child support 
collections.

National Directory of New Hires

    The National Directory of New Hires, which was implemented 
on October 1, 1997, is a centralized repository of employment 
information that is administered the OCSE. Under the law, all 
employers must report information on newly hired employees to a 
designated State agency within 20 days. The States then 
transmit the data to the National Directory, along with 
quarterly wage and unemployment insurance claims data. Federal 
agencies report new hire and quarterly wage data on their 
employees directly to the National Directory of New Hires.
    As of August 1999, all 50 States, the District of Columbia, 
Puerto Rico and 146 Federal Agencies are reporting employment 
data to the National Directory of New Hires. During the first 
year of implementation, the National Directory of New Hires 
responded to daily requests from State child support 
enforcement agencies searching for non-custodial parents in 
order to establish paternities, establish and enforce child 
support orders, and initiate wage withholdings.
    Last fall, I had the opportunity to meet a custodial parent 
who spoke publicly about how the Child Support Enforcement 
program had made a difference in her life and in the lives of 
her two sons, whom she had supported alone for almost nine 
years. Their father was hard to keep track of and even after 
hiring a private collection agency--that promised to find him--
she still received no support. Then all of a sudden she started 
receiving regular checks in the mail and soon learned that her 
sons' father had been found through New Hire Reporting. Now she 
told us, her dream of buying a new home for her family could 
one day be a reality. She was grateful for the work of our 
program and the hope it will bring for other single parents who 
have been struggling to support their children on their own. I 
cannot think of a better endorsement for the work we have been 
doing, or a better reason to continue to work toward its 
success.
    Also, we have been mindful of the privacy issues that 
information sharing can raise and, accordingly, have built 
privacy protections and security safeguards into all data 
sharing arrangements.
    I am pleased to inform you that last year, the National New 
Hire Reporting Program was a finalist in the 1998 Innovations 
in American Government awards program. The program is 
administered by the John F. Kennedy School of Government in 
partnership with the Council of Excellence in Government and is 
a joint program of the Ford Foundation and Harvard University. 
We are proud of this achievement with the New Hire Directory 
and were pleased to be recognized in this manner, but as 
indicated by the previous personal story, the real winners are 
children, on behalf of whom all of our programs strive for 
excellence.

Federal Case Registry

    In tandem with the New Hire Directory, the statute required 
a Federal Case Registry to be included in the FPLS beginning 
October 1, 1998. The Federal Case Registry is a centralized 
repository of child support data. Currently, 48 States and 
Puerto Rico are reporting cases to the Federal Case Registry, 
which now contains over 12 million child support cases.
    With the implementation of the Federal Case Registry, the 
OCSE has set up a system that automatically compares child 
support cases in the Registry with the employment data 
contained in the National Directory of New Hires. As a result 
of this automatic matching process, every day State caseworkers 
receive current locator and employment information without 
having to make a locator request. Successful matches are 
returned to the appropriate States, which can then undertake 
various enforcement activities, including the initiation of 
wage withholding orders, through which approximately 60 percent 
of child support is collected.
    In fiscal year 1999, as a result of matching the Federal 
Case Registry with the National Directory, 2.8 million non-
custodial parents owing child support have had their home 
address or employer identified. This is in addition to 
individuals located through in-State new hire and quarterly 
wage reporting. Together, the National Directory of New Hires 
and the Federal Case Registry comprise a complete, automated 
system for locating non-custodial parents that is already 
impacting child support collections.
    While these numbers are substantial and impressive 
improvements, we are currently conducting site visits to States 
to develop more accurate estimates as to the benefits of using 
the data. We have learned that while some States are still in 
the process of re-engineering their business practices and 
fully automating the use of this data, others are already 
showing results from these new tools. For example, using data 
from the National Directory of New Hires, Massachusetts found 
one of its most egregious child support evaders, who was 
arrested in Idaho for owing his two children over $45,000 in 
back child support. He spent 16 days in jail awaiting a 
hearing, pleaded guilty to criminal non-support, received a 
suspended one-year jail sentence and 6 years probation. He is 
now paying his current and past due support via wage 
withholding from his new job in Idaho. In Washington State, our 
analysis of the 705 non-custodial parents found showed that 
over 44 percent of those cases eligible resulted in a wage 
withholding order, 50 percent of which resulted in an actual 
collection. Cases not eligible for wage withholding included 
those where another State was involved in the enforcement 
action, no support order had been established yet, or other 
action was being taken.
    Before the implementation of the National Directory of New 
Hires, it could typically take a year to locate employment 
information on a non-custodial parent, especially if an 
interstate case was involved. Now we can locate a non-custodial 
parent and initiate wage withholding within one month of 
employment. Even with the speed of this system, there are still 
some non-custodial parents who are able to stay one step ahead 
of us. In cases such as these, the other remedies created by 
PRWORA are having an impact.
    One of these additional remedies is the Passport Denial 
Program. Under the Passport Denial Program, non-custodial 
parents with arrearages of at least $5,000 can be denied U.S. 
passports upon application. The program was implemented jointly 
in June 1998 by the OCSE and the Department of State, and is 
currently denying 30 to 40 passports per day. One obligor 
working overseas returned to the U.S. to renew his passport and 
his application was denied; the next day he brought in a 
$33,000 cashier's check which covered all the child support 
that he owed. Another obligor paid his $17,000 arrearage in 
order to get his passport so he could visit extended family in 
another country.
    As I indicated previously, since its inception this program 
has collected over $2.25 million in lump sum payments. This 
total does not include those obligors who set up payment plans 
and wage withholding as a result of being submitted for 
passport denial. Collection of lump-sum payments can be a 
significant contributor to the collection of support as we have 
seen under the Federal Offset Program which intercepts tax 
refunds and other Federal administrative payments to collect 
back child support. Since its inception in 1981 the offset 
program has collected over $9.2 billion. In this calendar year 
through August 23rd, over $1.2 billion has been collected.
    In addition to the direct collections that result from the 
various tools provided by the welfare reform law, these tools 
also generate ancillary benefits. The new system allows States 
to automate many previously time-consuming procedures, freeing 
up caseworker time to work on more problematic cases. The 
ability of a caseworker to get addresses that are only weeks 
old from the National Directory of New Hires and to access 
several different tools to enforce child support obligations is 
a dramatic change from the past. Some States are also beginning 
to use matches provided by the system to locate custodial 
parents to distribute child support payments. We are on this 
path to success because of our partnership with States in 
helping to design the system, and the resources the 
Administration and Congress have provided us to guarantee 
technical support and outreach. We continue to work with States 
individually to optimize their use of the data and take best 
advantage of these tools. The speed, efficiency, and 
effectiveness of this new system are changing the landscape of 
child support enforcement.

              Multistate Financial Institution Data Match

    Another new activity for us, also emanating from 1996 
welfare reform law, is the Financial Institution Data Match 
Program, which we are in the early stages of implementing. The 
Financial Institution Data Match Program requires States to 
match delinquent obligors against account records in every 
financial institution doing business in their State. Once 
identified, these accounts may be subject to liens and levies, 
allowing State or local child support enforcement agencies to 
``freeze and seize'' assets. To ease the burden on Multistate 
Financial Institutions that do business in two or more States, 
Congress in 1998 included in the Child Support Enforcement 
Performance and Incentive Act a provision that these 
institutions have the option of dealing with a single point of 
contact--the Federal Office of Child Support Enforcement--
rather than dealing with each State separately.
    On a quarterly basis under the Multistate Financial 
Institution Data Match, we send the names and Social Security 
Numbers of delinquent non-custodial parents to participating 
financial institutions. The system also responds to privacy 
concerns by ensuring that the data match only covers what it 
needs to--account information of known delinquent non-custodial 
parents. Any successful matches of such delinquent non-
custodial parents and account information are returned to us 
and we transmit the data to the appropriate State within 48 
hours. The State can then place a lien on, and seize, all or 
part of the accounts identified.
    Over the past year, with the cooperation of the financial 
industry and their associations, agreements have been 
successfully negotiated with over 2,300 financial institutions. 
In July 1999, we began sending the files of delinquent obligors 
to these financial institutions. Results from the first few 
financial institutions have just been returned to the States. 
While it's too early to measure the number of liens, levies, 
and collections resulting from the matches, there are early 
indications that this program will be a significant step 
forward in the effort to secure children the financial support 
that they deserve. As of September 7, 1999, with only six 
institutions reporting, 77,000 matched accounts with a value of 
$93 million have been distributed to 45 States, the District of 
Columbia and the Virgin Islands.
    The State of Florida has begun to process over 2,000 
account matches with cash balances totaling $2.8 million. The 
total amount of child support owed by these individuals exceeds 
$12 million, so nearly 25 percent of their arrearages could be 
collected through the Multistate Match alone. The State of 
Illinois has identified matched accounts for over 1,000 
obligors who owe more than $13.9 million. Significantly, the 
children of 70 percent of these obligors receive or have 
received Temporary Assistance for Needy Families benefits. What 
is most dramatic about these statistics is without the 
Financial Institution Data Match, these funds might never have 
been identified. In addition, these numbers reflect a program 
in its infancy.

                        State Disbursement Units

    In conjunction with better resources and systems for 
locating non-custodial parents and pursuing delinquent obligors 
and improved partnerships, the welfare reform law requires all 
State child support programs to establish a State Disbursement 
Unit (SDU) for the collection and disbursement of child support 
payments. The SDUs must be able to receive payments in cases 
receiving services from the Child Support Enforcement program 
and in other child support cases with income withholding orders 
issued after January 1, 1994, and must be able to furnish 
information to parents regarding the status of the payments. 
Once payments are received, the SDU must disburse child support 
collections within two business days. SDUs ensure that there is 
no delay in getting child support to children.
    Successful State experiences with centralized disbursement 
units preceded their inclusion in welfare reform. New York and 
Colorado discovered that SDUs increased the number of payments 
that could be processed, allowed for faster payment processing, 
and resulted in administrative cost savings. In addition, the 
employer community strongly supported the SDU requirement due 
to the efficiency and simplicity of having each State provide 
one place to send income withholding collections. In a recent 
letter to my office, Thomas Donohue, the President and Chief 
Executive Officer of the Chamber of Commerce of the United 
States of America wrote, ``for business, the positive impacts 
(of centralized payment processing) include reduced 
administrative costs and more efficient operations.''
    About half the States were required to establish an SDU by 
October 1, 1998. The remaining States were granted an 
additional year, until October 1, 1999, to implement an SDU 
because they processed child support payments through the local 
courts at the time the welfare reform law was signed. States 
have made notable progress in meeting these dates. As of today, 
21 States, the District of Columbia and three Territories have 
successfully implemented SDUs. We are working closely with the 
remaining States and will continue to monitor their progress in 
this area.
    The law also contains a provision that allows a State to 
establish a State Disbursement Unit by linking local 
disbursement units, if the State can prove that there is a 
single location to which employers can send payments and that 
it would not cost more or take more time to establish than a 
fully centralized unit. Thirteen States have requested 
exemptions to continue to collect and disburse support through 
such local units. Of the thirteen requests, exemptions were 
granted to South Carolina, Michigan and Nevada and three 
requests are pending decisions.
    While it is too early to report on results, successful 
implementation of SDUs by all the States will play a 
significant role in providing our nation's children with 
support collections more quickly and efficiently.

                        Paternity Establishment

    I'd like to turn now to what may be considered the 
foundation of the program--paternity establishment. To improve 
the lives of children, one of our major goals is to increase 
paternity establishment rates for those children born outside 
of marriage. Paternity establishment is a crucial step toward 
securing a long-lasting emotional and financial connection 
between the father and the child. Without this connection, the 
child may not experience the emotional, psychological and 
economic benefits of a committed parent. Not only does a legal 
parental link open the doors to possible benefits, such as 
Social Security dependent benefits and health insurance 
coverage, it also provides less quantifiable benefits to the 
child such as the value of knowing his or her father cared 
enough to openly acknowledge his responsibility as a father, an 
opportunity for extended family ties, and access to medical 
history and genetic information.
    I've already mentioned the tremendous work we are doing in 
terms of absolute numbers of paternity establishments but 
perhaps even more noteworthy is the fact that for the first 
time ever, in the last two years there were more paternities 
established than children born out of wedlock. We can now say 
we are making progress in reducing the number of children who 
do not have a father legally established in their lives.
    A major factor in the increase in paternities established 
has been the success of the in-hospital paternity 
acknowledgement program. This program, first proposed early in 
the Clinton Administration, has been increasingly successful. 
The success of voluntary paternity acknowledgement requires the 
cooperation of the parents of new-borns and the enormous 
increases in this program show that many, many parents want to 
do the ``right thing'' for the child they brought into the 
world.
    Under welfare reform, these programs and the results they 
produce have expanded as States were required to streamline 
their legal processes for paternity establishment, including 
mandating genetic testing in contested cases and expanding 
their voluntary paternity establishment outreach efforts. We 
have worked closely with the States to ensure implementation of 
PRWORA requirements and by providing technical assistance to 
States, including production and dissemination of a training 
video on some of the tools and technical assistance available 
from the OCSE, paternity resources and information via OCSE's 
National Electronic Resource Systems and, also through this 
system, access to other State best practices.

               Grants to States for Access and Visitation

    Strengthening the FPLS and improving paternity 
establishment and child support collection efforts at the 
Federal and State levels is important, but we also recognize 
support for children goes beyond financing. This brings me to 
the final subject you were interested in having me discuss with 
you today, PRWORA's provision for Access and Visitation Grants. 
The Grants to States for Access and Visitation initiative 
provides for an annual funding level of $10 million, to support 
and facilitate non-custodial parents access to and visitation 
of their children. Access and visitation services are crucial 
to ensuring that both parents provide not only financial, but 
also emotional support to their children.
    There are a range of activities that States may fund 
including mediation, counseling, education, the development of 
parenting plans, visitation enforcement including monitored and 
supervised visitation and neutral drop-off and pick up of 
children, and the development of guidelines for visitation and 
alternative custody arrangements. To date, every State and 
independent jurisdiction, with the exception of Guam, has 
participated in the program. The States and jurisdictions 
receive grants ranging from the statutory minimum of $100,000 
to close to $1 million. States are not required to fund all of 
the allowable activities, enjoying flexibility in choosing 
which activities to fund and which organizations should operate 
these activities. One of the strengths of the program is that 
it gives States the ability to achieve their access and 
visitation goals through a range of activities and providers, 
as well as to experiment with a variety of approaches. State 
goals include increasing visitation between non-custodial 
parents and their children, improving child well-being and 
strengthening non-custodial parents as nurturers.
    We are now starting to see the first reports of the State 
activities and efforts utilizing these funds. Based upon 
preliminary information from the first year, fiscal year 1997, 
the program served almost 20,000 individuals with the most 
prevalent activities being mediation, development of parenting 
plans, supervised visitation and parenting education. The 
never-married population represented 26 percent of the 
population served, while 25 percent were separated and 48 
percent were divorced. The service providers were about evenly 
divided between courts or non-profit agencies, with some local 
governments operating the programs. Services were provided both 
on a mandatory and voluntary basis, and most referrals were 
either self-or court-referral.
    We are pleased with the program's progress to date, and 
look forward to its continuing service of children and families 
and to learning valuable lessons on how best to involve both 
parents in their children's lives.
    The Administration is also working to help committed low 
income fathers increase their employment so they can better 
support their children. Already, the Welfare to Work program 
administered by the Department of Labor has invested an 
estimated $100 million in State, local, community and faith-
based initiatives to help increase the employment of certain 
non-custodial fathers of children receiving welfare. The 
Administration's proposal to reauthorize the program, reflected 
in legislation introduced by Representative Cardin and several 
other members of this committee, will help even more low income 
fathers in every State work, pay child support, and get 
involved with their children. We urge your support for this 
important legislation.

                               Conclusion

    In closing, let me say that it is only through our 
partnership with the Congress and the States that we have been 
so successful in strengthening the Child Support Enforcement 
program. The many new tools provided by the Personal 
Responsibility and Work Opportunity Reconciliation Act are 
helping to improve the lives of our nation's children. 
Ultimately, helping families remain self-sufficient is a big 
part of what child support is all about. We look forward to 
continuing our work with you and the States to keep parents 
engaged in the lives of their children and to ensure that the 
program remains highly successful.
    Thank you. I would be pleased to answer any questions you 
may have.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your testimony, and, indeed, it is encouraging to know that 
when we pass legislation something actually happens----
    Ms. Golden. Absolutely.
    Chairman Johnson of Connecticut [continuing]. That is good 
for people and their lives. I was surprised, though, that your 
testimony reflects that only 21 States, the District of 
Columbia, and 3 territories have successfully implemented the 
SDUs. This is so important, and may be actually more important 
than the new hire bank in the end.
    Ms. Golden. The information isn't completely up to date, in 
the sense that States under the statute will have until 
December to tell us in their State plans whether they have 
accomplished it. However, we are not waiting; we are monitoring 
the States' implementation. Our expectation is that only a 
handful of States will, in fact, miss the deadline.
    In my testimony is the confirmed number. I agree with you, 
Madam Chairman, it is extremely important for children.
    Chairman Johnson of Connecticut. But what are some of the 
reasons that so many have not yet made the deadline, and that, 
in my estimation, a sizable number may not.
    Ms. Golden. The reasons vary by State. In some cases, it is 
linked to computer systems issues and I know that is an issue 
of interest to many Members of the Subcommittee. But I do want 
to note that some of the largest States--for example, New 
York--have accomplished implementation before the deadline. We 
expect that all but a handful of States are, in fact, going to 
meet the deadline.
     Chairman Johnson of Connecticut. Why is New York able to 
accomplish it and California having such difficulty, both being 
very large States?
    Ms. Golden. California has a long history. I would say that 
we, along with many Members of this Subcommittee, had deep 
concern for a number of years about California's lack of 
progress in a number of areas, particularly their automated 
systems.
    The State has taken steps to comply and to dramatically 
change their systems. I am optimistic about the future in 
California. These changes make a difference not only for the 
children in California, but for children who live elsewhere and 
have noncustodial parents there.
    I would say that there has been a long history, I think we 
have hit a turning point, and I think holding them accountable 
through the work we did with this Subcommittee involving the 
system's penalties, was, in fact, a very important part of 
accomplishing that turnaround in the State of California.
    Chairman Johnson of Connecticut. Are you still estimating 
about 8 or 10 States won't comply?
    Ms. Golden. Yes, that is our estimate.
    Chairman Johnson of Connecticut. Can the State disbursement 
unit handle situations in which the father has multiple child 
support orders? And does the unit have any ability to override 
State law concerning distribution awards?
    Ms. Golden. As I understand the way it would work in a 
State, the actual distribution would be determined by the 
State's automated system, which is programmed to reflect 
Federal law and State law. In the case of multiple child 
support obligations, typically a payment would be designated 
under a particular support order related to a particular child.
    The State distribution unit's role is to take the payment, 
record it, and then to send it out. The question of who it goes 
to would be determined through the State's automated system, 
which the State would have programmed to reflect applicable 
law.
    Chairman Johnson of Connecticut. Mr. Cardin.
    Mr. Cardin. Well, back to the SDU for a moment, if I might. 
There might be half a dozen to a dozen States that will miss 
the deadline. They represent a real significant population 
percentage of our country, including California.
    You mentioned that the pressure that we kept on California 
and other States on the computer issues were very helpful, but 
we did modify the penalty provisions then to make it realistic, 
so that we would, in fact, impose a penalty if a State did not 
comply. The current penalty structure is not enforceable. We 
are not going to cut off all of the funds; I don't think we 
will.
    So, therefore, are you supportive of our efforts to try to 
replace that with a more effective penalty provision, one that 
would be imposed but would not act as a real hardship to the 
State moving forward?
    Ms. Golden. We are supportive of the Subcommittee's 
efforts. It is extremely important that there be tough but fair 
penalties. Congressman Matsui and others have been addressing 
the issue of whether a State is essentially placed twice at 
jeopardy in a case where they have systems and SDU penalties. 
And you raise the issue of additional work on that penalty 
structure.
    We are supportive of the goal of a system that is both 
tough and fair, and we are interested in working with you on 
the details in any way we can be of assistance.
    Mr. Cardin. I appreciate that. Let me ask you about the 
passthrough of child support to the family. Under the current 
policy, if a State wishes to do that, and had the delinquent 
child support passed through to the family, they have to pay 
not only the State's share but the Federal share of the 
arrearages.
    I think we all recognize the beneficial impact of passing 
through the child support to the family. It gets more resources 
to the families of low income and makes the noncustodial parent 
more part of the family. I also understand the fiscal impact 
here.
    But I would just like to get your views as to the policy 
here as to whether we shouldn't be looking at ways to encourage 
more funds getting into the family itself.
    Ms. Golden. Let me tell you what we have learned and what 
we are doing on that front. I think you are right to highlight 
that as an important issue. We did a series of consultations 
over the last year with a range of people in the child support 
community--States and advocates and others. We indeed heard 
that distribution and passthrough to families is an important 
issue.
    As you noted, the welfare reform legislation left that 
choice to the States, and slightly less than half of the States 
have made the choice.
    We have done a couple of things in this regard. One is in 
the guidelines to States about how they are allowed to use 
their maintenance of effort funds under welfare reform, we have 
tried to clarify for them what their choices are in relation to 
child support passthrough and disregard. We have tried to help 
States with fiscal advice that will enable them to use some 
other funding sources in useful ways.
    Another important item is to be completing and 
disseminating some of the research that is underway. One of the 
questions that we don't completely know the answer to, is 
whether when you pass the resources through, it encourages 
greater compliance and greater payment of child support. So we 
are doing some work in that area and disseminating the 
information.
    Mr. Cardin. I think that would be very helpful, and we 
would try to develop a balance of policy here that gets the 
money to the family and encourages child support payments.
    I am pleased to hear you mention about the study on the 
denial of passports and what impact that has had, at least in 
one case. Last year we attempted to expand that to deal with 
people who are not citizens of our country who owe child 
support to Americans who then get the right to come into our 
country for commercial reasons and we don't stop them. We treat 
American citizens differently than we treat people who are not 
U.S. citizens, which doesn't seem to make a lot of sense.
    You have indicated that there is a study on that policy. 
When do you expect that to be ready?
    Ms. Golden. We expect that to be ready soon, and I 
apologize that we are late with the study. The requirement by 
the Subcommittee highlighted an important issue for us to work 
on. We needed to take our own knowledge and put it together 
with the knowledge of the State Department and the INS in order 
to have good answers for you. We have essentially completed 
those conversations and should have the report to you very 
quickly.
    Mr. Cardin. Am I right in anticipating, based upon your 
testimony, that the right to deny a U.S. citizen a passport is 
an effective way to collect child support?
    Ms. Golden. Yes. Let me highlight for you some of the 
reasons it has been so important. I have a number of examples 
from the Chairman's home State of Connecticut where it is 
clearly a tool that they have used and found useful.
    The $2\1/4\ million figure that I gave as the national 
number of collections from passport denial is only the lump-sum 
payments, that is when someone comes in with a check. In 
addition, it has been a way of finding some people that we 
didn't have addresses or employers for. From this information 
there have been collections from being able to institute wage 
withholding. So both of those things have been important 
accomplishments.
    Mr. Cardin. And last, let me just--one of your statistics 
could be somewhat misleading. You have indicated the amount of 
interstate cases represent 26 percent of the child support 
caseload. But it only represents 8 percent of the child support 
collections. And yet, if I understand your testimony, with all 
of the new tools that we have put into effect, we are 
identifying more parents that are out of State. Are we making 
progress in narrowing that disparity?
    I understand that a parent who lives out of State is more 
difficult to find and collect child support. So I understand 
the differences. But are we making progress in narrowing that 
disparity?
    Ms. Golden. Yes, that gap is a major reason the 
Subcommittee gave us these important tools. interstate cases, 
as you know, represent a much larger percentage of cases than 
they do of the collections. The historical reason is that there 
hasn't been a good way to find those parents to institute the 
wage withholding or to make the collections.
    The National Directory of New Hires and some of the other 
tools are rectifying that problem. We don't yet have a national 
figure of how much wage withholding and collections are 
increasing based on the national directory's contribution. In 
one State example, Arizona reports a 157-percent increase in 
collections over a 12-month period. They attribute this to 
having rapid, automatic access to the interstate data, which 
not only means that you find people you wouldn't otherwise have 
found, it also means you find people in a month instead of in a 
year. The National Directory enables us to get more support to 
the children.
    Mr. Cardin. Thank you.
    Thank you, Madam Chair.
    Chairman Johnson of Connecticut. Thanks. Just before we go 
on to Mr. English, I did want to come back to this issue of 
arrearages, because in the bill of 1996 that issue was very 
hard-fought. The law does say now that if the child support is 
not through wage withholding, then 50 percent does go directly 
to the family, and the States can only retain 50 percent. It 
was a bloody battle, and we only won 50 percent.
    But I am interested in whether or not you would be 
interested in helping us take on the States to have 100 percent 
go. Outside of the money collected through wage withholding, in 
other words, the money the State really collects--50 percent 
has to go to the family.
    So are you not addressing the arrearages issue?
    Ms. Golden. The arrearages issue rather than the 
passthrough issue that Mr. Cardin was addressing. The 
arrearages and the IRS tax offset, items that are collected in 
those----
    Mr. Cardin. If the gentlelady would yield for a moment. I 
think you are dealing with the people that are no longer on 
cash assistance, I believe.
    Chairman Johnson of Connecticut. Correct. Yes.
    Ms. Golden. Right. The statute changed the distribution of 
those collections to make more money go to the family, except 
in the case of the IRS tax offset provisions.
    Chairman Johnson of Connecticut. Right. Right. And 
actually, I mean, here they are off welfare, and we certainly 
ought to, as a matter of principle and policy, be allowing the 
complete repayment of the family for arrearages before the 
repayment of the State for the money they put into welfare. So 
I think that still is a problem yet to be addressed.
    But having been through the real wars to have only a 50-
percent result, that was a huge victory at the time, but we 
would have to have stronger forces to get the States to agree. 
I mean, they get the money in the end. They get the same money 
in the end. They just don't get it at the same time. It is far 
more important for the families coming off welfare to get this 
money themselves than it is for the State to get it on time.
    So it is a subject that I continue to be very interested 
in. And if you are willing to help us take it on, we certainly 
would be interested in doing that.
    Ms. Golden. Our overall perspective right now is that we 
have a set of core tools and our immediate task is to ensure 
that we get the most we can out of those tools. We are 
delighted to offer technical assistance or information, as the 
Subcommittee----
    Chairman Johnson of Connecticut. Well, you might think 
about this because it is just a budget matter. You have to put 
it in the budget, so there is money for the States in some 
other category. But it is really a wrong that is in the policy, 
and we ought to begin working on it. And if you can think about 
it as you develop next year's budget, that would give us a lot 
greater position from which to change the law.
    Ms. Golden. Thank you.
    Chairman Johnson of Connecticut. Mr. English, it is a 
pleasure to have you.
    Mr. English. Thank you, Madam Chair.
    Dr. Golden, following up on some of the inquiries from my 
two colleagues, I note that Mr. Andrews of New Jersey, my 
colleague, has proposed that the Social Security Act be changed 
by reducing the threshold of arrearages required to trigger the 
revocation of passports from $5,000 to $2,500. I am curious as 
to whether the administration has taken a position on this 
proposal, or whether you intend to take a position following 
further study.
    Ms. Golden. As I said to Mr. Cardin, we think the passport 
denial provision has been extremely effective, and we are 
hearing many examples from the States.
    The Subcommittee asked us to do some work on that issue, 
and it requires that we get together with the State Department 
to share our information, to understand the implementation 
aspects. We have not taken a position at this point, but we 
would be glad to get back to you with that information after we 
finish those conversations.
    Mr. English. When do you anticipate that will be?
    Ms. Golden. I don't have a date for you, but I assume that 
it can be fairly soon.
    Mr. English. Well, that is certainly satisfactory. On 
another point, has HHS provided any recent guidance about the 
problems that noncustodial parents have had getting information 
directly from the Federal Parent Locator Service?
    Ms. Golden. That is an important issue. Let me tell you 
what we have done. The issue that I think you are referring to 
is that the Federal Parent Locator Service is not only 
available to locate a noncustodial parent, but also if there is 
a custody or visitation issue it can be used to help locate the 
custodial parent.
    The law appropriately limits access, so the noncustodial 
parent doesn't look themselves. They need to go to the courts 
or the State IV-D agency for access. The issues that we have 
been hearing, and that I know the Subcommittee has been 
hearing, are about difficulties these parents are having.
    About a year ago we wrote a letter to State IV-D directors, 
and what we discovered we needed to follow up with some 
considerable technical assistance. It has been part of our 
ongoing technical assistance, with the courts in particular, 
because they are often the place where a parent goes seeking 
assistance. Our most recent brochure for the general public 
addresses this issue. We have found that we need to provide 
information about this issue in the context of all of the 
technical assistance that we are doing.
    Mr. English. Are there any legislative changes necessary? 
And are there any concrete policy changes required at your 
level to address these problems?
    Ms. Golden. I would be interested in knowing if the 
Subcommittee has concerns or ideas. I think from our 
perspective the crucial thing is to provide the information so 
that the courts and the State agencies are able to respond 
appropriately. I think the tools are in the law.
    Mr. English. Very good. And following, again, on some of 
the comments of my two colleagues, maybe a little more direct 
inquiry, what, in your view, more can be done to encourage 
States to share more of their collections with low-income 
mothers who are working to support their family?
    Ms. Golden. I do think, as I said to Mr. Cardin, that there 
is a range of things that can be helpful as States make that 
choice. Research information is helpful.
    What we thought would make the biggest difference was to 
provide in our booklet on the use of TANF funds, information to 
States about how they can use their State maintenance of effort 
dollars in a way that will help them address the financial 
consequences of passing those dollars on to parents. So 
providing that information seemed to us like our most direct, 
immediate step.
    Mr. English. Thank you, Dr. Golden. That covers the main 
areas of interest for me. Thank you again for----
    Ms. Golden. Thank you.
    Mr. English [continuing]. Testifying today. And I yield 
back the balance of my time.
    Chairman Johnson of Connecticut. Congressman Camp.
    Mr. Camp. I thank the Chairman. It is good to see Dr. 
Golden.
    Ms. Golden. Hi.
    Mr. Camp. I just have a question. Our information and data 
show that single parents are much more likely to live below the 
poverty level than two-parent families. And under our welfare 
law, there were many provisions that tried to focus services on 
strengthening families and family formation as sort of a 
defense against a life of poverty.
    Access and visitation services, you know, assist couples in 
dealing with the relationship problems they have that affect 
their children. Do you view access and visitation services as a 
way to be certain that two parents are involved in a child's 
life as an allowable activity under our welfare law?
    Ms. Golden. Access and visitation are clearly centrally 
important. As you have noted, as the Chairman noted earlier, 
what child support needs to be about is children's right to the 
emotional and financial support of both parents. We are pleased 
that we have today the first initial report on the results of 
our access and visitation grants programs and the range of 
services States are providing. It is very central, I think, to 
what we are trying to accomplish.
    On the question of allowable use of funds under welfare 
reform, we have been working with the States on their interest 
in using TANF funds for a variety of investments on behalf of 
fathers, of noncustodial parents, which is an appropriate 
choice States can make. I haven't worked on the specific issue 
of very particular uses. I would be happy to get back to you if 
there are particular uses that are of interest to a specific 
State or to you.
    Mr. Camp. Thank you. I appreciate that. Thank you.
    Chairman Johnson of Connecticut. Thank you.
    Dr. Golden, I did want to ask you one further question. We 
have had a number of bills introduced--they continue to be 
introduced--that would turn over child support enforcement to 
the Social Security Administration and the IRS. What is your 
reaction to that proposal?
    Ms. Golden. Well, as you know, the Administration would not 
support--does not support that change, I think for a number of 
reasons. The first reason is that we think the Federal-State 
partnership has just about the right balance now in terms of 
the way the statute identified a key set of provisions that 
need to be uniform across the country, but also allowed for 
some State partnership in specifics and in developing those 
programs.
    I also think that the present system includes about the 
right balance for the courts and the local discretion. We need 
to make sure there is consistency and uniformity but that you 
are not imposing everything from Washington.
    And, third--and this is in some ways what I reflected on as 
I put together my testimony today--I really believe we have 
some results to be very proud of. If you look at some of the 
numbers, paternity establishments tripled, collections up 80 
percent, extraordinary results, even in the earliest years and 
months from new programs, I think that we are on a course that 
is making a very big difference for children and families.
    This is the time to stay the course, to reap the full 
benefits of those tools, to take advantage of the full range of 
tools that are in the statute, rather than to make such a 
significant shift.
    You and other Members of the Subcommittee have raised a 
number of the examples of tools--that even though they are 
already showing results, they are not done yet, like the SDUs.
    But one example that is very vivid for me having talked to 
caseworkers around the country, is the way they talk about the 
National Directory of New Hires and its impact on their lives. 
One worker said to me, ``Cases that used to stay in my desk 
drawer forever, now they come back and they are cleared out.''
    What that says to me is that we have only got the first 
round of benefits to children showing up so far. The next round 
comes when caseworkers whose time is so dramatically freed up 
by these new automated tools can move on to the harder cases 
and the next steps. We have some very impressive results, but 
we have by no means finished the task. And our job right now 
really is to stay with these tools and use them to the best 
potential for children.
    Chairman Johnson of Connecticut. Well, it is a subject that 
we will be considering, since there still is considerable 
active interest on both sides of the aisle in that matter. So I 
hope you will be turning over in your mind the ways in which 
the current system reaches both to identify nonsupporting 
parents and to get them paying, but also on these other issues, 
being able to include both parents in the development of the 
family unit----
    Ms. Golden. Yes.
    Chairman Johnson of Connecticut [continuing]. Gives us an 
opportunity that the other system I think would not give us.
    Ms. Golden. Absolutely.
    Chairman Johnson of Connecticut. But I hope you will be 
formulating your thoughts about that because----
    Ms. Golden. Absolutely.
    Chairman Johnson of Connecticut [continuing]. We will have 
you back on that subject.
    Ms. Golden. I will look forward to it. Just to add on to 
your last point. I think the dramatic increase in paternities 
coming in large part from voluntary in-hospital paternity 
establishment is also a sign that both parents want to be 
involved. The involvement of both parents is going to pay off 
down the road, fiscally and in terms of emotional support. I 
think that is important to highlight.
    Chairman Johnson of Connecticut. Thank you very much for 
being with us today.
    Ms. Golden. Thank you.
    Chairman Johnson of Connecticut. We appreciate your 
testimony.
    We would like to call forward the first panel, Laura 
Kadwell, director of Child Support Enforcement Division, 
Minnesota; Nick Young, the director of Child Support 
Enforcement Division, the Commonwealth of Virginia; Marilyn Ray 
Smith, the associate deputy commissioner and legal chief 
counsel of the Massachusetts Child Support program; Teresa 
Kaiser, the executive director of the Child Support Enforcement 
Administration in Maryland; and Elaine Sorensen, principal 
research associate, Income and Benefits Policy Center at the 
Urban Institute.
    Mr. Cardin. Madam Chair, I have already acknowledged Ms. 
Kaiser's presence here. We are very proud of what we have been 
able to do in the State of Maryland. Ms. Kaiser has been in her 
job I think around 6 months or----
    Ms. Kaiser. Less than that, sir.
    Mr. Cardin [continuing]. Less than that. So she is new in 
this role, but she has already had an effective impact in our 
State. It is a pleasure to have you before our Subcommittee.
    Ms. Kaiser. Thank you.
    Chairman Johnson of Connecticut. Thank you. And we will 
start with Ms. Kadwell.

STATEMENT OF LAURA KADWELL, DIRECTOR, CHILD SUPPORT ENFORCEMENT 
     DIVISION, MINNESOTA DEPARTMENT OF HUMAN SERVICES, AND 
PRESIDENT-ELECT, NATIONAL CHILD SUPPORT ENFORCEMENT ASSOCIATION

    Ms. Kadwell. Madam Chair and distinguished Members of the 
Subcommittee, good morning and thank you for the opportunity to 
testify this morning on new hire reporting. My name, for the 
record, is Laura Kadwell. I am the director of the Child 
Support Division in the Minnesota Department of Human Services. 
I am also the president-elect of the National Child Support 
Enforcement Association, a nonprofit organization of more than 
2,000 child support professionals from around the country.
    Madam Chair and Members, I believe that new hire reporting 
is one of the most significant tools for enforcing child 
support that you passed in 1996 as part of welfare reform. The 
vision is simple: to see that parents who can pay, do pay. I am 
pleased to report this morning that in Minnesota this vision is 
being realized.
    New hire reporting is successful because it increases child 
support collections, because it improves the speed of 
collection, and because it has strengthened the relationship 
between government and employers in the private sector.
    My written testimony also shows how new hire has improved 
our ability to locate parents, a task that is fundamental to 
our success in many child support enforcement areas. The basics 
of new hire reporting are very simple: Employers report when 
they hire somebody--when that person has a job and, therefore, 
has an income. That report gets matched against the State's 
child support caseload, and we take actions to locate the 
parent or to enforce a child support order because we have that 
match.
    And then, as you know, data get sent to the National 
Directory of New Hires, and the same activities occur 
throughout the Nation in other States because of this 
reporting.
    First, I want to make the most basic point, which is that 
new hire reporting has increased child support collections. 
Minnesota implemented new hire reporting in July 1996, a year 
before the Federal mandate. The data I will discuss with you 
today are from our State fiscal year 1999, our third full year 
of new hire reporting.
    I want to call your attention first to a chart that you 
have. There is a small version of this at the end of my written 
testimony. There are also copies, I think, that have been 
distributed to Members that are the new and improved color 
copies.
    There are two boxes on this chart. On the left-hand side 
you will see a box describing the new hire matches, and on the 
right collections to child support as a result of those 
matches. The green bar on the extreme left shows that 39,000 
new hire matches happened in Minnesota in State fiscal year 
1999.
    Of those, 37,000 actually resulted in income withholding 
orders. Those orders then led to collections--and you see this 
narrow blue bar on the right-hand side--collections of $11.6 
million in Minnesota in 1 year. That is a 3-percent increase in 
collections in our State as a direct result of new hire 
reporting.
    I would like to underline a couple of points about these 
automated matches and quick income withholding orders. The 
first is that these numbers would not be possible without our 
automated systems. The system makes the match, the system 
generates the notice. We are not relying on workers to take an 
action in most of these cases. This is what Congress 
envisioned, and it is happening.
    The second point is that the high rate of income 
withholding orders within 60 days shows that the cases have 
orders. The major part of the work has been done. They just 
need a source of income from which to collect the ordered 
amount. New hire reporting finds the income, and the family 
gets support.
    The second point I want to make is that new hire reporting 
has improved the speed with which we get cases paying. One of 
the frustrations of Minnesota legislators--and I know of 
policymakers throughout the Nation--has been the growth of 
child support debt in this country. This was alluded to earlier 
this morning. People say to us, ``Can't we get at these folks 
earlier before they accumulate these large debts?'' New hire 
reporting is one way to do exactly that.
    I call your attention to the other chart that you have. 
What this chart is is collections from the first paycheck, from 
people who have not paid anything for the previous 3 months. 
There are two pieces of information that you can find from this 
chart. The first is that we collected almost a half a million 
dollars in the first month after these matches were made.
    The second is--and this is a little more tricky to 
understand--but you will notice that the line declines. The 
line declines because it is showing a decrease in the number of 
cases that have had no collection in 3 months. And so the point 
is that we are beginning to see a decrease in the cases from 
which there is no collection. That is an extremely important 
point if we want to reduce these large debts, we want to get 
people paying earlier and collect from them regularly.
    I would simply make one further point, and that is that new 
hire reporting has built strong bridges between child support 
and the Nation's employers. These bridges are invaluable in our 
work not only in new hire but also in income withholding and in 
creating the State disbursement units and making sure that they 
function well in the future.
    We do this by providing user-friendly ways for employers to 
report by including them in design decisions, by continually 
educating them about their responsibilities in the child 
support program.
    There are several comments from employers in my written 
testimony. They range from satisfaction with the mechanics of 
the system to their delight in ``catching these people.'' 
Employers grasp the significance of the contributions they are 
making to the well-being of the Nation's children.
    Thank you for the opportunity to testify this morning, and 
I would be pleased to answer any questions that you might have.
    [The prepared Statement follows:]

Statement of Laura Kadwell, Director, Child Support Enforcement 
Division, Minnesota Department of Human Services, and President-Elect, 
National Child Support Enforcement Association

    Mr. Chairman and distinguished members of the Subcommittee: 
Good morning, and thank you for the opportunity to testify on 
the impact of New Hire Reporting on child support collections.
    My name is Laura Kadwell. I am the Director of the Child 
Support Enforcement Division of the Minnesota Department of 
Human Services. I am also the President-Elect of the National 
Child Support Enforcement Association, a national, nonprofit 
organization of more than 2,000 professionals dedicated to the 
enforcement of children's rights to financial support from 
their parents.
    Mr. Chairman, I would first like to commend the leadership 
of this Committee for its unwavering determination to improve 
the tools available to the States to collect child support for 
children. Perhaps one of the most innovative reforms enacted as 
part of the Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA) in 1996 was the vision of a 
nationwide automated database, composed of information on every 
person hired in the United States. I am pleased to be able to 
report that in Minnesota, this vision is being aggressively 
implemented, and it is having the desired effect of increasing 
Minnesota's child support collections.
    I appreciate the opportunity to discuss New Hire Reporting. 
I will focus my remarks on the implementation of New Hire 
Reporting in Minnesota, how our child support collections have 
increased over the past year due to New Hire Reporting, how New 
Hire Reporting has assisted us in locating parents, and how New 
Hire Reporting has created successful partnerships.

                  I. Background on New Hire Reporting

    New Hire Reporting requires all employers to report newly 
hired and rehired employees to the child support enforcement 
agency within 20 days of hire or rehire. The information 
reported to the agency is maintained in a computerized State 
Directory of New Hires. In Minnesota, government agencies are 
required to report independent contractors they hire, and all 
other employers may report independent contractors if they 
choose.
    Multi-State employers, those who have employees in more 
than one State, may report all newly hired employees to the 
State in which the employee works, or the employer may 
designate only one State to receive all their new hire reports. 
If the multi-State employer chooses to report to a single 
State, the employer must notify the federal government to which 
State it will be reporting. A list of multi-State employers and 
their designated reporting States is then made available to all 
States.
    Keeping track of parents who change employers and move from 
State to State has historically been a difficult and time-
consuming task for child support enforcement staff. As many as 
one-third of the child support cases involve parents living in 
different States. In order to help track parents across State 
lines, welfare reform expanded the already established Federal 
Parent Locator Service to include the National Directory of New 
Hires. The State Directory of New Hires reports all State new 
hire data to the National Directory of New Hires through a 
dedicated telecommunications network. The National Directory of 
New Hires can then provide the information to all States.
    Minnesota began running comparison data from the National 
Directory of New Hires on July 15, 1999. The initial run of 
data produced 29,000 matches between child support cases in 
Minnesota and employment in another State. Minnesota is now 
running the national data daily and receives an average of 166 
matches per day.
    Finding noncustodial parents is fundamental to all 
successful child support work. When the parent is in another 
State, the task is especially time-consuming, sometimes 
impossible. Now, information from the National Directory of New 
Hires can cut that time by helping child support workers find 
the State in which a non-custodial parent is living. The worker 
can then contact that State for information, request assistance 
from the other State to establish or enforce child support, or 
send an order for income withholding directly to the employer. 
In the words of Kelly Vanderveen, a child support worker in 
Minnesota's Dakota County, ``Overall it (the National Directory 
of New Hires) was a big help. I had been looking in the wrong 
State.''

                    II. Implementation in Minnesota

    Minnesota implemented State New Hire Reporting in July of 
1996, fifteen months before the federally mandated deadline. 
Since July of 1996, New Hire Reporting has proven to be an 
effective means of locating non-custodial parents and getting 
child support to children.
    Within 20 days of hiring an individual, employers must 
report newly hired or rehired employees to the Minnesota New 
Hire Reporting Center. Each report must include the following 
information:
    <bullet> Employee name, address, and Social Security 
Number.
    <bullet> Employee date of birth, date of hire, and State of 
hire (if available).
    <bullet> Employer name, address, and Federal Identification 
Number
    Minnesota chose to privatize New Hire Reporting and 
contracts with Policy Studies, Inc. to operate the Minnesota 
New Hire Reporting Center. The Center compiles the employer 
reports and provides a daily electronic file to the Minnesota 
Child Support Enforcement Division for interface with the 
Statewide child support computer system.
    Minnesota uses New Hire information in three ways. 
Information is matched against Minnesota's child support 
records to locate parents, establish child support orders, or 
enforce existing child support orders. Information is sent to 
the Minnesota Department of Economic Security and the Minnesota 
Department of Labor and Industry for use in detecting erroneous 
unemployment or worker's compensation benefits. Finally, the 
new hire information is sent to the National Directory of New 
Hires to be used by other States to enforce child support.
    According to a computer match between the Minnesota 
Department of Revenue's employer file and the Minnesota New 
Hire Center's database of employers who have submitted reports, 
75 to 80 per cent of Minnesota employers are currently 
complying with New Hire Reporting. I believe the success of New 
Hire Reporting is due, in part, to Minnesota's continuing 
efforts to have an ``employer friendly'' New Hire Reporting 
program. Employers have the flexibility of choosing their 
reporting method. While the majority of reports are electronic, 
employers may also report on paper (which can be faxed) and by 
telephone. The New Hire Reporting Center also has a voice 
response system which allows employers to obtain information, 
request forms, make reports via a fax line, or speak with a 
customer service representative.
    Minnesota's Child Support Enforcement Division educates 
employers about the benefits and responsibilities of New Hire 
Reporting. We send an annual reminder to all employers in the 
State, informing them of the requirement to report employees to 
the Minnesota New Hire Reporting Center, and thanking them for 
their assistance in collecting child support for families. In 
partnership with the Minnesota Department of Revenue, Minnesota 
Department of Economic Security and the Internal Revenue 
Service, the Minnesota Child Support Enforcement Division also 
provides training to all new employers in the State.
    As Minnesota enters its fourth year of New Hire Reporting, 
the number of newly hired or rehired employees reported to the 
Center has continued to increase. The number of reports doubled 
from a little over one million reports in the first year of 
operation to over two million reports in the second year.

      III. New Hire Reporting Increases Child Support Collections

    When Congress enacted PRWORA, it envisioned the automated 
reporting of new hire information to a centralized system which 
would result in increased efficiency and effectiveness for 
child support enforcement. In Minnesota, this new tool has done 
both. Last year alone, Minnesota received almost 40,000 New 
Hire Reporting matches, as a result of which we collected more 
money for families, collected the money faster, found more 
parents, and established more paternities. These are precisely 
the goals set out for this initiative when it was passed and 
signed into law in 1996.
    Before showing more specifically the effect of New Hire 
Reporting on child support collections, I want to discuss two 
challenges we face in measuring the effectiveness of PRWORA 
reforms at this time. The first challenge is consistent 
measurement from State to State. This is a challenge throughout 
the child support program, especially in the wake of PRWORA, 
which increased the need for consistent, reliable and accurate 
data in many areas of the program. The federal Office of Child 
Support Enforcement (OCSE) is working in partnership with 
States to meet this need. In the area of New Hire Reporting, 
for example, OCSE is drafting a common methodology for 
measuring the benefits of New Hire Reporting.
    The second challenge is really a caution about comparing 
States to one another at this point in the implementation of 
welfare reform. As States implement various initiatives, they 
start from different places and generally do not implement 
initiatives in the same order. This means that it is difficult 
to draw fair comparisons between States with regard to various 
initiatives, whether it is the amount of collections or 
percentage rise in collections. At this time, I encourage you 
to look primarily at how States are making progress relative to 
their starting points, rather than relative to each other.

A. In one year, Minnesota New Hire Reporting Increased 
Collections by $11.6 Million.

    The primary goal of the child support program is to collect 
money from non-custodial parents so that children's economic 
needs are met by their parents rather than the government. In 
Minnesota, New Hire Reporting has done what it set out to do: 
it increased the amount of child support paid to benefit 
children. In State Fiscal Year (SFY) 1999 (July 1, 1998 through 
June 30, 1999), child support collected from non-custodial 
parents increased by 11.6 million dollars on child support 
cases which had a New Hire match. This is a 3% increase in 
collections directly attributable to New Hire Reporting. Chart 
1 (attached) illustrates this increase.
    In order to determine the amount of this increase, we 
looked at the average collection on each case with a New Hire 
match in the three months prior to the match. We used this 
number as a baseline, then tracked collections on those cases 
for a twelve month period. The difference in collections is 
attributed to the New Hire match. After the twelve month 
period, the collections on the case are simply considered to be 
part of the State's regular collection effort.

B. Automation Increases Efficiency of Child Support 
Collections.

    1. Increased Income Withholding--In Minnesota during SFY 
1999, 75% of child support collected came from income that 
employers withheld from their employees' paychecks. Employers 
then sent the money to the State disbursement unit for 
distribution to the custodial families. Any increase in the 
effectiveness of employer income withholding translates into an 
increase in child support paid. The more quickly we can locate 
an employer and start income withholding, the faster dollars 
come in and the sooner they can be distributed.
    The New Hire Reporting system makes it much harder for 
parents who have jobs to avoid their child support obligations. 
In SFY 1999, of 39,078 child support cases with a New Hire 
match, 37,156 had income withholding in place within 60 days of 
the match. The speed of enforcement indicates that these cases 
already had child support orders, but no source of income from 
which to collect. New Hire Reporting finds that source of 
income--employment--in a quick and automated fashion. Once 
employment is found, the State's automated child support system 
generates an income withholding notice, and payment begins.
    2. The First Paycheck Captured--According to Minnesota's 
most recent statistics, it appears that approximately 4% of the 
11.6 million dollar increase in child support collections was 
withheld from the first paycheck issued to the parent after the 
match. This fact is important for two primary reasons. First, 
this is money that would not have been collected absent the 
match. As we get further in time from a match, the causal 
relationship between the match and the collection becomes more 
tenuous. When we collect from the first paycheck, however, we 
are clearly collecting money that families and taxpayers would 
not have recovered without this tool.
    Second, since we collected money as soon as the 
noncustodial parents got these jobs, we will do it again if the 
parents move to new jobs. The system's ability to respond 
immediately when a parent with an order gets a new job will 
discourage noncustodial parents from job hopping to avoid 
paying support. This phenomenon is illustrated in part by the 
decline in the number of orders with no collection for the 90-
day period prior to the New Hire match. (See Chart 2, attached)
    The data showing collections from first paycheck were 
derived by reviewing cases which had no child support payments 
during the 90 days prior to the New Hire match, and had some 
collection during the month the New Hire match occurred. 
Collections totaling $123,000 were received in 925 cases in 
which the custodial parent was receiving public assistance. 
Collections totaling $340,000 were received in 1,932 cases in 
which the custodial parent was not receiving public assistance 
during the month of the New Hire match.
    These statistics represent $463,000 collected on 2,857 
cases which were receiving no payments 90 days prior to the New 
Hire match. These collections are almost certainly attributable 
to the efficiency of the system in getting income withholding 
in place in time to capture that first paycheck issued to a 
newly hired parent.
    3. Interstate Cases Easier to Process--As more States send 
information to the National Directory of New Hires, more 
parents and parents' employers will be located. The effect of 
locating employers in other States has already been felt in 
Minnesota because of the reporting of multi-State employers. 
Child support workers are finding the information received to 
be very valuable. If an enforceable child support order is 
already in place when an employer is found in another State, we 
can immediately direct an income withholding order to that 
employer. New Hire Reporting finds those employers.

[GRAPHIC] [TIFF OMITTED] T4324.001

    Next to collection numbers, which speak for themselves, the 
best measure of a new collection tool is its value in the eyes 
of experienced child support staff. Kathy DeNeui is a program 
manager in two outState Minnesota counties. She has a wealth of 
experience in child support and knows when she sees a 
successful tool. This is what Kathy States about New Hire 
Reporting:

          ``We have found some very valuable new hire information. We 
        have initiated direct income withholding on cases we were stuck 
        on with another State taking no action. New Hire has made us 
        `re-think' how we handle enforcement on interstate cases as we 
        are receiving good data that allows us to work directly with 
        employers or the non-custodial parent and not have to involve 
        other States. We have been able to pull the other State out of 
        enforcement on some cases and ultimately get support to 
        children faster as a result of New Hire Reporting.''

    This Statement illustrates, once again, how New Hire 
Reporting is doing exactly what Congress had hoped: it is 
getting child support to children faster.

C. Location of Parents Sets Groundwork for Future Collections.

    In addition to immediately increasing collections and 
quickly setting up income withholding, information from New 
Hire Reporting is useful in locating parents. Once parents are 
located, child support workers can take a variety of actions 
depending on the status of the case. Sometimes the new 
information will enable the worker to begin the process to 
establish a child support or a paternity order. In other cases, 
the information that locates the parent will enable the child 
support worker to take other enforcement actions.
    In cases experiencing a New Hire match during SFY 1999, 
27,488 cases moved from a ``locate'' status to either an 
``establish'' or ``enforce'' status. These changes in status 
happened within 90 days of receipt of the New Hire match. This 
means that the information provided was sufficient for the 
child support worker to take the next action on the case. In 
the words of Maggie Sonstegard, a child support worker from 
Stearns County, Minnesota, ``This is great! I found several 
non-custodial parents that I've been looking for for some 
time.''
    In some cases, the action needed is to establish paternity. 
The New Hire information has been valuable in paternity cases 
as well. Last year, 581 paternity orders were signed within 90 
days of the receipt of the New Hire match information. This 
indicates that New Hire information is an important tool in 
furthering one of the central goals of welfare reform--
establishing paternity for children of unmarried parents.

         IV. New Hire Reporting Creates Successful Partnerships

    Prior to the implementation of New Hire Reporting, 
information about a non-custodial parent's employment was 
received by the child support worker from a variety of sources. 
These included wage match information from the Department of 
Economic Security; telephone calls or tips; the Federal Parent 
Locate Service; ``Quick Locate'' requests sent to other States; 
letters; court orders; and individual locate requests to 
various State agencies or credit bureaus. Many times, when 
information was received, the information still had to be 
manually verified by the child support worker. Finding parents 
was cumbersome; verifying information was time-consuming. We 
were losing valuable time for children who needed economic 
support.
    New Hire Reporting adds a significant new database which 
has proven to be highly effective in providing timely 
information to child support workers. The potential of this new 
database increases as the partnerships between child support 
programs and employers grow. The most significant of these 
partnerships is our work with employers.
    Through extensive employer outreach efforts, Minnesota is 
currently at a 75 to 80 per cent employer compliance rate. As a 
result of brochures mailed to employers in May of 1999, 428 new 
Minnesota employers were added to the New Hire database. These 
new employers reported 1,926 new employees to the Minnesota New 
Hire Reporting Center. Minnesota has made a significant effort 
to make New Hire Reporting ``user friendly'' for employers. The 
advantages of New Hire Reporting in Minnesota include a wide 
variety of flexible reporting methods, a centralized reporting 
location, extensive customer assistance, and employer training. 
As a result, employer reaction to the New Hire Reporting 
program in Minnesota has been favorable.
    In 1996, the first year of New Hire Reporting in Minnesota, 
many employers recognized the potential of the new tool. Tom 
Hesse, a work-force policy manager at the Minnesota Department 
of Commerce, said at that time, ``Reaction has generally been 
positive. Generally, human resources people . . . see this as a 
way to help collect child support and do it in an efficient 
manner.''
    Now, three years later, a recently completed survey of 
employers indicates that employers continue to support New Hire 
Reporting. Here are a few of their comments:
    ``PayDay of MN, Inc., is a payroll and tax administration 
service bureau. In addition to payroll reporting and filing, we 
transmit new hire files, to your department, for over 500 
Minnesota companies (our clients). Since we are automated, our 
own efforts are minimal.'' PayDay of MN, Inc.
    ``As a multi-State employer, I think it is great that we 
can report all new hires to one State.'' Fastenal Company.
    ``Being able to transfer the files via PC anywhere is very 
helpful.'' PSE-PDS, Inc., a Missouri company.
    ``Am glad something is being done to catch these people to 
pay back.'' Al's Landscaping & Nursery, Inc.
    Clearly, Minnesota employers are willing partners in the 
New Hire Reporting program. The fears that employers would not 
comply with the law, nor understand the purpose of the program 
have not come to fruition in Minnesota. Because of the 
successful partnership forged between the child support program 
and employers, parents are being located and increased child 
support is getting to children.
    Before closing, I want to emphasize the importance of this 
partnership. New Hire Reporting is one of many tools that will 
be successful only if child support forges and nurtures lasting 
partnerships with those outside the program who can work with 
us to accomplish our mission. Employers believe in the mission 
of child support. They still need tools that accommodate the 
way they do business. They need information and education, and 
they need these things continuously. We are off to a good start 
with employers in Minnesota, but, like any relationship, the 
partnership must be carefully tended in the years to come in 
order for this and other tools to be successful over the long 
haul.

                             V. Conclusion

    In conclusion, Mr. Chairman, New Hire Reporting expedites 
collection of child support; speeds up the income withholding 
process; tracks parents who change jobs frequently to avoid 
paying child support; and quickly locates parents to either 
establish paternity, establish support orders, or enforce 
existing orders. Children need the support--financial and 
emotional--of both parents. New Hire Reporting helps children 
receive the support they need.
    Mr. Chairman, thank you for your invitation to testify 
before this distinguished Committee. Thank you to the Committee 
for your vision and leadership in the continuing effort to 
improve child support as a reliable source of income to 
struggling families. Minnesota will continue to work with 
Congress and our State Legislature, with the federal Office of 
Child Support Enforcement, and with other States in our mutual 
effort to realize the promise of PRWORA to the children and 
taxpayers of this nation.
    Thank you.

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your excellent testimony and good presentation.
    We will go ahead with Mr. Young.

 STATEMENT OF NICK YOUNG, DIRECTOR, CHILD SUPPORT ENFORCEMENT 
        DIVISION, VIRGINIA DEPARTMENT OF SOCIAL SERVICES

    Mr. Young. Madam Chair, Members, good morning. My name is 
Nick Young. For the record, I am the director of Child Support 
Enforcement for the State of Virginia, the Commonwealth. I am 
pleased to be here this morning.
    You have five charts that have been provided not only on 
the large chart to your right, my left, but also in your 
handouts you have the same five charts that I am going to speak 
from. My written testimony has been submitted. I will speak 
from the charts.
    Briefly, just to give you a thumbnail sketch, Virginia has 
got 422,000 cases, representing 558,000 children, or a quarter 
of the entire child population of Virginia. That is the beige 
bar on the bottom of the first chart. We collect about $1 
million a day, right at $350 million in the previous year.
    I am pleased to report the green line is going up faster 
than the blue line. While we try to control the number of 
children going into child support, that is probably the hardest 
factor to control. But we can control the collections. And the 
green line is showing remarkable acceleration over the blue 
line, which is something we look at.
    On the second chart, as we transform right into talking 
about new hire and what Ms. Kadwell excellently laid out for 
you as to how the mechanics of the program work, I want to give 
you just two or three charts that show how one State has made 
it work. Virginia was the pilot State or one of the pilot 
States for the New Hire Program, so it started in 1993, 3 to 4 
years before it was Federal law.
    And it was proven in principle very quickly, as you see, 
from a start of 78,000 matches the first year up to the latest 
year of 96,000, almost 100,000 people that are matched 
annually. We estimate that we have collected, over the last 6 
years, $43.3 million and that is only counting the 90 days 
after a person has been reported a new hire. We are not 
cumulatively reporting that. After 90 days, they go into the 
regular rolls of collection. So $43.3 million is, we think, 
pretty admirable for this one particular tool.
    On the third chart it shows just the number of Virginia new 
hire reports that are coming in. As you see, we are up to 1.7 
million. I attribute that huge increase in the past 2 years to 
several things.
    Number one, the employer community is extremely 
cooperative. This did not place additional burdens on the 
employer community other than filling out a W-4 form they had 
to fill out anyway, telling you how many dependents they wanted 
to have taxes withheld from. So that was employer-friendly.
    The second thing is better reporting by the employer 
community under the laws in 20 days. Most beat the 20 days 
significantly. It is not a matter of having to make them; it is 
a matter of they just do it.
    Third, the economy does not hurt that we have the number of 
people employed that we do. It is very helpful in that respect. 
And many of these people get multiple jobs, so you may see 1.7 
million new hire reports; one person may get 2 or 3 jobs in a 
year. But it is a testament to the system that each of them 
shows up as a place where we can send the wage withholding to 
make sure that we stay in touch with the person.
    The fourth chart is probably the good news chart, the best 
of all worlds. It shows the $20.5 million that we have 
collected annually we attribute directly to the National 
Directory of New Hires, and its partner, the State Directory of 
New Hires.
    Representative Cardin, you have correctly brought up about 
centralization. This is an excellent example of centralization 
and how well it works. It makes no difference which States you 
go to work in. The report is going to come back to the State of 
where the case is. It is an excellent, good news story.
    This is just the first 6 months in Virginia. You will see 
we have got 250,000 reports already, so we can extrapolate that 
we will have a half a million with no problem. Just on the 
State Directory of New Hires, we will again, like the first, 
second, and third charts showed you, have about 100,000 
reports. It is simply a good news story that goes without 
saying.
    The last chart is not a chart. It is an extract from The 
Richmond Times-Dispatch where on August 31 a gentleman from 
California was extradited and was put to Federal court in 
Richmond and found guilty under the 1998 Deadbeat Parents 
Punishment Act. He was the first one in Virginia to be 
federally prosecuted.
    It is not so much the good news story that we used the 
National Directory of New Hires to find him, although it is an 
excellent locate tool. What the good news story is that we 
found, and the Federal prosecutors found, his employers, who 
could come into court and testify as to his willful refusal to 
pay child support, and his ability, which is one of the 
elements of the crime in avoiding paying Federal child support. 
You have to prove that someone had the ability.
    Because of this, we were able to identify the employer and 
have him come and in and testified willingly that the man had 
the capability.
     That concludes my testimony. I will be prepared to answer 
any questions.
    [The prepared statement follows:]

Statement of Nick Young, Director, Child Support Enforcement Division, 
Virginia Department of Social Services

    Good morning, Mr. Chairman and members of the Subcommittee. 
My name is Nick Young and I am the Director of the Virginia 
Department of Social Services' Division of Child Support 
Enforcement. I am also a Board member of the National Child 
Support Enforcement Association, and I bring greetings from 
both the Commonwealth of Virginia and the Association. I am 
very pleased to be here this morning and honored to have been 
invited to testify.
    The subject for this morning, which I shall address from 
Virginia's perspective, is the impact of the ``Personal 
Responsibility and Work Opportunities Act of 1996'' (PRWORA), 
commonly referred to as the ``welfare reform act,'' on child 
support enforcement. Virginia's effort to implement welfare 
reform, under the direction of my boss, Clarence H. Carter, 
Commissioner of the Department of Social Services, has resulted 
in a reduction of Virginia's public welfare rolls of 48%!
    I believe it important to note that while this landmark 
legislation is referred to as a welfare reform bill, included 
in it was the most comprehensive revision and reform of the 
child support enforcement in the entire history of the federal/
State child support program. Indeed, some 90 pages of the Act 
addressed child support enforcement.
    Virginia's experiences in what we feel may be the most 
substantial support enforcement issues included in PRWORA are 
what I come to share with you this morning. Space limitations 
preclude greater comments. Virginia is referred to as an 
``administrative'' State for child support. Essentially, we are 
statutorily empowered to administer all facets of child support 
enforcement that the courts handle. Our administration is 
Statewide, rather than the individual county model used in some 
States.
    National and State Case Registries: PRWORA required that 
both individual States and the federal Office of Child Support 
Enforcement (OCSE) establish case registries of all support 
enforcement cases. Fortunately, Virginia already had a State 
case register in place due to its established automated case 
management system. However, we did not have in our case 
registry the court support orders, which we estimate to be more 
than 50% of all orders in the State.
    A bigger impact for Virginia has been the establishment of 
the federal case registry (FCR.) This has proven to be of 
substantial assistance for us, establishing the means of 
collecting that court information prospectively, as PRWORA 
required. It has also provided for automation of certain 
support enforcement activities. We anticipate substantial 
impacts from the Federal Case Registry, as authorized by 
PRWORA.
    State disbursement unit: Again, Virginia was fortunate in 
having in place a centralized, State disbursement unit. We have 
made necessary changes such that for the ninth consecutive 
month (through August, 1999), Virginia has achieved a payment 
processing rate of 99.98 % within a 48-hour time frame and an 
overall year-to-date average of almost 85%. In order to ensure 
even better delivery of child support funds, Virginia offers 
automated direct deposit to child support enforcement customers 
in an effort to make funds available to custodial parents 
faster, decrease paperwork, and eliminate lost and stolen 
checks. Of course, the overall impact is that faster 
disbursements of child support payments means better service to 
our customers and fewer calls to employers.
    Full Statewide inception of this initiative began in the 
fall, 1998. To date, nearly 18,000 active direct deposits cases 
representing 25% of all payments to customers are made via 
direct deposit. The Commonwealth realizes a savings of 
approximately eleven cents per customer per payment. 
Prospective customers are routinely reminded of the 
availability of this service via payment stubs included in 
their child support payments.
    National and State Directories of New Hire (NDNH & SDNH): 
Virginia had a New Hire program established several years 
before PRWORA was approved, e.g. we already had a State 
directory of new hires. Virginia has also done considerable 
work with the family violence indicator including using the 
State Police Protective Order file and highlighting in red on 
our automated system those individual cases who's indicator is 
set.
    Perhaps a very positive example of the National Directory 
of New Hire, authorized under PRWORA, was experienced just last 
month in Virginia with the recent conviction by a federal judge 
in Richmond, Virginia of a California noncustodial father. 
Through the use of information resulting from the NDNH, we were 
able to locate, have arrested and extradite from northern 
California who owed more than $50,000 in child support. This 
man was the first person charged and convicted in Virginia for 
crossing State lines and failing to pay child support as 
ordered. Sentencing is anticipated shortly by the federal 
judge.
    The number of Virginia new hire reports has increased from 
1,076,000 in SFY94 to 1,739,000 in SFY99. The number of cases 
matched in 1994 was 79,000; in 1999, the number rose to 97,000. 
Estimated annual collections from the State (Virginia) 
Directory of New Hires is $7.5 million; from the National 
Directory of New Hires, the number we collect an additional $13 
million annually. PRWORA has had a most positive impact in the 
collection of child support with its requirements for these two 
directories.
    Employer information on our system is now automatically 
updated based on new hire information received. To locate 
employers, Virginia now has the capability of inquiry by 
Federal Employer Identification Number.
    We are now receiving and processing NDNH data. On a State 
basis, from more than 1.7 million new hires in the Commonwealth 
in SFY99, we had 97,000 that matched cases with unpaid child 
support, a match rate of 5.6%. Since its inception in Virginia 
in 1993, approximately $43 million has been collected as a 
direct result of our in-State new hire reporting.
    Income Withholding: Virginia had an employer income 
withholding system in place prior to the passage of PRWORA. Our 
time frames were quicker than those of PRWORA. Virginia law 
expects the employer to forward the income withholding on each 
payday; no delays accepted. Therefore, in this area, we chose 
not to make any changes since our system is even more effective 
and obtains support monies more quickly.
    Certainly, we have worked with the employer community to 
educate them on the PRWORA requirements for employers, 
including the concurrent notice of the income withholding via 
the employer. We believe the PRWORA expanded definition of 
``income'' has been very helpful in accessing more of the total 
resources available for the support of children.
    The PRWORA requirement that all monies be sent directly to 
directly to DCSE ensures the best record of payments and 
reducing conflicts. Perhaps the most important authority 
related to income withholding relates to our ability to 
transmit the income withholding orders to the employers 
electronically. This definitely expedites the flow of support 
money to the custodial parent and child/ren. We currently 
generate income withholding orders automatically and 
electronically, without worker intervention. This releases 
staff time to work other areas of enforcement.
    Virginia DCSE expects to issue 52,000 income withholding 
orders annually based on new hire information (referenced in 
above section.) Income withholding collections are expected to 
increase from $206 million in 1998 to $241 million in 2000.
    As another result of PRWORA, in October, 1998, Virginia 
began implementation of electronic income withholding by adding 
the new federal withholding form on-line. In April, 1999, the 
phase-in of automatic issuance of income withholding orders 
began. Less worker (manual) issuance of withholding orders is 
expected to result in savings of $424,000 per year.
    Expedited Procedures: Virginia had many of the expedited 
procedures authorized by PRWORA in place due to our being an 
administrative process State (e.g., subpoena power and access 
to public agencies and many private agencies.) PRWORA's 
authorization added many new ones, including access to 
subscriber data of cable television companies, ability to 
attach workers compensation lump sum payments, access to all 
private companies customer data, with penalties for failure to 
comply. We have been very careful to use these new, expanded 
data sources appropriately, limiting our use only to locate 
putative fathers and/or noncustodial parents who owe child 
support. We have stringent requirements for our staff on the 
use of this expanded information access, understanding the 
trust which has been placed with support enforcement agencies.
    Administrative Paternity: PRWORA mandated that a signed 
voluntary acknowledgment of paternity be considered a legal 
finding of paternity if not rescinded by a party within 60 
days. However, the rescission period terminates prior to the 
expiration of 60 days if an administrative or judicial 
proceeding relating to the child in which the signatory if a 
party occurs. The advantage of this procedure is the 
``finality'' created by the signing of a paternity 
acknowledgment. If paternity is contested beyond the rescission 
period, the hearing must be in court, and will be heard only on 
the basis of fraud, duress or material mistake of fact.
    Another benefit of PRWORA is the mandate that any party 
contesting original genetic test results must provide advance 
payment prior to additional testing (a savings for the State). 
The Act also mandated that both parents signing a paternity 
acknowledgment must be provided an oral (as well as written) 
explanation of their rights and responsibilities. This is one 
more measure to ensure, to the fullest extent possible, that 
both parties understand the significance and importance of 
their actions.
    PRWORA provided States the ability to administratively 
order genetic testing, another time and money saver. Previously 
only the court had the authority to do so. The Act mandates led 
to a much-improved working relationship with the Virginia Dept. 
of Health's Office of Vital Records & Health Statistics 
(OVR&HS). Mandates regarding access to certain information and 
increased use of automation led to the establishment of the 
Electronic Birth Query System (EBQS), a process by which 
selected DCSE staff have on-line access to paternity 
information stored at OVR&HS. The two agencies have worked very 
closely over the past 2 years to ensure that paternity 
acknowledgments are properly completed, filed and recorded. In 
addition, OVR&HS has made death file records information 
available to DCSE for match purposes to identify NCPs who have 
died.
    Financial Institution Data Match (FIDM): All States began 
receiving information from the initial matches between multi-
State financial institutions and OCSE last month, August 1999. 
This information is the result of matching child support files 
from the federal tax offset tapes with accounts from multi-
State financial institutions. The primary purpose of the match 
data is to freeze and seize funds from financial accounts of 
delinquent child support obligors. Virginia already had such a 
system in place, using what we call an Order to Withhold and 
Deliver (OWD), however the difficulty has been in 
identification of the location of the delinquent obligor's 
assets.
    Upon receipt of information that a delinquent obligor 
indeed has assets, our enforcement specialists are able to 
issue an OWD so these funds can be applied towards the 
delinquent child support owed. It is important to note this is 
not done to any noncustodial parent without allowing them due 
process. Due process is built into the system. While we have 
only one month's experience with these data matches, initial 
observations are this will become a most significant resource 
in enforcing support orders of the egregiously delinquent 
obligors. This may become one of PRWORA's most important tools 
in addressing delinquent child support obligors.
    Distribution of Child Support Collections (included 
``family first'' distribution and elimination of federal 
financial share of $50 disregard): Virginia opted to implement 
the ``family first'' distribution of child support payments 
effective October 1, 1998. This has been a contributing factor 
in the steady decline in the TANF caseload. With the ``family 
first'' distribution, our estimate is as much as $600,000 a 
month would be sent to the family instead of the State. 
Virginia's General Assembly opted to continue the payment of 
$50 passthrough (disregards) to the custodial parents receiving 
Temporary Assistance for Needy Families (TANF) despite the 
elimination of the federal share. Under the new distribution 
rules, the State bears the full burden of passthrough payments 
to the custodial parents. The cost to the State of paying the 
disregards to the custodial parents was $4.8 million in FY98 
and $3.7 million in FY99. We estimate this cost to decline over 
time.
    Suspension of Licenses: Virginia passed a driver's license 
suspension law in 1995, a year prior to PRWORA. The Division of 
Child Support Enforcement worked closely with the Department of 
Motor Vehicles in implementing the program. Much of the process 
is automated. Since 1995, a total of $51 million dollars has 
been collected as a result of the driver's license suspension 
program. Without question, PRWORA's inclusion of license 
suspension has made this important enforcement tool more 
acceptable in many portions of the legislative and 
administrative bodies.
    Virginia's General Assembly approved accompanying 
legislation addressing professional/occupational licenses and 
recreational licenses. We have been forced to move more slowly 
in to these areas due to an absences of centralized, automated 
data bases available to us in the various agencies and 
licensing organizations for these purposes. We do anticipate 
substantial collections as we proceed to gain access to 
automated databases of holders of these various licenses. Our 
desire is not to suspend any parent's licenses, but to get 
child support payments started and ongoing. To support the 
driver's license suspension, the General Assembly approved 
legislation that requires, pending license suspension, the 
parent to pay the support debt or enter into a payment 
agreement that requires the greater of 5% of the debt or $500, 
with the debt to be totally paid off in no more than ten years.
    Automated Data Processing--Certified System: Virginia's 
automated system was unconditionally certified under the Family 
Support Act of 1988. We were also one of the first two State 
systems certified by OCSE. PRWORA includes extensive automation 
requirements. Virginia has already implemented the majority of 
these requirements. I must acknowledge the substantial 
challenge of implementing PRWORA's ADP requirements to 
implement all child support aspects of the Act has and 
continues to stretch our resources and has been most expensive.
    Uniform interstate Family Support Act (UIFSA): Virginia 
implemented UIFSA in July 1994 and as a result of PRWORA 
requirements, implemented amendments to UIFSA statutes in July 
1997. PRWORA required the use of standardized forms for working 
interstate cases. Using these standardized forms has eliminated 
confusion and improved on problems in interstate cases. PRWORA 
added time frames for acting when one State is responding to 
another State's request to enforce a support order. This has 
enhanced the timeliness of information available to Virginia's 
child support workers when working interstate cases.
    Access to Locator Information from DMV and Law Enforcement: 
With PRWORA authority, we now periodically conduct an automated 
match with Virginia State Police's Concealed Weapons Permit and 
Computerized Criminal History files for location of putative 
fathers and noncustodial parents.
    Privacy Safeguards: In Virginia the Family Violence 
Indicator (FVI) is set with either the existence of a 
protective order or the signing of an Affidavit of 
Nondisclosure based on reason to fear physical or emotional 
harm. A quarterly automated match is conducted with the State 
Police Protective Order file. Our automated system now has the 
capability of highlighting information in red, if the FVI is 
set.
    KidsFirst Campaign: As a result of the passage of PRWORA, 
we in Virginia saw a renewed goal for the most active and 
stringent efforts to collect child support for Virginia's 
children. PRWORA became the impetus for a program we call 
KidsFirst. Space limits me to simply a few examples of this 
program. The Virginia KidsFirst Campaign has netted $70 million 
from the Commonwealth's most egregious child support evaders as 
of September 1999. When we started out, we viewed the Campaign 
as just one more tool with which to arm our workers--one more 
way to get the attention of delinquent noncustodial parents 
(NCPs). We certainly didn't anticipate that this lone 
initiative would reap such a mushrooming response.
    After a two-week ``amnesty'' where delinquent noncustodial 
parents were promised that if they came to DCSE offices and 
worked out an acceptable payment agreement, no legal efforts 
which could place them in jail would be attempted. That was 
followed by what we call ``roundups.'' In a given geographic 
area, delinquent cases are identified, summons and warrants are 
prepared. Then DCSE staff work with cooperating local law 
enforcement officials to round up delinquent NCPs with 
outstanding capias warrants and to issue new warrants to many 
others
    These roundups are usually picked up by major news sources 
and widely publicized through a gubernatorial press conference 
that included several real-life vignettes. One of these stories 
centered on sheriff's deputies who had to forcibly extricate a 
delinquent NCP from his home. When captured on film by the 
press, the father, handcuffed from behind, was wearing a 
``World's Greatest Dad'' tee shirt. The Statement this lone 
picture made to the public requires no explanation.
    To date, we have held five roundups resulting in $70 
million of collections and even more continuing as a result of 
payment agreements from other obligors who saw their friends 
picked up by law enforcement officers. Over four hundred 
evaders have been arrested.
    Our third round up in November 1997 introduced a new tool 
to encourage delinquent NCPs to pay up--boots. Boots are steel 
mechanisms that attach to a car wheel, making it impossible to 
drive until the driver complies with authorities' direction. In 
Virginia, this direction took the form of settling the child 
support debt or making a payment agreement. Using pink (for 
daughters) and blue (for sons) boots--along with a bright 
fluorescent windshield sticker that explains the reason the 
boot has been used, has proven to be an additional way to get 
the attention of child support evaders.
    Virginia law enforcement officials have been extremely 
receptive to the use of boots as it negates the cost of holding 
someone in jail or towing a car and paying storage fees. Our 
booting of cars is not aimed at denigrating offenders, but to 
get their attention and have them do the right thing. Some 
people really value their cars and will want that thing off as 
soon as possible. . .it has a built-in shame factor. The boots 
cost approximately $350 apiece and are stenciled with an 
appropriate message; Each Virginia boot has ``Property of Child 
Support Enforcement'' printed on it.
    Virginia's DCSE plans future round ups. Vigorous 
enforcement measures are available to DCSE through a 
cooperative agreement among the Virginia Attorney General's 
Office, the Virginia State Police, each of the sheriffs in each 
Virginia county, as well as each Commonwealth's Attorney in the 
127 counties and cities of Virginia.
    In conclusion, PRWORA has served as an effective catalyst 
for the most comprehensive revisions to Virginia's Child 
Support Enforcement program in its 25 year history. PRWORA'S 
comprehensive elements fully support Virginia's determination 
to clearly communicate society's lack of tolerance for those 
who fail in their responsibility to financially support their 
children.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Very, very interesting.
    Ms. Smith. Marilyn Ray Smith.

 STATEMENT OF MARILYN RAY SMITH, ASSOCIATE DEPUTY COMMISSIONER 
 AND CHIEF LEGAL COUNSEL, CHILD SUPPORT ENFORCEMENT DIVISION, 
              MASSACHUSETTS DEPARTMENT OF REVENUE

    Ms. Smith. Good morning, Madam Chairman and Congressman 
Cardin. Thank you for the opportunity to testify. My name is 
Marilyn Ray Smith. I am chief legal counsel for the 
Massachusetts Child Support Enforcement Division, which is 
housed in the Department of Revenue.
    Welfare reform is working, as we have heard this morning. 
Child support collections are up and welfare caseloads are 
down. I will focus my remarks today on the financial 
institution data match and levy program. This tool for 
collecting child support arrearages was started first in 
Massachusetts in 1993, and then was adopted by Congress in 1996 
as a requirement for all States.
    I have three key points to make. First, financial 
institution data match brings in significant collections on 
cases owing past due support. Second, a properly designed data 
match works smoothly for banks, their customers, and child 
support agencies. And, third, bank account seizures that result 
from the data match meet due process requirements under Federal 
and State law and adequately protect noncustodial parents' 
property rights.
    Someone once asked Willie Sutton why he robbed banks, to 
which he replied, ``That is where the money is.'' The same 
simple logic applies for child support. Many noncustodial 
parents who owe past due support are not subject to wage 
assignments because they are self-employed, or they work under 
the table, or they make such small payments toward the large 
arrearage that it will take literally decades to pay it off.
    Meanwhile, they salt money away in a bank account, a credit 
union account, a retirement fund, or a money market mutual fund 
while their children do without. Financial institution data 
match is one of the boldest and most innovative provisions of 
the 1996 child support reforms. It establishes a process where 
every quarter a magnetic tape of child support debtors can be 
compared to tapes of accountholders from banks, credit unions, 
mutual funds, and other financial institutions.
    The data match identifies accountholders who have child 
support debts and allows the child support agency to issue a 
levy on the account. A 1998 amendment allows multistate 
financial institutions to exchange information with the Federal 
Office of Child Support Enforcement, which can perform the data 
match on behalf of all of the States.
    In Massachusetts, we have found this program to be a 
powerful tool for collecting past support. If you look at 
charts 1 and 2, which are on the first page, which I think may 
have been passed out for you, you will see that since 1993 
Massachusetts has collected more than $25 million on past due 
support through the use of this remedy.
    Only Federal and State tax refund intercepts collect more 
arrearages each year than the bank levy program. This chart 
lists for every year the amount of money that we have collected 
and then shows the cumulative amount on the bottom.
    The average bank levy is $770, while the average Federal 
tax refund intercept is $930, and the average State tax refund 
intercept is only $300. The reason we get more from the State 
tax intercept is that we just have more cases that have a 
``hit.''
    We just seized more than $6,000 on behalf of a mother in 
Ohio from bank accounts belonging to a vice president of a 
major Boston bank who owed more than $20,000 in back support. 
He had been contentedly paying his debt at the rate of $150 a 
month, a payment plan that would have taken 11 years to 
complete, all while he pulled down a salary of almost $100,000 
a year!
    We have found that this data exchange between the 
Department of Revenue and the banks has worked very well for 
all of us in Massachusetts. From the very beginning, we 
involved the banking community in drafting the legislation, and 
in working out the operational details to make the flow of 
information and paper go smoothly.
    We have found our banks to be most cooperative. Almost 
1,000 financial institutions participate. They can choose one 
of two methods to comply with the requirement to provide the 
information to the Department of Revenue. Either they send us 
the data and we do the comparison against our file of those who 
owe past due support, or we send them the list of child support 
debtors and they do the comparison.
    Once hits are identified, we issue a levy for the amount of 
past due support. The bank then sends us the money, which we 
hold for 21 days to allow the noncustodial parent an 
opportunity to appeal. Almost 43,000 levies have been executed 
in this fashion since 1993.
    This data match program and bank levy process have ample 
due process protections for the noncustodial parent. Due 
process requires that the owner of property that is seized have 
notice and an opportunity for a hearing. In child support 
cases, this hearing takes place when the court sets the initial 
order.
    Under the Bradley amendment of 1987, a child support 
obligation becomes a judgment by operation of law as it becomes 
due and unpaid. And under the welfare reform legislation of 
1996, an administrative lien also arises by operation of law 
against any unpaid child support. It is therefore not necessary 
for the child support agency to return to court after each 
payment is missed to get a lien or levy to enforce a judgment 
and seize property.
    There is a further due process protection. Before a name 
gets on the Department of Revenue's bank match list in the 
first place, at least once a year we send the noncustodial 
parent a general notice setting forth the amount of back 
support that we claim is owed. The notice lists all of the 
kinds of real and personal property that is subject to lien, 
levy, and seizure, including bank accounts.
    The notice also tells the noncustodial parent how to 
request an administrative appeal if the noncustodial parent 
contests the amount that we claim is owed. If there is no 
appeal, or if it is denied and the bank account is seized, the 
noncustodial parent gets yet another opportunity for an appeal. 
And if that appeal is substantiated, the funds are returned.
    The Massachusetts Supreme Judicial Court, our highest 
appellate court, has found that the process I described passes 
constitutional muster and meets all due process requirements 
under Federal and State law to protect the noncustodial 
parent's property interest. The details of that case are in the 
written testimony.
    In summary, financial institution data match works. It 
collects a lot of money, it does not create undue burdens for 
cooperating banks, and it provides adequate due process 
protections for noncustodial parents. It is a very important 
new tool as part of our longstanding work with the Members of 
this Committee, to make sure that all parents fulfill their 
financial responsibilities to their children.
    Thank you very much.
    [The prepared statement follows:]

Statement of Marilyn Ray Smith, Associate Deputy Commissioner and Chief 
Legal Counsel, Child Support Enforcement Division, Massachusetts 
Department of Revenue

    Madam Chairman, distinguished members of the Subcommittee: 
Good morning, and thank you for the opportunity to report to 
you on the significant accomplishments of the nation's child 
support enforcement program in the three years since passage of 
the Personal Responsibility and Work Opportunity Reconciliation 
Act of 1996.
    My name is Marilyn Ray Smith. I am Chief Legal Counsel and 
Associate Deputy Commissioner for the Child Support Enforcement 
Division of the Massachusetts Department of Revenue.
    Madam Chairman, I would like to commend the leadership of 
this Committee for its work in crafting the child support 
provisions of the Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA). This legislation contained the 
most comprehensive provisions on child support enforcement in 
the history of the program, and has moved us a long way toward 
reducing welfare dependency and ensuring that children get the 
child support they are due, on time and in full. It provides 
for better access to financial and employment information; it 
helps States streamline procedures to make maximum use of 
automation; it makes it easy for parents to establish 
paternity; and it removes barriers in interstate cases.
    I will focus my remarks today on the financial institution 
data match, a program that was started first in Massachusetts 
and then adopted by Congress in 1996 as a requirement for all 
States. First, I will provide an overview of the program. 
Second, I will illustrate how effective financial institution 
data match has been in increasing child support collections in 
Massachusetts, contributing more than $25 million from almost 
43,000 levies since its inception in 1993. Third, I will 
explain how it works--for the banks, for the Department of 
Revenue (DOR), and for the noncustodial parents whose assets 
have been seized. Finally, I will address due process concerns 
that some may raise.

      ``Go Where the Money Is'': Financial Institution Data Match

    Someone once asked Willie Sutton why he robbed banks, to 
which he replied ``That's where the money is.'' The same simple 
logic applies for child support programs. Many noncustodial 
parents who are delinquent in child support payments are not 
subject to wage assignments because they are self-employed or 
they work under the table. Or they make such small payments 
toward a large arrearage that it will take twenty years to pay 
it off. Meanwhile, they salt money away in a bank account, a 
credit union, or a money-market mutual fund, while their 
children do without--often supported by the taxpayer.
    Sometimes referred to by its acronym, ``FIDM,'' the 
financial institution data match is one of the boldest and most 
innovative provisions of the 1996 child support reforms. 
Section 372 of PRWORA (42 U.S.C. 666(a)(17)) requires State 
child support agencies to enter into agreements with financial 
institutions doing business in the State to develop and operate 
a data match system, using automated data matches to the 
maximum extent feasible, to exchange information each calendar 
quarter on the name, customer address, Social Security or other 
taxpayer identification number, and other identifying 
information for each noncustodial parent who maintains an 
account at the financial institution and who owes past-due 
support. A 1998 amendment allows multi-State financial 
institutions to enter into one such agreement with the Federal 
Office of Child Support Enforcement (OCSE), which can perform 
the data match on behalf of all the States.
    Financial institution data match is thus designed to 
establish a process where every quarter a magnetic tape of 
child support debtors subject to child support liens can be 
compared to tapes of account holders from banks, credit unions, 
mutual funds and other financial institutions (other electronic 
means may be used in lieu of magnetic tapes). A data match 
identifies account holders with child support debts and allows 
the child support agency to issue a levy to the financial 
institution, with notice to the account holder. The financial 
institution then freezes the funds in the account up to the 
amount of the child support debt and forwards the funds to the 
child support agency for distribution to the family (or to the 
State, where support has been assigned to the State).

     Financial Institution Data Match Is a Powerful Collection Tool

    As the charts on the following pages vividly illustrate, 
financial institution data match is a powerful tool for 
collecting past-due support. As Charts 1 and 2 indicate, since 
1993, Massachusetts has collected more than $25 million from 
almost 43,000 levies through use of this remedy. Also of note 
is that bank levy is not just a remedy for non-welfare cases. 
Almost 45 percent of the total amounts collected were allocated 
to public assistance reimbursement. This is the case even 
though Massachusetts has followed ``Family First'' distribution 
rules since 1992. Under these distribution rules, in cases 
where arrears are owed to both the State and the family, we pay 
collections from bank levies to families first, before 
reimbursing the State for public assistance costs. Moreover, as 
shown in Chart 3, only the federal and State tax refund 
intercept programs collect more arrearages each year than the 
bank levy program. In fact, the average bank levy is $770, just 
$160 less than the average federal tax refund intercept of 
$930, and a significant $470 more than the average State tax 
refund intercept of $300 (Chart 4). There are just more of the 
latter to make up a greater total collection amount.
    Just as the amount collected from tax refund intercepts 
varies from year to year depending on the number of cases 
submitted and the amount of withholding that has occurred, 
similar factors affect returns on the financial institution 
data match. While DOR was making the transition to the new 
automated computer system mandated by the Family Support Act, 
the bank levy program was temporarily suspended. In addition, 
there are generally more collections at the beginning of the 
program. Once a seizure takes place, it takes a while for a 
bank account to be replenished by new deposits. Or the 
noncustodial parent may close the account, and it takes a while 
for a new one to surface. Nonetheless, DOR projects that this 
year's financial institution data match will reach new highs, 
with estimates of collections between $6 and $7 million by June 
30, 2000. One source of this boost is expected to come from the 
multi-State financial institution data match, which is underway 
at the Federal Office of Child Support Enforcement. When it is 
in full operation, interstate banking will no longer be a safe 
harbor for delinquent noncustodial parents. In fact, we just 
seized more than $6,000 on behalf of a mother in Ohio from bank 
accounts belonging to a vice president of a major Boston bank 
who owes more than $20,000 in back support. He had been 
contentedly repaying his debt at the rate of $150 per month--a 
payment plan that would have taken 11 years to complete, all 
while he pulled down a salary of almost $100,000 a year!

      How Financial Institution Data Match Works in Massachusetts

    In 1993, as part of an ambitious and aggressive initiative 
by the Weld-Cellucci Administration to improve child support 
enforcement in advance of welfare reform, Massachusetts started 
its first financial institution data match. As you may recall, 
the child support agency in Massachusetts is housed in the 
Department of Revenue. At first, we used Form 1099 information 
that banks and other financial institutions were already 
required to report to DOR as the tax collection agency for the 
Commonwealth. However, we soon recognized that by the time it 
got to us, Form 1099 information was often stale and out of 
date, with bank accounts depleted or closed when we sent a bank 
levy. Inspired by our early successes, in 1994, the Legislature 
authorized the Commissioner of Revenue to require financial 
institutions to report account information to DOR every quarter 
(Mass. Gen. Laws, c. 62E, Sec. 4). The required information 
consists of the account holder's name, customer address, Social 
Security number, and other identifying data.
    Financial institutions may select either of two methods to 
comply with the requirement to provide information to the 
Commissioner of Revenue. Under the first method, the financial 
institution sends required data on all its accounts to DOR, 
with quarterly updates. DOR then compiles the data from the 
various banks, and matches it with our list of noncustodial 
parents owing past due support. When there is a ``hit,'' a bank 
levy is automatically generated by DOR's computer and sent to 
the bank. One third of participating banks, usually the smaller 
ones with more limited computer capability, follow this method.
    Under the second method, DOR sends to the financial 
institution the list of noncustodial parents owing past-due 
support (a threshold amount of at least $500). The financial 
institution conducts the data match, and sends the list of 
``hits'' to DOR, which in turn issues the levy back to the 
financial institution. Two thirds of the participating 
financial institutions, usually the larger institutions, use 
this method.
[GRAPHIC] [TIFF OMITTED] T4324.002

[GRAPHIC] [TIFF OMITTED] T4324.003

    Once the bank or other financial institution receives DOR's 
levy, it freezes the account for 60 days, so that any funds 
deposited into the account during this period are subject to 
the levy. Within 21 days of receipt of the bank levy, it sends 
the encumbered funds to DOR. We then hold the funds for at 
least another 21 days, to allow the noncustodial parent whose 
account has been seized an opportunity to file a request for 
administrative review if the noncustodial parent claims that he 
or she does not owe the money.
    Banks do not hesitate to honor the DOR levies. 
Massachusetts law requires third parties such as financial 
institutions or insurance companies holding property belonging 
to a delinquent noncustodial parent to turn over the property, 
or be liable for the value of the property up to the amount of 
the child support levy, plus costs, interest and penalties 
(Mass. Gen. Laws c. 119A, Sec. 6(b)(7)). Financial institutions 
receive a fee of $20 from the noncustodial parent's account for 
processing the levy. They are not compensated for providing 
information or conducting the data match (although this is the 
case in some other States).
    To avoid tipping off obligors to upcoming levies, financial 
institutions are prohibited by statute from notifying the 
account holder or depositor that DOR has submitted his or her 
name for the data match (Mass. Gen. Laws, c. 62E, Sec. 14). The 
penalty for violations is the lesser of $1,000 or the amount in 
the account. Financial institutions are permitted to tell 
account holders and depositors generally about DOR's authority 
to request identifying information under the financial 
institution data match.
    To protect individual privacy, DOR has strict statutory 
safeguards in place to limit access to and disclosure of data. 
Personal information about individuals in the child support 
caseload is not a public record and may only be disclosed in 
specified circumstances. Penalties for unauthorized use, access 
or disclosure include dismissal from employment, fines of up to 
$1,000, up to one year in prison, and disqualification from 
holding office in the Commonwealth for up to three years (Mass. 
Gen. Laws, c. 119A, Sec. 5A(c)). In addition, contractors who 
violate DOR's disclosure rules can have their contracts 
terminated and be barred from entering into future contracts 
with the State. Under PRWORA, all State child support programs 
are now required to have policies in place to restrict access 
to data and safeguard individual privacy (42 USC 
Sec. Sec. 654(26), 654A(d)).
    Almost 1,000 financial institutions doing business in 
Massachusetts participate in this program, including savings 
banks, credit unions, commercial banks, mutual fund companies, 
and brokerage firms. This process has worked well for the 
Massachusetts banking community, in large part because they 
worked closely with DOR both in drafting the legislation and in 
implementing the operational details to make the flow of 
information and paper as smooth as possible for all concerned. 
In general, we have found the banking community to be most 
cooperative in setting up this process, a manifestation of our 
shared common purpose that the children of the Commonwealth be 
supported by their parents.

      Due Process Protections for Delinquent Noncustodial Parents

    The financial institution data match program has ample due 
process protections for the noncustodial parent, which I will 
describe in some detail, as this may be of some concern for the 
members of the Committee. When property is seized, due process 
under federal and State law requires that the owner of the 
property have notice and an opportunity for a hearing. There 
are different due process standards for ``pre-judgment'' and 
``post-judgment'' seizures, with the former generally requiring 
the notice and opportunity for a hearing before the seizure, 
and the latter after the seizure. In child support cases, the 
pre-judgment due process hearing takes place when the court 
sets the initial order. As you know, under the Bradley 
Amendment enacted by Congress in 1986, a child support 
obligation becomes a judgment by operation of law as of the 
date that that it is due and unpaid. In addition, under Section 
368 of PRWORA (42 U.S.C. 666(a)(4)), an administrative lien 
also arises by operation of law against any unpaid child 
support. It is therefore not necessary to return to court after 
each payment is missed to get past-due support reduced to a 
judgment in order to obtain a lien or enforce a judgment. This 
means that a child support agency can move quickly to seize 
income and assets of a delinquent noncustodial parent, without 
first passing through a judicial or quasi-judicial hearing 
process. In Massachusetts these provisions are codified in 
Mass. Gen. Laws, c. 119A, Sec. Sec. 6 and 13.
    To provide further due process protections, before a 
noncustodial parent's name gets on the DOR bank match list in 
the first place, at least once a year we send a general notice 
to the noncustodial parent, setting forth the name of the 
custodial parent, the amount of past-due support we claim that 
the noncustodial parent owes, and the court that issued the 
order.
    The notice lays out the procedures to follow if the 
noncustodial parent disputes the amount of past-due support, 
and provides for an administrative appeal process. The notice 
also States that if the noncustodial parent does not pay the 
amount owed within 30 days, DOR will proceed without further 
notice to use a range of enforcement remedies to collect the 
debt. The notice indicates that real and personal property 
subject to lien, levy and seizure includes: real eState, motor 
vehicles, bank accounts, stocks, bonds, rental receipts, public 
and private pension or retirement funds, cash-surrender value 
on life insurance policies, and periodic sources of income, 
including wages, pensions, worker's compensation or 
unemployment compensation benefits, dividends and interest 
payments. The notice also lists other enforcement remedies 
including: an increase of 25 percent to collect arrearages; 
federal and State tax refund offset; federal administrative 
offset; referral to a collection agency; reporting to a 
consumer credit agency; intercept of proceeds from insurance 
claims; suspension, revocation or non-renewal of a business, 
trade, professional or driver's license; or referral to the 
U.S. Department of State for denial, revocation, restriction or 
limitation of a passport, if arrears are more than $5,000.
    If the noncustodial parent disputes the amount of arrears 
claimed to be owed, he may request an administrative review of 
the account within 30 days of the date of the notice. Included 
with the notice is a form to request such a review. Evidence 
documenting payment must accompany the request for review. 
Examples of supporting evidence include: canceled checks or 
money order receipts; pay stubs showing the amount of child 
support withheld by the employer; a child support order showing 
that the amount of the order has been changed; receipts for 
child support payments made in cash; or a letter from the court 
through which child support was paid, documenting satisfaction 
of arrears, if this court issued the original order. During the 
pendency of the review, no further enforcement action is taken 
by DOR.
    However, many noncustodial parents ignore these notices, in 
the apparent belief that since they have successfully avoided 
paying child support in the past, they will continue to get 
away with it in the future. To give them another opportunity to 
contest the amount owed, we send them another notice a few days 
after the bank or other account has been frozen. This notice 
lets them know the account has been seized, and again lays out 
the procedures to follow to request an administrative review 
and the evidence required to substantiate it. Other States have 
similar due process procedures.

                         Defenses to Bank Levy

    In general, the only defense to the bank levy is mistake of 
fact: the noncustodial parent does not owe the money--he 
already paid and has receipts to prove it--or he is not the 
person named in the notice. Challenges to the validity of the 
underlying order of support, such as fraud or lack of 
jurisdiction, must be addressed in the court that entered the 
order. Arguments relating to visitation and change in 
circumstances are not valid defenses. If DOR and the 
noncustodial parent cannot resolve the amount owed through the 
administrative review process, the noncustodial parent can seek 
judicial review in the court that entered the original order.
    The most common reasons for refunding bank levies is that 
payments were made or the court order was changed, and nobody 
notified DOR to update records on the system. Sometimes the 
noncustodial parent changes jobs, and pays the custodial parent 
directly until the new wage assignment kicks in. Other times, 
parties go to court and adjust the amount of arrears owed and 
do not tell us about it. Or the employer deducts the payment 
from the noncustodial parent's paycheck but does not remit it 
to DOR, or the employer sends it to DOR without enough 
identifying information for us to accurately post the account.
    Under limited circumstances, DOR will grant a hardship 
appeal from a bank levy. To prove hardship, a noncustodial 
parent must show that seizure of the bank account is a 
substantial contributing factor to such hardships as: 
continuing or imminent homelessness; loss of utilities; 
inability to purchase food or necessary clothing; inability to 
commute to work or search for work; involuntary loss of 
employment; inability to obtain necessary medical treatment for 
self or dependents; inability to meet business payroll; 
imminent loss of business or business bankruptcy; or inability 
to leave or remain away from an unsafe situation involving 
domestic violence. In addition, certain funds may be exempt 
from bank levy, such as SSI, TANF, and other public assistance 
benefits, or funds held on behalf of another as a guardian or 
conservator. In the case of joint bank accounts, we follow 
State property law regarding the rights of the joint tenants.
    If the noncustodial parent provides the necessary 
information, appeals are resolved expeditiously--on average 
within two days for hardship appeals, and within 21 days for 
other appeals.

        Financial Institution Levies Pass Constitutional Muster

    In the case of Gray vs. Commissioner of Revenue, 422 Mass. 
666 (1996), the Massachusetts Supreme Judicial Court found that 
the procedures followed by DOR in levying bank accounts passed 
constitutional muster and met all necessary due process 
requirements. This case involved the paternity of a 14-year-old 
child, in circumstances where the father was aware of the 
likelihood of his paternity from the time of the child's birth. 
The court awarded back support in the amount of $17,000. It 
also ordered $110 in current support, plus $25 a week to be 
applied toward the arrearage, both to be paid by wage 
assignment from the noncustodial parent's income as a U.S. 
postal clerk. A few months after the court order was entered, 
following the procedures described above, DOR issued a notice 
to Mr. Gray that his property was subject to levy and other 
enforcement remedies if he did not pay the arrearage within 30 
days. Upon denial of his administrative appeal, DOR proceeded 
to seize $100 from a bank account and almost $5,200 from an IRA 
account. Mr. Gray's subsequent appeal to the court that entered 
the order and then to the Supreme Judicial Court alleged that 
his due process rights had been violated since he was paying 
the arrearage at the rate ordered by the court and therefore 
was not subject to any further enforcement action. He also 
claimed a violation of separation of powers, on grounds that 
DOR's enforcement action was an unconstitutional modification 
of the court's order setting forth the schedule for making 
weekly payments towards the arrears.
    The Massachusetts Supreme Judicial Court upheld both the 
substance and the process of DOR's seizure of the accounts. It 
found that DOR's action was not in conflict with the court's 
order, but rather was entirely consistent with it. It also 
rejected Mr. Gray's due process claim, finding that all the 
necessary notice and hearing procedures had been followed, and 
that the governmental interest in collecting child support 
outweighed the risk of erroneous deprivation of Mr. Gray's 
private property interest. Indeed, the court observed, ``It is 
hard to imagine a more compelling State interest than the 
support of its children.''

                               Conclusion

    Past-due child support is not an installment debt to be 
subsidized by the taxpayer or the custodial parent for decades 
until it is convenient to be paid off at five to twenty-five 
dollars per week. It is a judgment by operation of law as it 
becomes due and unpaid, subject to the full range of post-
judgment enforcement remedies. The requirements of due process 
have been met before any seizure of property takes place; 
further due process protections are available after the 
seizure. The noncustodial parent has had his day in court, with 
notice and opportunity to be heard, has failed to obey the 
court order to pay support, has received prior written notice 
of the enforcement actions that can be taken to collect past-
due support, has had an opportunity to request a review, has 
still failed to pay, and yet has acquired income and assets 
that are by law subject to seizure.
    Moreover, there will never be a good record on payment of 
current support unless States are also tough on collection of 
past-due support. Today's current support unpaid becomes 
tomorrow's arrears. Yesterday's arrears, if not vigorously 
pursued, lead noncustodial parents to believe they can ignore 
today's current support. When a noncustodial parent is 
permitted to accrue an arrearage with impunity, he or she has 
no incentive to comply with current support payments, and there 
is little to deter future noncompliance. For some, this is 
undoubtedly a tough stance. However, children need support on 
time and in full every week. And for those parents who do 
regularly make the necessary sacrifices to pay in full, it 
acknowledges their commitment by taking steps to ensure that 
all parents fulfill their financial responsibility to their 
children. The financial institution bank match is an important 
part of this strategy.
    Madam Chairman, thank you for your gracious invitation to 
testify before this distinguished Committee.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Ms. Kaiser.

   STATEMENT OF TERESA L. KAISER, EXECUTIVE DIRECTOR, CHILD 
  SUPPORT ENFORCEMENT ADMINISTRATION, MARYLAND DEPARTMENT OF 
                        HUMAN RESOURCES

    Ms. Kaiser. Thank you. Good morning, Madam Chairman, 
Representative Cardin. My name is Teresa Kaiser, the executive 
director of the Maryland Child Support Enforcement 
Administration. It is my pleasure to present testimony and 
provide you with data on the program performance which not only 
reflect aggressive implementation of your 1996 child support 
reforms but clearly demonstrate the increased collections for 
the children and families we serve.
    As you know, under PRWORA, the goal of the Federal welfare 
reform was to reduce the need for public assistance through 
emphasis on family responsibility, work requirements, and 
consistent child support payments. The driving force behind 
PRWORA's child support provisions was the need to strengthen 
the program through powerful enforcement tools, expedited 
procedures, and sophisticated database matches.
    This morning, I welcome the opportunity to highlight 
Marilyn's experience with several issues identified by the 
Subcommittee; namely, license revocation, new hire reporting, 
and in-hospital paternity establishment. In fact, I intend to 
focus on license revocation. You do have materials about the 
New Hire and In-Hospital Paternity Establishment Program in 
Maryland, which show our excellence in that program. But my 
other colleagues here at the table will focus on other issues. 
I would like to talk about driver's license to you.
    In Maryland, we implemented a Driver's License Suspension 
Program early in 1996. Our Driver's License Suspension Program 
has proven to be one of our most powerful and effective 
enforcement tools. Maryland's intent was not to suspend 
driver's licenses per se, but to utilize the possible loss of 
the privilege to encourage delinquent parents to come into 
compliance.
    Selected as a national child support best practice, our 
Driver's License Suspension Program has collected $110.4 
million since its inception in 1996. You do have a chart in the 
materials that I prepared for you, which shows the increase in 
collections over time as a result of our license suspension 
program.
    I believe your chart ends a little bit short of where we 
are today at the $110 million mark. But you can see even from 
the beginning year, which was October 1996 through June 1997, 
we collected a quick $8.3 million from license suspension 
alone. To put this in perspective, of the moneys we collect, 
which average about $350 million a year, about one-seventh of 
that, or $50 million this year, will be attributed to driver's 
license revocation program.
    To put it in more human terms, we have served approximately 
132,000 families through this license revocation program, with 
the average collection being about $800 per noncustodial 
parent. Our program is fully automated and operates in 
partnership with the Maryland Motor Vehicle Administration. We 
are very big on collaboration in Maryland, and we have a very 
good partnership in motor vehicles.
    Child support payers who are 60 days or more out of 
compliance with their most recent support order are referred to 
the Motor Vehicle Administration. The individual's driver's 
license is suspended unless support payments are paid in full, 
a payment schedule is arranged and complied with, or the 
payer's appeal is upheld. For those who are unable to pay then, 
and have a very good reason, they can come in and make 
arrangements to pay. And as long as they comply with those 
arrangements, they retain their license.
    Child support payers may be eligible for a work-restricted 
license if verified employment exists. We do not want this to 
be a barrier to employment or an excuse for nonpayment. And the 
point is not the license. A work-restricted license would 
suffice.
    I am sure that we all agree that regular child support 
payments represent a safety net for children and families. The 
Maryland Child Support Enforcement Program, as the similar 
programs in its sister States, plays a critical role in 
creating and maintaining that safety net.
    The 1996 child support reform legislation strengthened the 
fabric of that safety net. It also enabled us to cast it 
further, making it much more difficult for parents on our 
caseloads to avoid their financial responsibility to their 
children. Individually, each of the 1996 child support reform 
initiatives represents a powerful tool. Used collectively, they 
are even stronger, and, as evidenced by Maryland's experience, 
have improved our ability to be the responsive, full-service 
child support program your constituents deserve.
    I thank you for the opportunity to provide this testimony, 
and I will be pleased to respond to any questions at the 
appropriate time. Thank you.
    [The prepared statement follows:]

Statement of Teresa L. Kaiser, Executive Director, Child Support 
Enforcement Administration, Maryland Department of Human Resources

                            I. INTRODUCTION

    Good Morning. My name is Teresa L. Kaiser, Executive 
Director of the Maryland Child Support Enforcement 
Administration. It is my pleasure to present testimony and 
provide you with data on program performance which not only 
reflect aggressive implementation of your 1996 child support 
reforms, but clearly demonstrate increased collections for the 
children and families we serve.
    As you know, under the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 (PRWORA) the goal of 
federal welfare reform was to reduce the need for public 
assistance through emphasis on family responsibility, work 
requirements and consistent child support payments. The driving 
force behind PRWORA's child support provisions was the need to 
strengthen the program through powerful enforcement tools, 
expedited procedures and sophisticated database matches.
    This morning, I welcome the opportunity to highlight 
Maryland's experience with several issues identified by the 
subcommittee; namely, license revocation, new hire reporting 
and in-hospital paternity establishment.

         II. MARYLAND'S IMPLEMENTATION OF CHILD SUPPORT REFORM

A. Driver's License Suspension Program

    In Maryland our Driver's License Suspension Program has 
proven to be one of our most powerful and effective enforcement 
tools. Maryland's intent was not to suspend driver's licenses, 
but to utilize the possible loss of this privilege to encourage 
delinquent parents to come into compliance. Selected as a 
national child support best practice, our Driver's License 
Suspension Program has collected over $103 million dollars 
since its inception in 1996! (See Exhibit I) Our program is 
fully automated and operates in partnership with the Maryland 
Motor Vehicle Administration.
    Child support payors who are 60 days or more out of 
compliance with their most recent support order are referred to 
the Motor Vehicle Administration. The individual's driver's 
license is suspended unless child support arrears are paid in 
full, a payment schedule is arranged and complied with or a 
payor's appeal is upheld. Child support payors may be eligible 
for work-restricted licenses if verified employment exists. 
Suspensions may be appealed to Motor Vehicle Administration 
only on the grounds of mistaken identity and will only be 
withdrawn if child support arrears are paid in full, the court 
ordered amount of child support is paid for six consecutive 
months, or a court orders withdrawal of the suspension.

B. New Hire Registry

    Successfully implemented in fiscal year 1997 the Maryland 
New Hire Registry utilizes a database match between employer 
information and our Statewide child support automated system. 
Since its inception, the Maryland New Hire Registry has been 
instrumental in generating $42.4 million dollars via wage 
withholdings and has also proved to an excellent location tool. 
It was also one of the first State new hire registries in the 
country to submit employment and location data to the National 
New Hire Registry.
    Maryland employers are required to report all newly hired 
and re-hired employees within 20 days of their fist day of 
work. Multiple reporting methods are available to employers and 
include, mail, telephone, fax, e-mail and magnetic tape. To 
support employers, the New Hire Registry operates a staffed 
help desk during business hours and a 24 hours a day, seven 
days a week interactive telephone support line.
    If a database match occurs, employment information 
collected by the New Hire Registry is used to generate wage 
withholding orders. Employer provided information is useful in 
locating non-custodial parents and is used by the Maryland 
Unemployment Insurance Program to detect overpayments and by 
the Maryland Department of Human Resources' Family Investment 
Program to help reduce food stamps and temporary cash 
assistance benefits errors.

C. In-Hospital Paternity Program

    According to the most recent federal child support data, 
Maryland is ranked second nationally for in-hospital paternity 
acknowledgments. Paternity acknowledgment promotes parental 
responsibility, encourages early parental involvement, 
strengthens parent/child relationships, expedites paternity 
establishment and ensures that a child has the right to any 
benefit and support a father can provide. Through a partnership 
with the University of Maryland School of Social Work, we 
maintain an extensive database which facilitates ongoing 
monitoring of hospital performance in converting non-marital 
births to paternity affidavits, as well as providing us with 
profile data useful in designing our marketing and 
communication approaches. Maryland's paternity acknowledgment 
video, companion brochure and poster was recently awarded first 
place in the public awareness category by the National Public 
Relations Society of America.

                            III. CONCLUSION

    I am sure we all agree that regular child support payments 
represent a safety net for children and their families. 
Maryland child support enforcement program, as the similar 
programs in its sister States, plays a critical role in 
creating and maintaining that safety net.
    The 1996 child support reform legislation strengthened the 
fabric of that safety net. It also enabled us to cast it 
further--making it much more difficult for parents on our 
caseloads to avoid their financial responsibilities to their 
children. Individually, each of the 1996 child support reform 
initiatives represented a powerful tool. Used collectively, 
they are even stronger and, as evidenced by Maryland's 
experience, have improved our ability to be the responsive, 
full service child support program your constituents deserve.
    I thank you for the opportunity to provide this testimony 
and will be pleased to respond to any questions you may have.
[GRAPHIC] [TIFF OMITTED] T4324.004

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your testimony.
    Dr. Sorensen.

  STATEMENT OF ELAINE J. SORENSEN, PH.D., PRINCIPAL RESEARCH 
                   ASSOCIATE, URBAN INSTITUTE

    Ms. Sorensen. Good morning, Madam Chairman, Representative 
Cardin. My name is Elaine Sorensen. I work at the Urban 
Institute. I am a principal research associate there. Thank you 
for the opportunity to testify on this topic.
    I am not someone who usually trumpets the success of the 
Child Support Enforcement Program. I am usually--on the 
contrary, I am often remembered as the person who estimated 
that the Child Support Enforcement Program could collect 
potentially another $34 billion in child support.
    But I am here today to make one simple point, and that is 
that the data clearly showed that the U.S. Congress and its 
partners in the States have succeeded in increasing child 
support payments to never-married mothers--a group of mothers 
who essentially had no chance of receiving child support prior 
to the enactment of the 1975 title IV-D of the Social Security 
Act.
    Much of the testimony that you have heard thus far focuses 
on program performance. That is very important. We want to 
measure overall establishment, order establishment, collection 
rates, but those are only for families that are within the 
child support program. Many families eligible for child support 
enforcement services are still outside the child support 
program, and these data and program performance measures misses 
them.
    One hopes that good programmatic performance within the 
program goes hand in hand with good performance for all 
families, but we don't know that for sure. To ascertain the 
effects of reforms on families, I have examined more than 20 
years of household survey data collected by the U.S. Census 
Bureau, which provides a national representative sample of 
families between 1976 and 1997.
    The most current data that I have is from the March 1998 
Current Population Survey. We should be able to update that in 
the next couple of weeks as the Census Bureau releases the 
March 1999 current population survey. But it does mean our data 
do lag behind the monthly and quarterly data that you get from 
your program performance measures. But it does also mean that 
we have a long--20 years of data to examine the overall impact 
of reforms in the child support field.
    From these data, I find that never-married mothers have 
experienced a dramatic increase in their child support receipt 
rates, and that the Child Support Enforcement Program has been 
the primary factor contributing to these gains.
    If you look at this first figure that is in the handout of 
my testimony--it is labeled Figure 1, Percent of never-married 
Mothers Receiving Child Support--this chart shows you that in 
the early seventies when this program began less than 5 percent 
of never-married mothers received child support. Essentially, 
it was very difficult for a never-married mother to have child 
support in the late seventies.
    Twenty years later, in 1997, 18 percent of never-married 
mothers receive child support. That is almost a fivefold 
increase in these 20 years. Now, you can see that only one out 
of five never-married mothers are still reporting that they 
receive child support. That is--we have a long way to go. But a 
fivefold increase in those 20 years is a commendable increase.
    Most importantly in my mind, it shows that now child 
support is a possibility for children born outside of marriage. 
Twenty years ago, there was no possibility.
    I look at six child support enforcement policies that are 
described in your second picture called Figure 2, Trends in 
Child Support Policies. These six policies reflect the major 
reforms that were undertaken by the Federal Government over the 
last 20 years. What it shows you is that in each case States 
often experiment in this area--several States, 10, 15, 20 
States will experiment in an area, develop something that looks 
promising, and the Federal Government then enacts it and all of 
the other States follow along and adopt that measure.
    You will see that most clearly--in all of these, the same 
pattern exists, except for the last chart on the $50 
passthrough. But if you focus on in-hospital paternity 
establishment, which is in the lower left corner, it is the 
same kind of pattern. There were about 12 or 15 States that 
were experimenting with voluntary programs in the hospital, and 
they were found to be very successful. That was adopted by the 
Federal Government, mandated, and all of the States now have an 
In-Hospital Paternity Establishment Program.
    What I find with using these 6 enforcement tools and the 
rise in expenditures for the IV-D program, that those in 
combination explain more than half of the rise in the child 
support receipt rate for never-married mothers. So that the 
Child Support Enforcement Program is the reason that we see 
this major gain over the last 20 years.
    Particularly effective for never-married mothers has been 
the voluntary In-Hospital Paternity Establishment Program. We 
estimate that this program alone explains about a quarter of 
the impact of child support policies on never-married mothers. 
Earlier reforms are also found to be effective. That is, 
immediate wage withholding is effective under the guidelines, 
the tax intercept program.
    The new hire directory--Directory of New Hires--we also 
examined. This has a positive effect. In our analysis, it is 
not statistically significant yet, but it is only 1 year after 
you have implemented it. The signs are correct. It is just not 
measured very well at this point. Another year or two, I fully 
expect that that will be a significantly positive effect on 
child support receipt rates for never-married mothers, as have 
all of the other reforms that have been examined in this 
analysis.
    These data show, without a doubt, that the Federal and 
State governments have succeeded in increasing the likelihood 
of never-married mothers receiving child support.
    Thank you.
    [The prepared statement follows:]

Statement of Elaine J. Sorensen, Ph.D., Principal Research Associate, 
Urban Institute

    Chairman Johnson and members of the Subcommittee on Human 
Resources of the House Committee on Ways and Means, thank you 
for the opportunity to testify on this important topic. I am a 
Principal Research Associate at the Urban Institute, where I 
have worked for 12 years.
    I am not someone who usually trumpets the success of the 
child support enforcement program. On the contrary, I am 
probably best known for estimating that child support 
enforcement could potentially collect another $34 billion in 
child support. Nonetheless, the main point that I would like to 
make today is that the data clearly show that the actions of 
the U.S. Congress, along with its partners in the States, have 
succeeded in increasing child support payments to never-married 
mothers, a group of mothers who essentially had no chance of 
receiving child support prior to the enactment of Title IV-D to 
the Social Security Act.
    Much of the testimony that you have heard thus far has 
focused on program performance, generally measured by order 
establishment and collection rates within the child support 
program. Measuring program performance in this manner assesses 
the success of reform policies for those in the child support 
program, but many families eligible for child support 
enforcement services are outside of the child support program. 
One hopes that good programmatic performance within the child 
support program and good outcomes for families go hand-in-hand, 
but that is not necessarily the case.
    To ascertain the effects of these reforms on families, I 
have examined more than 20 years of household survey data 
collected by the U.S. Census Bureau, which provides a 
nationally representative sample of families between 1976 and 
1997. The most current data that I have is from the March 1998 
Current Population Survey, which measures child support receipt 
in 1997. This means that my analysis only examines the 
immediate effects of the 1996 child support enforcement 
reforms. But it also means that I have more than enough data to 
examine the impacts of earlier child support reforms, such as 
the voluntarily in-hospital paternity establishment program.
    From these data, I find that never-married mothers have 
experienced a dramatic increase in their child support receipt 
rates and that the child support enforcement program has been 
the primary factor contributing to these gains.

  Never-Married Mothers Have Experienced Dramatic Gains in Receipt of 
                             Child Support

    As figure 1 shows, only 4 percent of never-married mothers 
received child support in 1976. By 1997, the percent of never-
married mothers who received child support had increased nearly 
five fold, to 18 percent. That means, of course, that only 
about one in five never-married mothers receives child support 
today, but that is dramatically higher than it was in 1975 when 
Congress enacted Title IV-D of the Social Security Act, 
establishing the current federal/State partnership in child 
support enforcement. Child support is now a possibility for 
children born outside of marriage; 25 years ago it was not.

  How Much of the Rise in Child Support Receipt Can Be Attributed to 
                         Child Support Reforms?

    Six child support policies were examined in this analysis 
(figure 2). These policies were selected because they reflected 
key reforms in each of the major federal efforts to improve 
child support enforcement. As figure 2 shows, a few States 
experimented with each of these policies prior to their federal 
enactment (except for the $50 passthrough), but it was not 
until the U.S. Congress mandated their adoption that most 
States undertook these reforms. For example, a dozen or so 
States had experimented with a voluntary in-hospital paternity 
establishment program prior to its federal enactment, but once 
this program was federally mandated every State adopted it. The 
new hire directories is another example. About 10 States had 
implemented a State-wide new hire directory before the 1996 
reforms, but by 1998, when my data ends, nearly all had enacted 
legislation to implement a new hire directory.
    We estimate that these six child support policies, in 
conjunction with the increase in IV-D expenditures, explains 
over half of the rise in child support receipt rates for never-
married mothers.
    Particularly effective for never-married mothers has been 
the voluntary in-hospital paternity establishment program. We 
estimate that this program alone increased the likelihood of 
never-married mothers receiving child support by 2 percentage 
points, explaining about one fourth of the impact of child 
support on never-married mothers. Earlier reforms that are also 
found to be effective are immediate wage-withholding, the tax-
intercept program, and presumptive guidelines.
    The new hire directory program has had a positive effect on 
receiving child support for never-married mothers, but these 
effects are not yet statistically significant in my analysis. 
Given the impact of earlier reforms on child support receipt 
rates, I am quite confidence that the new hire directories will 
have a statistically significantly positive effect in the 
future.
    These data show, without a doubt, that the federal and 
State governments have succeeded in increasing the likelihood 
of never-married mothers receiving child support.
[GRAPHIC] [TIFF OMITTED] T4324.005

      

                                <F-dash>


    Chairman Johnson of Connecticut. I thank the panel for your 
presentations. They certainly were very, very interesting, and 
it is very encouraging to see how carefully you have 
implemented some of the new tools and some of the dramatic 
results that you are getting.
    And, Dr. Sorensen, I assume that not only will new hires 
gradually show up as a much more significant tool in your 
charts, but also that the financial management--the matching of 
financial data will prove to be a very powerful tool, as well 
as the driver's license approach. Until the testimony of the 
Secretary, I really hadn't realized that the passport 
withholding possibility had made such a difference, although in 
Connecticut, where there isn't an awful lot of international 
travel associated with international trade, that is interesting 
that it has been such an important tool.
    The issues that you all raise are really manyfold and I 
appreciate your testimony. Let me get back to my first 
question. It is always hard. You know, you have the first 
question at the beginning, you have the presentations, and then 
you have heard lots of other people.
    I wanted to go back to the new hire reporting and the fact 
that Minnesota has been so much involved in this. Did you 
privatize your new hire reporting?
    Ms. Kadwell. Madam Chair, yes, we did. We have privatized 
it.
    Chairman Johnson of Connecticut. And by that, exactly what 
do you mean?
    Ms. Kadwell. A private vendor--in our case, it is Policy 
Studies, Inc.--actually takes the reporting from the employers. 
They do it by a number of different means, whatever means the 
employer wants to use, whether it is electronic or fax or 
whatever, gets it to the new hire center, which compiles the 
data, sends it to us, and we match it against the child support 
data on our system.
    Chairman Johnson of Connecticut. And what is the advantage 
of this through a private vendor as opposed to the State?
    Ms. Kadwell. I think I would say that at the beginning the 
advantage was in simply being able to contract the service and 
have somebody do it. As you know, we have had a number of 
different initiatives to initiate over the past several years, 
and it was nice to be able to say, ``Here is your piece. You go 
do it.''
    But I also think that what happens when a State privatizes 
various functions is that we get the benefit of the external 
knowledge and experience that that private vendor has. And that 
is particularly useful. We also privatize the front end of our 
State disbursement unit, the receipting function in our State 
disbursement unit. And we found that to be very valuable 
because, again, we get the benefit of what the private vendor 
brings to the table.
    Chairman Johnson of Connecticut. In Virginia, Mr. Young, as 
I understand it, Virginia has opted for this family first 
distribution system. Could you discuss that a little bit more?
    Mr. Young. Yes, ma'am. Virginia, even when the Federal 
reimbursement did away with being able to count the disregard 
back--this Federal portion of it, Virginia stayed with it and 
we still disregard the first $50. We have also enacted family 
first distribution in the State. Yearly it costs the State of 
Virginia in, if you will, unearned, nonreimbursement for that 
around $4.8 million. And we have stayed with it as our 
contribution.
    Chairman Johnson of Connecticut. So, then, does the family 
get paid arrearages first?
    Mr. Young. Yes, ma'am.
    Chairman Johnson of Connecticut. And that was sort of a 
one-time cost of $4.8 million?
    Mr. Young. Yes. That is the average cost per year.
    Chairman Johnson of Connecticut. And, Ms. Smith, have the 
banks had trouble--had you had any problems with the banks in 
implementing the data match system?
    Ms. Smith. No significant problems. We have worked with 
them from the very beginning when the idea was first being 
developed. We put together a committee of small banks and large 
banks, and the different-sized banks had different concerns. 
They worked very closely with the Commissioner of Revenue.
    The Department of Revenue already had relationships with 
the banks by virtue of receiving Form 1099 information and 
serving tax levies on bank accounts. So we had a prior 
relationship to build on. We were very mindful of making sure 
that the process for them was as simple as possible, and that 
it had some flexibility for the different sized banks and the 
way that they operated to accommodate those needs.
    And, in fact, we have had clerks at the banks tell us that 
they much prefer the child support levies over the tax levies. 
We think that is perhaps because many of the clerks either are 
owed child support or their daughters are owed child support. 
[Laughter.]
    But it has been a popular program. From the beginning the 
banks have recognized that Massachusetts is a State that has a 
very strong commitment to strong child support enforcement. It 
wasn't an option for them to say, ``We are not doing this.'' 
The question was: how can we do this in a way that will work 
effectively for us? We have been very pleased with the results.
    Chairman Johnson of Connecticut. Do you know how important 
the new hire bank is to Massachusetts?
    Ms. Smith. New hire reporting system?
     Chairman Johnson of Connecticut. Yes.
    Ms. Smith. It has been very important. We have been 
implementing it since about 1993, along with Virginia. And we 
have been working to incorporate the new hire information that 
we receive from the National Directory of New Hires. As 
Assistant Secretary Golden mentioned earlier, one of those 
Massachusetts cases was on our 10 most wanted list.
    We had not been able to find him anywhere, no matter where 
we looked. The national new hire data identified where he was 
working in Idaho, and we brought him back and held him 
accountable.
     Chairman Johnson of Connecticut. So one gives you very 
much more power in State, and one gives you much more power 
interstate.
    Ms. Smith. Right.
    Chairman Johnson of Connecticut. Does Massachusetts use the 
driver's license suspension?
    Ms. Smith. We haven't been using that as much as some of 
the other remedies. But when we first started implementing it, 
we sent out notices to everybody letting them know that this 
remedy was in the works. And we literally got more than $1 
million in checks in the mail, by return postage. And we had 
one person who showed up with a check for $26,000, saying, ``I 
don't think I want to lose my license to practice plumbing.''
    We basically use it as an incentive to encourage people to 
enter into payment plans. We have had to revoke very few 
licenses.
    Chairman Johnson of Connecticut. Do any of you have any 
idea of what the combined effect of all of these tools has been 
on your State's total collections vis-a-vis the total amount 
owed? In the national data, Dr. Sorensen was saying that we 
have made big progress in the never-married, but we are only up 
to 18 percent. With such really dramatic new tools that are 
having such a big effect for you, what progress are you making 
toward the goal of 100 percent payment of child support 
obligations?
    Mr. Young. In the last 2 years, as the first chart I had up 
showed, around a 20 to 25-percent increase has been achieved. I 
can tell you, I don't think we will ever get to 100 percent, 
not to be a fatalist, but I don't think we would want to live 
in a society that could achieve 100 percent. It would be pretty 
draconian.
    But with the passport, the driver's licenses, in Virginia 
we have started booting cars, where you put the mechanical 
device on one of the front wheels and the car won't move, it is 
all coming together. There is no doubt about it.
    And I want to just take a minute to talk about the synergy 
that we are seeing that I don't think you want to lose that 
momentum. You have passed the legislation. You have made the 
mandates. You gave us the mission. And the team has been formed 
and is doing well, and I think you are seeing the results in 
each one of these States. And any of the other 47 or so States 
could come up here and do the same thing. Some are doing better 
than others.
    I don't think you want to disturb that relationship with 
the Internal Revenue Service. And you didn't ask me that 
question, but I am going to answer it anyway, if you don't 
mind. [Laughter.]
    Chairman Johnson of Connecticut. That is a very good 
point--that each collection tool has certain strengths. I mean, 
just threatening driver's license----
    Mr. Young. Well, that is right.
    Chairman Johnson of Connecticut [continuing]. It is the 
synergy.
    Mr. Young. Tactically, you are going to lose your momentum 
that you established. Number two, it would result in a 
fractured effort, no doubt about it. We would end up passing a 
case to another agency, and then you lose the cohesiveness of 
having, if you will, child support workers working the case. Is 
it in the tax court? Is it in the judicial court? It reeks.
    You correctly said it is more than just collecting money. 
This is not an impertinent comment. I don't see the IRS 
providing emotional support, nor do I expect them to. 
[Laughter.]
    I have paid my taxes, as you have, for many years. All they 
want is your money. They don't provide fatherhood or anything.
    Mr. Cardin. I guess you haven't heard we have made it a 
much friendlier place.
    Mr. Young. Yes, sir. [Laughter.] We still had to pay our 
taxes, though. [Laughter.]
    Chairman Johnson of Connecticut. You say collections in 
Virginia are increasing 25 percent a year. Do you have any 
idea, you know, how this enforcement system interfaces with the 
rest of the system out there, and what percentage of support 
payments children in Virginia are receiving?
    Mr. Young. Right now, children in Virginia on current 
support receive 48 percent, which is not bad. It could be 
certainly better than----
    Chairman Johnson of Connecticut. It is better than it used 
to be.
    Mr. Young. It is better than it used to be. And so I 
attribute that to the synergy of all of these tools coming 
together, whether it be the threat of driver's license 
revocation, the denial of passports, as you see in the Federal 
prosecution of the last chart I showed, the ultimate of having 
to take someone into court and deprive them of their liberty.
    I submit to you that it is all coming together, and it is 
coming together in multitudes of about 10 to 15 percent a year, 
and that is a guesstimate. But I think you will see, if we stay 
the course, if we stay with the organization, if we stay with 
the relationship--these tools are there. I don't need a lot of 
other tools.
    Personally, I don't think--I have got enough tools in the 
toolbox or weapons in the armory, if you will, whichever way 
you want to look at it. I just needed to automate them. I 
needed to bring them to bear on the right population, and it is 
happening throughout the United States.
    Ms. Kaiser. Madam Chairman, if you would like another State 
perspective. We are pushing on 60 percent of current support 
right now, and I think that is good. I think we can get maybe 
another 10 or 15 percent in there, as we get more experience 
and more time under belt, get our systems fully--work all of 
the bugs out.
    Current support is the best measure of success. Some of 
those arrears are pretty questionable. But current support is a 
focus, what we are not getting, and what we need to focus on 
now is the dead-broke dads. There has to be a better way to 
build capacity among our poorest dads to be able to fully 
shoulder the responsibility that comes with bringing a child 
into the world, financially and emotionally. And I am not 
satisfied there is not a lot more work to do there.
    Chairman Johnson of Connecticut. One last question before I 
turn to Ben. On the issue of this sort of total, you know, do 
we know much about the people who are in the system as 
nonsupporting parents, but actually are either unemployed or in 
jail? Do we know what percentage of the whole that represents?
    Ms. Sorensen. Well, again, I don't just look at the IV-D 
program; I look at the whole universe. And there are about 10 
million noncustodial parents, and about a third of them are low 
income. They have income--either their family is impoverished 
or their own earnings are quite low, they are below the poverty 
threshold for a single person.
    A lot of them are in prison, of those who are dead-broke, 
if you will, or impoverished, have a limited ability to pay 
child support. Many of them are in prison. We estimate about a 
quarter of those who are not paying and have a limited ability 
to pay are in prison.
    Chairman Johnson of Connecticut. So, statistically, can we 
find out more about that?
    Ms. Sorensen. What do you mean by----
    Chairman Johnson of Connecticut. About, you know, who the 
nonpayers are, how many there are, and what income category, 
and maybe what number are institutionalized. Because we are, as 
we have referred to earlier, looking at ways to strengthen 
fatherhood. And I think you need to know----
    Ms. Sorensen. Who they are.
    Chairman Johnson of Connecticut [continuing]. Particularly 
who the nonsupporters are, because they are the ones who are 
the least connected to their families.
    Ms. Sorensen. The datum that I use is a household survey, 
and it asks many questions of these fathers. They are self-
identified as someone who has kids living elsewhere, and they 
are not paying child support. They admit that. And you have all 
kinds of information about their disabilities and about their 
work history and education.
    Chairman Johnson of Connecticut. What is happening out 
there in terms of the relationship between the paternity 
identification programs and the child support enforcement? Is 
paternity identification in the hospital also involving any 
counseling? I was very interested that you testified that once 
a year you send out a Statement to the noncustodial parent 
about what they owe and presumably what they have paid.
    Is anyone--in any of your States, are you making any effort 
to coordinate or integrate paternity development with financial 
planning, with education as to what your obligations are, and 
how are you going to--what the consequences are of not meeting 
them, and how you could be helped to meet them?
    And are many of the child support enforcement agencies 
beginning to treat, in a sense, the nonsupporting parents like 
adults, and send them these Statements and try to make this a 
more predictable, understandable, and businesslike 
relationship?
    Ms. Smith. In Massachusetts, we are working with a variety 
of those representatives from a wide variety of State agencies 
that serve children and families to get them to focus on 
responsible fatherhood initiatives so that there are other 
avenues for conveying that information, not just through the 
Child Support Program, but through the health workers, the 
street workers who are working to combat gang violence, through 
the faith-based communities. And we've also started working 
with the county houses of corrections and the Department of 
Correction in the prisons.
    The thing that's been really amazing is the enthusiastic 
response that all of these agencies have had. It's as though 
they haven't thought of fatherhood for 30 years and suddenly 
the light is going on. Everyone is generating a great deal of 
energy to look at changes that they can make in their agencies.
    One of the things about the nonpaying population that I 
would mention is that for many of them we don't know where they 
are. So it's hard to do a very thorough data analysis if we 
don't know where they are. Even in the prisons, many of the men 
don't identify themselves as fathers. So what's happening with 
one of our task forces for the Governor's commission on 
responsible fatherhood is that the houses of correction and the 
prisons are starting to do systematic surveys and inquiries to 
identify the men in the population who are fathers.
    Certainly we find, when we take the cases to court, that a 
significant number of the fathers of the children receiving 
public assistance are incarcerated. We're starting to work with 
training programs and fatherhood initiatives that we can do 
while the men are literally a captive audience to try to 
prepare them for a successful transition back to the community. 
It takes a long time to get all these programs to actually have 
the rubber meet the road, so to speak, because there is a lot 
of work in program design and building the collaborations and 
identifying what it is that most affects strategy.
    I think that one of the most promising effects of welfare 
reform is not just that the caseloads are going down and the 
child support collections are going up, but that State agencies 
are looking at these problems in a radically new way. They are 
looking at families in a holistic manner, rather than saying 
that a family is just a mother and a child. They recognize that 
the father needs to be a part of the equation.
    And we think that the men are ready to step up to the 
plate, for the most part.
    Chairman Johnson of Connecticut. Ms. Kaiser.
    Ms. Sorenson. I just wanted to briefly say a little more 
negative of a comment is it seems that the golden moment that 
we have of paternity establishment we haven't taken full 
advantage of. And we have paternity establishment in place, but 
if a family decides not to establish paternity, that's the end, 
typically, in most States, the institutional structures, that's 
the end of their conversation. And so, as--I mean, initially, 
we've have a lot of paternities established and there's been a 
glow of increases in paternity establishment, but that's going 
to level off and there's still going to be a lot of families 
who are not establishing paternity.
    And the question is what are you going to do with those 
families? And, right now, in most States that I am aware of, 
there's no effort to reach out to those families in some way, 
to ask them why aren't they establishing paternity. Can we help 
you get there? And so I think you can build on that golden 
moment at the time of birth and build more structural supports 
for nonmarital children than exist at this point, especially in 
the general structure of the program.
    There are a lot of innovations in terms of pilots and 
efforts--or not a lot, but there's a number in Massachusetts 
and in all of these States, they have pilots and they're trying 
different things. But the typical case still is not addressed. 
They're still--if you don't establish paternity, that's the end 
of it and child support doesn't come back to you until you ask 
for TANF or ask for help to find the father or whatever.
    Ms. Kaiser. Madam Chairman, I would disagree with that 
assessment. I think, as with most of my colleagues, we are 
trying to find a way to bring the fathers in. It's time to 
bring them on in and become part of the circle.
    In-hospital paternity establishment is often the first time 
we come in contact, but certainly not the only place that we're 
out looking for them. Maryland has a number of innovative 
fatherhood programs that I'm sure you've heard testimony of 
before, including Young Fathers, Responsible Fathers. And 
you'll hear testimony probably later today about these programs 
where we identify fathers of children who have a variety of 
social ills. The connection to the child, however, is a driving 
social force that can motivate folks to change their lives, to 
become responsible people.
    The love we have for our children, however deep it might be 
buried, is a motivator bar none. And so we are all 
experimenting with ways to expand the ways we draw fathers in 
because we are programs about families. And that's what 
distinguishes us from the IRS; it's not just about money. We're 
about families and we're appropriately housed, to take a word 
from our sponsor, in social service agencies.
    Chairman Johnson of Connecticut. Thank you.
    Ms. Kadwell. Madam Chair, could I just add two quick 
points. One is that the Federal office does have grants 
available--has had grants available to States to connect child 
support with other community-based agencies such as Head Start 
and Child Care. And several States, including Minnesota, are 
using those and I think it goes to the point of how do we get 
to families after the birth and after they've left the hospital 
after their 24- or 48-hour stay or whatever it is. And we need 
to find ways to reach out. Those collaborative grants are 
helping in Minnesota to find families out in the community in 
settings that are more friendly to them than child support has 
historically been.
    The other thing I simply want to highlight is a program in 
Minnesota called Dads Make A Difference that has been 
replicated in other places in the country. The goal of that 
program is to go into schools and teach kids before the 
pregnancy occurs, before they grow up and become moms and dads 
who are not satisfactorily taking care of their children, to 
educate them about the role of dads and moms in raising kids 
and things like that. So I think the further we push this back 
in children's lives, the better off we're going to be in terms 
of stemming the tide of births to unmarried parents.
    Chairman Johnson of Connecticut. Ben.
    Mr. Cardin. I thank you, Madam Chair. Let me share an 
observation that the Chair and I talked about on the way to our 
last vote. And I think the testimony here has really reinforced 
that. And that is that, partially as a result of what Congress 
did in 1996 and certainly as a result of the work that those of 
you at the State level have been able to do over now many years 
and the cooperation that we have received from the private 
sector, we've had a cultural change in accepting and not 
accepting parental responsibility.
    It reminds me of the problems we used to have with people 
who would drive an automobile under the influence. And we sort 
of tolerated that; we protected our friends and employers 
protected their employees. No longer today do we do that. And 
it seems to me the same thing's happening for those who are not 
living up to their parental responsibilities.
    I was very impressed by the cooperation that you're 
receiving from employers. They're not trying to hide their 
employees; they're trying to bring their employees forward to 
carry out their parental responsibilities. And I'm impressed by 
the cooperation you're receiving from financial institutions 
who always hide and want to be protective of their financial 
records because they don't want to offend their customers. But, 
as I understand your testimony, Ms. Smith, they're actually 
taking your information and going through the work for you, 
matching it for you, and helping you.
    Ms. Smith. And we don't pay them.
    Mr. Cardin. That's very unusual for bankers. [Laughter.]
    Mr. Cardin. Very unusual. There's a change out there. 
There's no question about it. And that's certainly very, very 
beneficial to all of us. So I just really wanted to State that, 
because I may ask questions to see how we could do better and 
we can always do better. I agree with Mr. Young, we don't want 
to be at 100 percent, we don't want those types of policies in 
our society. But we do want to make sure that we strive to 
determine paternity every place that we can and that we collect 
the support that should be paid by parents today who are not 
paying that support.
    Now I noticed in Minnesota that you have a very high 
participation by employers in the new hire database, but you 
have some employers who don't.
    Ms. Kadwell. Yes.
    Mr. Cardin. And I'm curious, what do you do with those 
employers that don't cooperate?
    Ms. Kadwell. Mr. Cardin, what we did most recently is have 
the Department of Revenue send them out a little notice. In 
other words, we matched--this is in my written testimony--we 
matched against the Department of Revenues employers against 
the new hire, the ones that aren't reporting their new hires 
and sent out a notice and said, you are not participating in 
this program. We need to bring you in somehow.
    We're starting with the soft approach. As you know, there 
are sanctions in the law for employers who don't cooperate. We, 
as usual, will begin with the softer approach and, if that 
doesn't work, we will sanction them because we need to have the 
full cooperation of all of our employers.
    Mr. Cardin. I guess it's too early to tell whether the soft 
approach will work or not.
    Ms. Kadwell. I think that's correct. I think, again, as you 
know and as is evident from all the testimony this morning, 
employers themselves have been called on to do a number of 
things. I believe, as I said earlier that--and as you heard 
from other participants on the panel--that employers are coming 
into the fold, they are realizing the contribution they make. I 
think as a whole, they want to make those contributions and do 
them in a positive way. But this is a partnership. We have to 
work with them. And the best way to get them involved is to 
have them understand the contribution that they're making. That 
takes time, obviously, and I'm pretty convinced we'll bring 
them all along.
    Mr. Cardin. But there's obviously continued interest here 
so, as you get more and more experience on this, I would very 
much appreciate keeping our staffs informed as to the success 
that you're having or the difficulties that you're having on 
the new hire.
    Ms. Kadwell. Mr. Cardin and Madam Chair, I would be happy 
to do that. I know we all would. We're excited about what's 
happening in child support. We've seen the same kinds of 
collections you heard from other members of the panel and the 
same kinds of difficulties. And so we're all looking to figure 
out--I think the other thing that's happening out there because 
the systems are fairly new, we're just beginning to realize the 
capacity of these systems for giving us good data. And so 
there's a new question that pops up every hour, I think, in our 
office in terms of how could we figure this out; what's another 
way that we could examine these various issues so that we do 
learn more and can target not just our enforcement mechanisms, 
but our whole approach to parents, based on data that are good, 
reliable data.
    Mr. Cardin. And, Ms. Smith, if I understand, you're getting 
general cooperation from financial institutions, but are there 
some that are being difficult?
    Ms. Smith. No. We haven't had any particular cases to focus 
on because of resistance. Again, I think it's because we were 
very systematic about going to each financial institution, 
holding meetings with them as long as was necessary, to work 
out the details. I'm not saying that there are not a few who 
have failed to honor the levies, but under Massachusetts law if 
a bank doesn't honor the levy, the bank is liable for the 
amount. So there's a strong financial incentive and they have 
lawyers who tell them if you don't honor the levy, you're going 
to have to pay for it. And, there's nothing to argue about 
that. That's basic property law.
    I wanted to comment on something that you mentioned earlier 
about the cultural change. That is that there seems to be data 
coming out that a strong child support program actually does 
have an effect on reducing out-of-wedlock childbearing and 
strengthening marriage.
    Massachusetts has one of, if the not the lowest, divorce 
rates in the country. We also have one of the lowest out-of-
wedlock birth rates in the country. We just brought that number 
down even more and now we're one of the recipients of the $20 
million bonus for being one of the five States with the 
greatest reductions in the out-of-wedlock birth rates since 
1997.
    We really do believe that our high visibility in the 
community, the amount of attention that we've gotten in the 
press and in the legislature, and the very strong support from 
both Governor Weld and now Governor Cellucci, all make a 
difference. When I go to meetings and I mention I'm from the 
Department of Revenue, I mean, it's very often that people kind 
of pull in their breath.
    And then we say, well, no, we're here to work with you. 
We're going to be very tough, but we believe that a carrot to 
bring the fathers in is not going to be effective if you don't 
also have some fairly strong sticks behind you. You really do 
have to do the two together. We are now ready to start looking 
at the cases that we have to do on an individualized basis, now 
that we have so many of the automated systems in place. There's 
much, much more work to be done, but I think we've made 
extraordinary accomplishments in the last 5 years.
    Mr. Cardin. As I understand it, Virginia's had the New Hire 
Program in for some period of time. What happens with the 
employers who don't cooperate?
    Mr. Young. I was going to comment that we have 52 assistant 
attorney generals that work for us and they're stationed around 
the State of Virginia. I usually ask them to go see the 
employer and find out what the problem is. Not as a heavy 
handed way, but we usually find that employers who do not do 
new hire reporting similarly do not turn in their quarterly 
wage withholdings from their employees because they're having 
financial difficulties.
    And so one problem usually is compounded by another and we 
find that to where we say, not only are you not doing this, 
you're not doing that. And the poor payroll clerk's trying to 
send out income withholding; she's trying to do her job, 
generally speaking, and the employer, he does not have the cash 
flow or is skirting the banking laws, the Social Security laws, 
the new hire laws. And so when we find that employer--we have 
157,000 employers in the State of Virginia. I was surprised at 
the massive number of that.
    And so, like my counterpart from Minnesota, we don't go out 
with an indictment in hand, but we certainly go out to say, if 
you're not doing this, you're probably not doing Social 
Security; you're probably not paying your taxes; what is wrong 
with this picture? To get their attention in a holistic way. 
And we've only had three people we've had to do that with. And 
we kind of publicized it a little bit, that said, you have a 
social and you have a professional responsibility if you're an 
employer to take care of your employees. And if you betray that 
trust on the front end, how do you expect them to work for you? 
And it works very well.
    Mr. Cardin. Good. On the license suspension in Maryland, I 
know the success that you're having. I really do compliment our 
State on the way that you've handled that. It's interesting. As 
I understand the program, there are certainly far fewer 
suspensions than people who receive notice of suspensions. As 
you point out, you would have two alternatives. You can, of 
course, pay. There's also the limited license that can be 
issued. How many licenses are actually suspended? Do you know 
on the percentages?
    Ms. Kaiser. I believe the last figures I saw were a little 
over 6,000 and there were 100,000 and some licenses that were 
threatened at that time, so that number actually suspended are 
quite few compared to the overall universe. Most people are 
motivated to pay at the time they begin receiving the notices 
and know that we're serious about them.
    Mr. Cardin. So we're talking about maybe 5 percent of the 
actual notices that are sent out.
    Ms. Kaiser. Yes.
    Mr. Cardin. One final point. Dr. Sorenson, I'm looking at--
and it is a pleasure to have you testifying before us on the 
progress that we've made. As you know, we record our testimony. 
So we'll play it back to you at other times. [Laughter.]
    I obviously have looked at your tools that are available 
for child support policy and had been intrigued by the last 
that has been given up on so far and that is the passthrough 
with the $50. And I noticed--and I'll compliment Virginia, if 
we're still maintaining the $50 passthrough.
    It has been looked upon as a tool to help child support 
enforcement that, if the noncustodial parent knows that the 
money is actually going to the child, the parent is more likely 
to want to pay the money. But if they think the money is just 
going to government, the motivation is certainly not quite as 
great. So I'm curious as to your observations on that.
    We made it voluntary to the States. Some States still have 
passthroughs, but most are starting to--most do not allow 
passthroughs. Whether this would be helpful if we could try to 
get some policy back on the passthrough issue?
    Ms. Sorenson. In the data that I have on the first figure, 
you'll see a flattening out of the rise in the percent of 
never-married mothers receiving child support and I think part 
of that is the $50 passthrough being eliminated. Moms aren't 
receiving child support on TANF as they were and the incentive 
measure, although there's not real strong--you have some 
evidence from some of the States; there's no national evidence 
of the incentive effect. But it certainly just makes basic 
common sense, as you said, that people want their money to go 
to their children.
    And, as others here can also testify to, now that TANF is 
time limited, there's such a short window which they are on 
welfare, getting them used to having child support as one of 
their sources that they're going to have when they get off and 
having them receive it while they're on, it makes for them to 
learn how to budget with the amount of child support they're 
going to be getting once they're going to get off. And so, in 
that way, treating child support different than we have does--
and thinking about how do it, makes a lot of sense to me, given 
the time-limited nature of TANF at this point.
    One suggestion that others have made that seems useful to 
think about and that is treating child support income as we 
treat earned income in the TANF program. And that seems like a 
sensible approach, one to think about in allowing States to 
decide how to disregard child support in their determination of 
benefits for TANF recipients.
    Mr. Cardin. Thank you.
    Thank you, Madam Chair.
    Chairman Johnson of Connecticut. Thank you very much. I 
thank the panel for your excellent testimony and look forward 
to continued contact with you. I think the issue of synergy is 
going to fascinate us all and inform us all. So thank you very 
much.
    I'd like to call up the next panel. Barbara Saunders, the 
assistant deputy director of the Office of Child Support 
Enforcement from the Ohio Department of Human Services; Alisha 
Griffin from the New Jersey Division of Family Development; 
Hon. Robert Leuba, the chief court administrator in 
Connecticut; Terry Cady, the senior vice president of the Bank 
of America; and Robert Doar, the deputy commissioner and 
director of the Office of Child Support Enforcement of the New 
York State Office of Temporary and Disability Assistance.
    We'll start with Barbara Saunders.

 STATEMENT OF BARBARA L. SAUNDERS, ASSISTANT DEPUTY DIRECTOR, 
 OFFICE OF CHILD SUPPORT ENFORCEMENT, OHIO DEPARTMENT OF HUMAN 
                            SERVICES

    Ms. Saunders. Hi. Thank you for the opportunity to share 
today Ohio's successful Paternity Enhancement Program. I'm 
Barbara Saunders. I'm the assistant deputy for the Office of 
Child Support within the Ohio Department of Human Services. And 
I provided the Subcommittee with some written testimony which I 
hope you all take the time to read about our program.
    I have also provided you with a one-page synopsis that I 
think pretty dramatically points out the success of this 
program when we enacted the changes from the Personal 
Responsibility and Work Opportunity Reconciliation Act. In 
State fiscal year 1997, we established 37,000 paternities and 
by State fiscal year 1999, we established 61,000 paternities in 
Ohio, which is a dramatic 63-percent increase in paternities 
established. Very simply put, we feel that the Personal 
Responsibility and Work Act in the area of paternity actually 
revitalized and revolutionized our paternity establishment 
program in Ohio.
    The act allowed Ohio to more fully partner with local 
hospitals, with the vital statistic registrars, with local 
child support enforcement agencies; to provide a uniform and 
nonintrusive way for fathers to voluntarily admit paternity. 
The act allowed Ohio to provide fathers with the necessary 
information to make informed decisions about paternity 
establishment and the obligations that they are signing on to. 
A lot of doubters told us that if you gave fathers too much 
information, they were not going to sign. In Ohio, our results, 
I believe, dispell that myth. Dads want to be a part of their 
children's lives and they're proving that in Ohio every day in 
our paternity program.
    This act allowed us for the first time ever in Ohio to 
establish more paternities than there were out-of-wedlocks in 
the last year. It is so nice, for once, to be way ahead of the 
curve in that area. It makes the staff and all our partners 
around the State feel really good about the programs they've 
enacted.
    It also allows for us as a State and a county-administered 
State at that, to begin to plan for the day when our child 
support enforcement agencies are actually going to be put out 
of the business of establishing paternity. And, then, if 
they're put out of the business of establishing paternity, they 
can take those limited resources and put them to work 
establishing orders or enforcing and collecting support.
    In Ohio, we collect $1.6 billion every year. If we move 
those resources who were formerly establishing paternity into 
the collection and enforcement category, I believe over the 
next couple of years, we'll see a significant increase in 
collections just because of that.
    And, finally, I really think that this act allowed us in 
Ohio to begin to plan for the day when every child in Ohio has 
a legal father within 24 hours of their birth. While several 
years ago I don't think we would have ever considered that 
idea, it's there before us and that's the goal that we have in 
our State, with our program.
    I want to thank the Subcommittee for the work they did in 
bringing us this portion of the act.
    [The prepared statement follows:]

Statement of Barbara L. Saunders, Assistant Deputy Director, Office of 
Child Support Enforcement, Ohio Department of Human Services

    Mme. Chairman and members of the Subcommittee on Human 
Resources of the House of Representative Ways and Means 
Committee.
    I am Barbara L. Saunders, Assistant Deputy Director for the 
Office of Child Support in the Ohio Department of Human 
Services (ODHS). I have overseen the successful Ohio Paternity 
Enhancement Program/Central Registry since its inception in 
January of 1998.
    Paternity establishment is a cornerstone of a successful 
child support program. Establishing parentage at birth means a 
greater probability of a continuing relationship between the 
father and the child and will have the long-term effect of 
putting child support enforcement agencies out of the business 
of paternity establishment, which will give them more time to 
concentrate on creating and enforcing support orders.
    Ohio's Paternity Enhancement Program/Central Registry (PEP/
CR) was conceived to address some of the problems faced by 
children born to unmarried parents. Increased vulnerability to 
poverty, higher drop out rates, teen pregnancy and 
incarceration are all real issues for these children. The long-
term goal is to engage fathers in the lives of their children 
to provide emotional and financial support. The short-term goal 
is to have a method that child support enforcement agencies can 
use to establish paternity and obtain support orders so those 
fathers are partners in supporting their children.

                               Background

    ODHS recognized the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 (commonly known as the 
Welfare Reform Act) as an ideal springboard for child support 
reform. By establishing paternity at or near birth, fewer 
parents will rely on the child support agencies for this 
service, eliminating the delay in establishment and beginning 
the legal father/child relationship sooner in the child's life. 
To maximize the opportunity, ODHS sought a partner with 
experience in establishing and maintaining a central paternity 
registry. Policy Studies, Inc. answered the request for 
proposal and received a three-year contract to run the 
Paternity Enhancement Program/Central Registry (PEP/CR).
    As of January 1, 1998, because of Ohio HB 352, parents may 
voluntarily establish paternity at the hospital (at the time of 
the child's birth), the local registrar's office (health 
department) or at a child support enforcement agency. This 
voluntary process is a non-intrusive, economically sound option 
for parents who do not desire genetic testing and wish to 
establish the biological father as the legal father of their 
child. Collaboration with hospitals and local registrars is key 
to the success of this program.
    Voluntary paternity affidavits from all sources are sent to 
the PEP/CR, which is located in Columbus. All other documents 
which establish paternity, such as administrative orders from 
county child support enforcement agencies (CSEA) and court 
orders, are also sent to PEP/CR. All documents are reviewed and 
entered into a database.
    This data is downloaded to the State of Ohio twice a week, 
becoming available to the CSEAs within a few days after 
processing. This information assists CSEAs in their casework by 
allowing them to know when paternity is established and a 
support order can be created. For the first time, all paternity 
information is collected into a central repository and 
therefore available to the front-line workers who need it to 
effectively work their caseload.

  Running the Paternity Enhancement Program/Central Registry (PEP/CR)

    To start-up the program, PEP/CR trained and provided 
materials to the State's 139 birthing hospitals and 141 local 
vital statistics registrars. The 88 county child support 
enforcement agencies and 88 juvenile courts were also trained 
about the new legislation and the role of PEP/CR.
[GRAPHIC] [TIFF OMITTED] T4324.006


    To support this program, PEP/CR developed many resource 
materials. Reference manuals were distributed at the training 
sessions for ongoing support. A Spanish translation of the 
voluntary affidavit was provided to the partnering agencies as 
a reference to the legally acceptable English version. A 
training video for new staff was sent to hospitals and local 
registrars. In addition, these agencies are encouraged to let 
PEP/CR know of staff turnover so training can be done in person 
or support given over the phone.
    To succeed, parents must be aware of this program. Ideally, 
they will learn about paternity acknowledgment before the child 
is born, allowing them to make an informed decision beforehand. 
To serve this goal, PEP/CR developed and distributed several 
educational and informational materials. An informational 
brochure, printed in English and Spanish, was distributed 
Statewide. A parent education video explains the process and 
the options for establishing paternity. This video, in English 
and Spanish, is often used by hospitals to play in the birthing 
rooms. Public service announcements for television and radio 
were distributed Statewide. Two approaches were used to appeal 
to different audiences. The rap video, ``He's My Dad,'' was 
nominated for an Emmy award and won a Telly award. The dramatic 
``Wish'' video (available in English and Spanish) won an Emmy 
award. Informational brochures and posters appear at all of our 
partnering agencies as well as many other outlets such as 
doctors' offices, WIC programs, GRADS (high school) programs 
and other outlets for reaching unmarried parents.
    One key element of the PEP/CR has been the toll-free 
hotline. The widely publicized hotline answers questions from 
all sources, parents and partnering agencies alike. Callers 
appreciate having one knowledgeable resource for their 
questions, and PEP/CR works with ODHS and the Ohio Department 
of Health (ODH) to assist callers in difficult situations.
    Continuous outreach efforts allow PEP/CR to maintain face-
to-face contact with the partnering agencies as well as to 
establish new relationships with other organizations that serve 
unmarried parents. These visits provide the opportunity to 
uncover questions and issues that may not have arisen 
otherwise. Follow-up training occurs on these visits as needed.

[GRAPHIC] [TIFF OMITTED] T4324.007


    An important element in Ohio's successful paternity program 
is its procedure for handling rescissions. Parents have 60 days 
after signing the voluntary paternity affidavit to rescind it. 
In some States, a parent can rescind and simply walk away from 
the situation. In Ohio, the request for rescission is also a 
request for genetic testing, thereby assuring that efforts are 
made to establish the correct father as the legal father. Since 
approximately 82% of the test results show that the rescinding 
father is indeed the biological father, this process keeps many 
biological fathers from leaving their children without legal 
fathers.

                            Accomplishments

    <bullet> For the first time ever, Ohio established more 
paternities than children were born out-of-wedlock. This 
accomplishment occurred in 1998 and we look forward to 
repeating it.
    <bullet> From SFY 1997 to SFY 1999, the number of 
paternities established increased 63.22% from 37,138 to 60,618.
    <bullet> In SFY 1999, nearly half of all paternity 
establishments occurred at hospitals. Children are getting 
legal fathers at the time of birth.
    <bullet> Ohio's Statewide PEP was 94% for FFY 1998.
    <bullet> Total Collections for SFY 1999 were 
$1,644,301,991.

[GRAPHIC] [TIFF OMITTED] T4324.008


                            Lessons Learned

    In Ohio, we believe that Welfare Reform legislation is 
revolutionizing and revitalizing paternity establishment. We 
have seen exceptional success in the first year and a half of 
the program. Maintaining a central paternity registry affords 
the valuable opportunity to analyze demographic trends. Who is 
establishing paternity? Which populations have low 
establishment rates? How can we better reach and educate 
unmarried parents? We plan to maximize this opportunity to 
target areas of need.
    We encourage other States to implement genetic testing as 
an automatic part of the rescission process. While Ohio's 
rescission rate is very low (less than 1%), by mandating 
genetic testing as part of the rescission process we ease a 
father's fear by confirming that he is the biological parent. 
This allows many children to retain their natural father as 
their legal father.
    PEP/CR will continue to focus on increasing the number of 
hospital paternity establishments. Through continuing outreach 
and educational efforts, these numbers should grow, taking 
CSEAs out of the business of establishing paternity. Not only 
will this give the CSEAs more time to concentrate on creating 
and enforcing support orders, but it also put the 
responsibility for paternity establishment back into the hands 
of parents.
    If we had just one wish, it would be that all of Ohio's 
children have a legal father within 24 hours of birth. Through 
the public-private partnerships created in Ohio's paternity 
program, we believe this may one day be realized. Thank you for 
the opportunity to share Ohio's successful paternity program 
with you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Ms. Griffin.

  STATEMENT OF ALISHA GRIFFIN, ASSISTANT DIRECTOR, OFFICE OF 
 CHILD SUPPORT AND PATERNITY PROGRAMS, NEW JERSEY DIVISION OF 
                       FAMILY DEVELOPMENT

    Ms. Griffin. Good afternoon, Madam Chairman and Mr. Cardin. 
I want to thank you for inviting us here. I'm Alisha Griffin 
and I am the assistant director for New Jersey's Division of 
Family Development and director of the Office of Child Support 
and Paternity Programs.
    I'm here today to speak to you specifically about New 
Jersey's Paternity Opportunity Program. While you heard earlier 
about the enforcement tools and that they have had a very 
significant impact which New Jersey has experienced as well, we 
in New Jersey are very concerned and have dedicated a lot of 
our resources to establishing lifetime connections for children 
from the very beginning of our program. We implemented our 
Paternity Opportunity Program--it's also called POP locally--in 
November 1995, prior to the passage of PRWORA.
    In implementing POP, we partnered with a number of our 
other State departments and key community agencies to implement 
it across a broader social context, rather than limit it to 
just child support, because we believed that the program's 
emphasis that paternity establishment benefits all children: 
That it gives the child the knowledge of who the father is, it 
accesses family history, makes connections with paternal 
relatives, it provides for medical history, it establishes and 
maintains links for inheritance and other survivor benefits, 
and, most of all, it creates a benefit that enables a child to 
grow up much more secure, confident, full of self-esteem, and a 
more productive member of our society.
    The core component of New Jersey's POP Program is in fact 
the In-Hospital Paternity Program. And, through that program, a 
father is given the opportunity to establish that link by 
signing a certificate of parentage at the time of the child's 
birth. But we have also established multiple sites throughout 
our State that enable and facilitate a father's signing the 
acknowledgement of paternity post-birth. Local sites like 
registrars and hospitals and clinics and/or child support 
agencies so that we're not stopping at the in-hospital program. 
We are pushing on into the community and post-birth. In 
addition to that, a hallmark of our program is that we image 
all of our certificates of paternity and maintain them on an 
online database that is available and accessible to all of our 
child support entities throughout the State.
    We are also integrating our Paternity Opportunity Program 
with our Comprehensive Outreach and Awareness Program, which 
has been focused on educating parents of the community and 
agencies that serve parents and children toward changing the 
culture and meeting the responsibility of parenting.
    There's a lot of detail and charts in our written testimony 
and I would like to share just a few of the highlights of New 
Jersey's successes with you. Prior to 1994, less than 46 
percent of our out-of-wedlock births had paternity established. 
After the first full year of our POP Program, we established 
paternity in 72.7 percent of those cases. It's gone up 
progressively each year and in 1999, it's at less than half a 
year in our statistics, we are already exceeding 76 percent of 
paternity established in all out-of-wedlock births.
    Teen mothers have been a particular interest with us this 
year and teen mothers make up approximately 20 percent of the 
total out-of-wedlock births. They represent a subset of the 
population that has been traditionally more difficult to reach 
and to effect change in. POP has facilitated the establishment 
of paternity in 59 percent of those cases the first year (1996) 
and 63 percent of the cases in this coming year that we are 
currently counting. So we have decided that we need to really 
outreach and focus differently to our teen population.
    We are currently working with our family life curriculum 
specialists, our school districts, and with teens through focus 
groups to find materials and videos and other ways of reaching 
them to try and not only prevent parentage at the early years, 
but, when we do not, to establish parternity in that 
population, as well. And I actually brought a copy of our 
latest brochure, which was hot off the presses yesterday, 
designed by several of our teen focus groups.
    Since the beginning of the Paternity Opportunity Program, 
over 90,000 children have had paternity established in New 
Jersey through the program. Families whose children have 
paternity established when they apply for child support move 
through the system much more quickly. Higher percentages of 
cases have orders and that number equals increased collections. 
In 1994, prior to the establishment of POP, both our paternity 
establishment rate and our order establishment rate hovered 
just below 49 percent.
    In the first year after POP, it jumped 6 percent and it has 
continued to rise, to date, to 63 percent. It needs to go 
higher, but we're very pleased with our successes in this area. 
It is a program that's dependent upon partnerships with key 
agencies, support, monitoring, use of technology and very 
dedicated and consistent outreach.
    In closing, as I said earlier, establishment of paternity 
is an important critical step that benefits all children. It 
has multiple social and emotional benefits. It also has clear 
financial benefits. It is also very important, as you heard 
earlier, that it is a voluntary program. It needs to tap into 
the desire of parents to be there for their children. We must 
continue to change our culture by sending clear, positive 
messages about lifelong commitment and responsibility of 
parents to their children. Thank you.
    [The prepared statement follows:]

Statement of Alisha Griffin, Assistant Director, Office of Child 
Support and Paternity Programs, New Jersey Division of Family 
Development

                     Paternity Opportunity Program

    I want to begin by thanking Chairwoman Johnson and members 
of the Committee on Ways and Means for the opportunity to speak 
about the New Jersey child support program. We regard our 
program as a tremendous success. New Jersey ranks 7th in the 
nation in collecting child support due, over $621 million was 
collected in FFY 1998 and in FFY 1999 we have experienced an 
overall growth in collections by 11% and a 27% increase in 
direct income withholding.
    I am here today to speak with you in particular with 
respect to our successes in establishing paternity through our 
Paternity Opportunity Program.
    In New Jersey, our success has depended on an investment of 
time, resources and in building partnerships and implementation 
of new technology. This increased investment has paid off 
tremendously. Results that we believe can be easily duplicated 
by other States, many of whom have visited the program and are 
looking at incorporating our strategies.
    We chose to approach paternity establishment more broadly 
as a social issue, not just a welfare issue. In planning and 
developing outreach to parents, healthcare workers and the 
community, the program emphasizes the benefits for children 
when paternity is established, rather than the financial 
aspects of the relationship such as the child knowing his or 
her family history. It also facilitates multiple opportunities 
to sign a certificate acknowledging paternity. Paternity can be 
acknowledged at hospitals, local registrars and county child 
support agencies.
I. Results

    The Paternity Opportunity Program began November 13, 1995. 
Our statistics demonstrate the impact of the Program. New 
Jersey's percentage of out-of-wedlock births to all births have 
stabilized. Although the past 2 years we have experienced a 
slight reduction.
    <bullet> Prior to its inception in CY 1994, of the 32,558 
out-of-wedlock births in New Jersey, less than 46% had 
paternity established.
    <bullet> In CY 1996, the first full year of operation, 
22,249, or 72.71% of the out-of-wedlock births in New Jersey 
had paternity established through the Paternity Opportunity 
Program. Post-birth Certificates of Parentage were responsible 
for 9% of these establishments, totaling 2,933.
    <bullet> In CY 1997, paternity was established through the 
voluntary paternity process in 74.74% of the unmarried births, 
an increase from the year before. Of those voluntary 
acknowledgments, 2,750 or 8.8% were completed after leaving the 
hospital.
    <bullet> For 1998, our percentages were even better. Of New 
Jersey's 110,103 births in 1998, 31,240 were out-of-wedlock. 
Paternity was acknowledged for 23,522 of these cases, yielding 
a 75.2% success rate. Post-hospital Certificates of Parentage 
were completed for 7.6% or in 2,385 cases.
    <bullet> The first quarter of 1999 appears to be the start 
of another promising year with a 76.18% rate, already up almost 
a point from last year. So far this year, Certificates of 
Parentage were completed post-hospital in 1,689 or for 76% of 
the cases.
    Paternity establishment within the adolescent subset has 
always been a more difficult area in which to effect change. 
Yet with the Paternity Opportunity Program we have seen similar 
dramatic improvements.
    <bullet> In 1996, 4,104 COPs were obtained on the 6,874 
out-of-wedlock births to teens, yielding a 59.7% establishment 
rate.
    <bullet> In 1997 our teen rate went up slightly to 59.82%, 
where COPs were obtained on 4,735 of 7,916 out-of-wedlock 
births.
    <bullet> In 1998, the voluntary paternity establishment 
rate was 61.69%, or 4,729 COPs were obtained in the 7,666 
births to unmarried teens.
    <bullet> The first quarter of 1999 demonstrates a continued 
upward trend with 1,218 COPs obtained in the 1,960 out-of-
wedlock births to teens, or in 62.14% of the cases.
    Not all of these children have or will be involved with the 
child support system but these numbers represent the larger 
population of New Jersey's children for whom the establishment 
of paternity gives them the knowledge of their father and their 
father's family history, medical and otherwise. It also 
maintains their inheritance rights and rights to their father's 
health insurance and veteran or social security benefits and 
for fathers, it establishes the opportunity to share in the 
milestones and be involved in decisions of that child's life.

II. Impact of the Child Support System

    Since November of 1995, more than 90,000 voluntary 
acknowledgments of paternity have been obtained. The impact of 
this voluntary process on New Jersey's child system has been 
equally beneficial. As many out-of-wedlock cases now come onto 
the system with paternity already established.
    <bullet> In FFY1994, prior to the implementation of the 
Paternity Opportunity Program, our paternity establishment rate 
for children serviced under New Jersey's child support system 
was 50.7%.
    <bullet> In FFY1996, the paternity establishment baseline 
percentage for children serviced under New Jersey's child 
support system jumped to 55.9% and by FFY1998 it was 63%.
    Over the same time period, order establishment also 
climbed.
    <bullet> For FFY1994, our IV-D order establishment rate was 
at 51%.
    <bullet> For FFY1996 and 1997, our order establishment rate 
remained fairly stable, hovering close to 57%.
    <bullet> However, for FFY 1998, our order establishment 
rate jumped 6 points to 63%.
    I will briefly explain the necessary elements for such a 
successful program with broad appeal to the general public. 
These elements include identifying key partnerships, support 
for those partnerships, monitoring of the partnership 
relationship, technology that supports and enhances them and 
public education.

III. Key Elements of the Program

    A. Partnerships--To achieve success, you must form 
partnerships with Vital Statistics, Local Registrars, hospitals 
and health and social service providers serving pregnant women 
and young families.
    Vital Statistics maintains and updates all the birth 
records in the State. Vital Statistics supervises, directs and 
is responsible for the Local Registrars who are also a critical 
component to a successful paternity program because of their 
significant established relationships with the hospitals and 
birthing facilities in New Jersey.
    Local Registrars are the birth certificate experts. They 
too have already established relationships with hospitals and 
courts. They are also an information source for outreach and 
marketing.
    Hospital and birthing center staff are the front-line of 
communication with all unmarried parents and are best able to 
convey the importance of paternity establishment at a time when 
both parents are flushed with pride.
    Staff from health and social services providers have an 
opportunity to educate prospective parents regarding paternity 
issues prior to admission to the hospital for delivery--saving 
time and effort for hospital registration staff. Informed 
parents are more likely to sign a Certificate of Parentage at 
the time of birth.
    These staff can also educate parents who have children for 
whom paternity has not yet been established. Health and Social 
Service Providers are a critical component for increasing post 
birth paternity establishment rates.
    B. The Support--The Paternity Opportunity Program provides 
all the support necessary to ensure success of the paternity 
program. This is done in a variety of ways:
    The Paternity Opportunity Program staff visit the hospitals 
and market the idea that paternity acknowledgment is a 
priority, meeting with the key individuals in each hospital. 
Our Paternity Opportunity Program staff contact the hospitals 
quarterly and visit hospitals frequently to make certain that 
everything is running smoothly.
    The Paternity Opportunity Program staff should assist birth 
certificate clerks by providing technical assistance with 
problem cases, training and retraining as needed, providing 
program brochures, video, posters, and a translation service, 
and referring their legal questions to the IV-D agency or 
social worker.
    The Paternity Opportunity Program appoints a liaison to 
Vital Statistics with authority and access to ensure that 
decisions can be made quickly and efficiently.
    The Paternity Opportunity Program provides customer service 
for the public through a manned toll free number, staffed 24 
hours a day and seven days a week.
    Program staff verify and follow up on Certificates, as 
necessary.
    The Paternity Opportunity Program also provides technical 
assistance to all partners.
    C. The Monitoring--Direct monitoring of hospital 
performance by the Paternity Opportunity Program staff is a 
critical component to the success of our program. It provides 
immediate feedback to front-line staff and their supervisors. 
Learning from successful hospitals, their best practices are 
shared and implemented in other hospitals.
    Identification and evaluation of the hospitals that are not 
performing well is done and working in consultation with the 
interested parties to identify the cause, it is decided what 
changes are necessary. Very often the birth certificate clerk, 
nurse manager and medical records staff, working jointly, know 
best where the problems are and how to solve them. We decide 
what changes are necessary and create a performance improvement 
plan with target rates.
    D. The Technology--Technology plays an increasingly 
important role in modern child support programs. I only have 
time to hit the high spots.
    At the hospital, demographic information is collected on 
all parents both married and unmarried. This data is 
electronically transferred to the Paternity Opportunity Program 
office. Information on married parents may be useful in 
locating an absent parent if the parents separate or divorce.
    The Paternity Opportunity Program system interfaces with 
the NJ automated child support system are done on a weekly 
basis to match Certificates of Parentage with cases where 
paternity has not been established.
    A Quarterly interface is under development that will match 
against the Paternity Opportunity Program database to obtain 
location information on absent parents in child support cases.
    Finally, we are using document imaging to capture 
Certificates when they are received. These Certificates can 
then be accessed and printed by county child support workers 
on-line to be used in court. That saves a lot of time.
    E. Outreach--We believe our Paternity Opportunity Program 
outreach component was instrumental in maintaining high 
paternity percentages on a consistent basis.
    The Paternity Opportunity Program facilitates a widespread 
awareness of the importance of paternity establishment by 
striving to create a public sentiment of parental 
responsibility and ``doing the right thing.'' We've expanded 
our Paternity Opportunity Program outreach greatly since the 
inception of the program. Although we concentrated on birthing 
facilities early on, Paternity Opportunity Program Outreach 
presentations are currently provided at pre-natal clinics, 
medical providers, WIC programs, social service organizations 
and other health and social service focused agencies that 
mothers and young families would visit. Our public outreach 
educates young unmarried parents, which assists them in making 
an informed choice.
    The Paternity Opportunity Program public awareness 
materials, developed for New Jersey's child support program, 
which consist of a video tape and brochure help answer most of 
their questions and were developed in an easy to understand 
format.
    Our outreach was so well received that this year, the 
fourth year of our program, we have stepped up our general 
outreach, as well as added a teen component. A contemporary 
teen video, PSA, brochure and poster are currently in 
development.
    We plan to distribute these materials throughout New Jersey 
when we visit the schools to give Paternity Opportunity Program 
presentations this Fall. Our goal is to help young adults to 
understand that it is important to accept parental 
responsibility no matter what time in life they have children.

IV. The Benefits

    The Paternity Opportunity Program has obvious social and 
economic benefits for the child, parents and the New Jersey 
Department of Human Services--and, of course, for the taxpayer. 
Each partner has also derived benefits from supporting the 
program as well.
    The benefits of the Paternity Opportunity Program to New 
Jersey can be measured by the significant savings enjoyed by 
the State. A typical court ordered paternity establishment 
costs approximately $500, not including the costs of locating a 
non-custodial parent, service or genetic testing. When those 
costs are included, each paternity establishment may cost as 
much as $1000. A voluntary paternity establishment costs 
approximately $45. This includes all the fees, hospital 
payments and labor and technology costs associated with each 
establishment. The savings for paternity establishment for one 
child alone is approximately $450. When multiplied by the 
number of child support cases in which voluntary paternity was 
established in 1998, New Jersey's savings was approximately 
over $1.5 million.
    When considering the number of child support cases in which 
voluntary paternity was established since the inception of the 
program, the cost savings is over $6 million. In addition, the 
child support order can begin much sooner and payments are 
collected earlier.
    Other intangible savings to the New Jersey are of a social 
nature. A well-run voluntary program benefits children born 
out-of-wedlock by forging a legal father-child link that is 
essential to their emotional development and economic well-
being. When a child knows who both of the parents are, self 
esteem is enhanced. That child may do better in school, at home 
and in life.

                             Final Comments

    I want to make a closing point about voluntary paternity 
acknowledgment programs. This may seem obvious, but they have 
to be voluntary. We have to access the desire that most people 
have to care for their children. We have to send clear, 
positive messages about responsibility.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T4324.009
    
    [GRAPHIC] [TIFF OMITTED] T4324.010
    
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Judge Leuba.

 STATEMENT OF HON. ROBERT C. LEUBA, CHIEF COURT ADMINISTRATOR, 
 SUPREME COURT OF CONNECTICUT; ON BEHALF OF THE CONFERENCE OF 
                   STATE COURT ADMINISTRATORS

    Judge Leuba. Thank you. I am particularly pleased to have 
an opportunity to be here, Madam Chair and Representative 
Cardin, to address the Subcommittee. As you know, I'm here on 
behalf of the Conference of State Court Administrators, which 
is a nonprofit organization, the purpose of which is to 
increase the efficiency and fairness in our State court 
systems.
    But it's particularly pleasing to have an opportunity to be 
here as, if you will, a different participant in the process, 
the courts. And to emphasize right at the outset that the 
courts are an important part of the enforcement tools and the 
family planning processes that go on throughout the country. 
And I'm particularly pleased to have been included as a 
representative of this organization to appear and express the 
views of the courts. I urge the Subcommittee to continue to 
seek, as legislation is developed in these areas, much of which 
will be implemented in a court setting, input from judges and 
court administrators.
    Now I'll start by showing you something that I'd planned to 
end with, which is the resolution which is the appendix to my 
written material, to tell you that at the last meeting of both 
the Conference of Chief Justices from all of the States and the 
Conference of State Court Administrators, this resolution was 
adopted as one of a few resolutions at that time urging 
continued support for these important programs and the 
inclusion of the judicial branch and the judges and court 
administrators in the process.
    Supplementing the written material which you were nice 
enough to permit me to file, today I want to address 
Connecticut's initiatives that are funded by the grants to 
States for the access and visitation programs. And the focus of 
these programs in Connecticut is to promote a healthy and 
nurturing relationship between noncustodial parents and their 
children. Now these children come to our attention through 
their involvement in both child support and divorce cases 
before our magistrates and our judges.
     But, also, before I begin to review that aspect, I 
understood that some of the Committee Members may be interested 
in receiving information on Connecticut's experience with cases 
in which allegations of abuse are made by one of the parties 
with regard to the other. Our recordkeeping system does not 
permit us to have statistics on this but I have specifically 
inquired of the judges in our State about this question. And I 
have anecdotal information which comes to me from judges 
currently sitting on family cases and also I can tell you that 
I sat on family cases myself in the past so that I have some 
information of my own.
    Judges who routinely preside over family relations cases 
have indicated to me that they believe approximately 3 to 4 
percent of the cases that actually get as far as requiring 
trial include allegations of physical or sexual abuse on behalf 
of one of the parties. I'm told by the judges that a larger 
percentage would be found if you consider the initial outset of 
the litigation. So that as much as 20 percent of cases might 
include allegations of abuse at the outset.
    And the explanation for the difference is that people, as 
they work out their differences through the system, either in 
mediation programs or pre-trial programs, moderate their 
positions when they see that they need not make those 
accusations to get the result that they intended to achieve.
    In addition, judges have indicated that over the past 
several years, this is a reduction of what they had previously 
been seeing. And I inquired as to why would it be that that 
figure would be going down under existing circumstances and the 
only response that I could get was that it hadn't been working. 
And if there are abuse case allegations, there are remedies 
which the judges have, including hearings to make 
determinations as to whether or not they're valid.
    Turning specifically to the grants which I've outlined in 
my testimony that I filed in writing, we receive approximately 
$110,000 in Connecticut and that covers mediation services, 
contract services which we use for counseling, and also 
supervised visitation. The mediation services, which the 
magistrates report, result in two-thirds success rates of 
agreements in matters of differences of opinion, is a very 
important part of our process.
    I want to say, in conclusion, that the emphasis in my 
testimony should be that the courts are interested in 
participating in this process. We feel that we have a 
significant role in making sure that the fathers and mothers 
all participate in the family process equally and we hope that 
in the future the congressional action will reflect that 
important role.
    Thank you.
    [The prepared statement follows:]

Statement of Hon. Robert C. Leuba, Chief Court Administrator, Supreme 
Court of Connecticut; on Behalf of the Conference of State Court 
Administrators

                              Introduction

    Ms. Chairperson and Members of the Subcommittee, my 
Statement is submitted on behalf of the Conference of State 
Court Administrators (COSCA). I thank you for the opportunity 
to appear before you today on the important issue of access and 
visitation.
    My name is Judge Robert C. Leuba, Chief Court Administrator 
for the State of Connecticut Judicial Branch. I have been with 
the Connecticut Judicial Branch for 13 years, both as an 
administrator and as a trial judge. Prior to becoming a judge, 
I served for a number of years in the public sector and as an 
attorney in private practice. During my pre-bench public 
service career I served as Legal Counsel and Executive 
Assistant to Governor Thomas J. Meskill from 1973-1975; 
Commissioner of Motor Vehicles from 1971-1973; Mayor of the 
Town of Groton from 1967-1969 and member of the Groton Town 
Council from 1965-1969.
    Throughout my years with the Judicial Branch, I have had 
the opportunity to preside over a variety of criminal, civil 
and family matters, including those involving domestic 
relations issues. I served as presiding judge of the family 
division of the New London Judicial District as well as Chief 
Administrative Judge of the Judicial Branch's Civil Division 
prior to my appointment as Deputy Chief Court Administrator in 
1984.

Conference of State Court Administrators (COSCA) 

    COSCA was organized in 1953 and is dedicated to the 
improvement of State court systems. Its membership consists of 
the principal court administrative officer in each of the fifty 
States, the District of Columbia, the Commonwealth of Puerto 
Rico, the Commonwealth of the Northern Mariana Islands, and the 
Territories of American Samoa, Guam, and the Virgin Islands. 
COSCA is a nonprofit corporation endeavoring to increase the 
efficiency and fairness of the nation's State court systems. 
The purposes of COSCA are:
    <bullet> To encourage the formulation of fundamental 
policies, principles, and standards for State court 
administration;
    <bullet> To facilitate cooperation, consultation, and 
exchange of information by and among national, State, and local 
offices and organizations directly concerned with court 
administration;
    <bullet> To foster the utilization of the principles and 
techniques of modern management in the field of judicial 
administration; and
    <bullet> To improve administrative practices and procedures 
and to increase the efficiency and effectiveness of all courts.

 Access and Visitation Programs Are Important to State Court Operations

    Access and visitation issues are an integral part of 
domestic relations cases involving children. Judges on a daily 
basis see the problems that arise out of conflicts between 
parents related to child custody, access and visitation, child 
support, medical support, and property settlements. Judges and 
court managers also see the need for supportive services to 
assist parents in working through their conflicts. Supportive 
services related to access and visitation issues include 
mediation programs, parent education classes, and in cases 
involving domestic violence, supervised visitation programs and 
neutral drop-off/pick-up locations.
    Courts around the country have had an important role in 
trying to meet the needs of families. Judges recognize that 
family related disputes are best resolved by the parties 
themselves, not by judicial decree. As a result of this 
recognition, courts have been active in developing and 
implementing access and visitation programs, particularly 
mediation programs and parenting skills classes. However, the 
courts, nor the Executive Branch agencies, alone cannot develop 
the level of services needed to address access and visitation 
issues. The two branches of government, in conjunction with the 
advocacy community, must work together to develop the 
supportive services that divorced and never-married parents 
need. It is critical that a collaborative approach be used to 
develop these supportive services. Based on their experience 
and responsibilities, courts bring a unique and valuable 
perspective to the discussion and planning process, as does the 
Executive Branch agencies and the advocacy community. Courts 
have played a valuable role in developing resources and must 
maintain and enhance that role in the future.
    Access and visitation issues impact State court operations 
in two ways--the need for additional supportive services and 
increases in domestic relations caseloads.

Services

    In a 1992 study conducted by the National Center for State 
Courts (NCSC), the most serious problem faced by the courts in 
managing and adjudicating divorce cases was a lack of 
resources. This study looked at the handling of divorce cases 
in sixteen (16) urban jurisdictions. Judges and court managers 
in each court were asked to identify the three (3) most serious 
problems they face in managing and adjudicating divorce cases. 
A substantial proportion of the respondents identified 
insufficient resources as the most serious problem. (Goerdt, 
1992)
    In Michigan, which has many years' experience in providing 
access and visitation enforcement services,\1\ chief circuit 
judges, presiding family division judges and friend of the 
court staff have indicated that where the court is able to 
ensure enforcement service to both parents, and where vigorous 
enforcement of custody and parenting time is available, non-
custodial parents are more likely to stay involved in their 
children's' lives. The effect of that continued close 
involvement is improved support of children's emotional needs, 
and as direct by-products:
---------------------------------------------------------------------------
    \1\ The Michigan Friend of the Court system, implemented in 1919, 
has statutory responsibility for enforcement of the court's orders 
relating to custody and parenting time.
---------------------------------------------------------------------------
    <bullet>  An increased likelihood that the non-custodial 
parent will remain current with reasonable financial support 
requirements;
    <bullet> An increased likelihood that financial and non-
financial issues will be resolved by agreement of the parents; 
and
    <bullet> Greater acceptance by parties of orders and 
amendments to orders affecting custody, parenting time, and 
financial support.

Caseload

    In 1997, over fifteen (15) million new civil cases were 
filed in State courts. As five million of those cases were 
domestic relations cases, they comprise thirty (30) percent of 
the total civil caseload. Domestic relations cases are the 
largest and fastest-growing segment of the civil caseload. 
Based on data reported by the States, the District of Columbia, 
and Puerto Rico, there has been a sixty-five (65) percent 
increase in domestic relations cases between 1985 and 1997. 
Additionally, custody disputes have increased one hundred-
sixteen (116) percent since 1985.
    To address these significant increases in caseload, court 
managers must utilize judicial resources where they are most 
needed and can be most effective. Research has shown that 
participants in custody and access and visitation mediations 
are significantly more satisfied than persons resolving the 
disputes through litigation. (Keilitz, et al, 1997) If the 
parties can resolve their access and visitation disputes 
through mediation, it is better for all concerned. Judicial 
resources are reserved for resolving disputes that cannot be 
mediated. The benefits for the children are also significant. 
Experience has shown that parents with mediated agreements are 
more likely to comply with the terms of the agreements, which 
reduces the likelihood of future disputes.

             Federal Access and Visitation Grants to States

    The Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA) of 1996 authorized $10 million for 
projects to enable States to establish and administer projects 
to support and facilitate non-custodial parents' access to and 
visitation of their children. Eligible activities under the 
grant program include; mediation (voluntary and mandatory), 
counseling, education, the development of parenting plans, 
visitation enforcement (including monitoring, supervision, and 
neutral drop-off/pick-up centers), and the development of 
guidelines for visitation and alternative custody arrangements.
    The federal Office of Child Support Enforcement (OCSE) 
offered Access and Visitation Block grants to the States in 
January 1997. The Governors in each State and the independent 
jurisdictions of the District of Columbia, Guam, Virgin 
Islands, and Puerto Rico were asked to designate a State agency 
responsible for administering the grant funds. All 54 
jurisdictions eligible for the block grants responded to the 
solicitation by submitting an application for funds. For the FY 
98 funds, the designated State agency in six States was the 
State court administrative office. The vast majority of States 
designated the IV-D agency to administer the access and 
visitation grants, but in a number of States, such as 
Connecticut and Michigan, the IV-D agency contracts with the 
courts to deliver services.

              Connecticut's Access and Visitation Program

    Connecticut is using funds provided under the Grants to 
States for Access and Visitation Programs to establish and 
implement a multifaceted program to promote, facilitate, and 
support contact between non-custodial parents and their 
children.

The Role of the Judicial Branch in this initiative

    The Connecticut Judicial Branch is committed to promoting 
healthy and nurturing relationships between children and their 
parents. Some families are in need of enhanced services to 
assist them in achieving this goal. The court is the primary 
forum in which they present their disputes and thus is in a 
unique position to identify these families. The funding 
available through this grant has been used to establish a menu 
of programs for use by judges and family relations counselors 
to assist parents in addressing the underlying issues 
contributing to the conflict.

Target Population

    The State of Connecticut is divided into thirteen judicial 
districts. This program is being piloted in one location--the 
Hartford Judicial District. The target population for the pilot 
program consists of two groups:
    <bullet> Unwed parents appearing before the Family Support 
Magistrate Court (the IV-D group) on child support matters and
    <bullet> Divorced or divorcing parents with highly 
conflicted and unresolved custody and visitation issues 
appearing before the Superior Court.
    These two groups were chosen because the children in these 
families are most likely to benefit from enhanced 
interventions. Many of the children referred from the family 
support magistrate court have no or very limited access to non-
custodial parents. The children coming out of the superior 
court are frequently placed in a vulnerable position by the 
competing interests of their parents.

                         Current Funding Levels

    The Judicial Branch receives its grant through a 
Collaborative Agreement with the Department of Social Services 
(the State's IV-D agency). The Judicial Branch received 
$114,181 for this program for the period from July 1, 1998 to 
September 30, 1999. These funds are used to pay the salary of 
one Family Relations Counselor employed by the Judicial Branch 
and contracts with community agencies to provide specialized 
services to parents in the target groups. The State contributes 
17% of in-kind services, such as the mediation services and 
services provided by other family relations counselors who are 
assigned to these cases.
    The grant has been extended to provide funding, in the 
amount of $110,000, for the period ending on September 30, 
2000.

Current Program

    The purpose of the program is to promote healthy and 
meaningful interaction between children and their parents. To 
accomplish this objective, the program provides judges with an 
array of programming options to empower parents to resolve 
conflicts in a non-confrontational manner and promote the 
importance of meaningful interaction of both parents with their 
children.
    The program consists of two categories of services: The 
first is a court-based mediation program conducted by the 
funded family relations counselor. The second category consists 
of clinical intervention services.

Court-based Services

    These services include:
    <bullet> Assessment and screening of parenting and 
visitation disputes in the Family Support Magistrate Court; The 
family relations counselor is available to assess and screen 
cases, and refer appropriate cases to the grant programs, 
during sessions of the Family Support Magistrate Court and 
Superior Court.
    <bullet> Comprehensive evaluations of those families are 
conducted, if indicated by the initial screening;
    <bullet> Development of case management plans utilizing 
services responsive to the unique needs of each case;
    <bullet> Mediation and other dispute resolution services 
that encourage and support, where appropriate, a mutual 
understanding of and commitment to a healthy parenting 
arrangement that involves the positive contribution of both 
parents; and.
    <bullet> Supervision and monitoring of chronically 
problematic visitation disputes.
    The Judicial Branch contracts for the following services 
under this grant:
    <bullet> Reunification services to parents and children, 
including counseling;
    <bullet> Physical supervision of visitation sessions 
between non-custodial parents and their children;
    <bullet> Psycho-educational and group counseling services 
for parents and their children involved in chronically 
conflicted visitation disputes; and
    <bullet> Program evaluation.

Experience Thus Far

    Mediation (Family Support Magistrate Court): During the 
eighteen months in which this contract has been in effect, the 
following has occurred:
    <bullet> Generated a total of one-hundred and ninety-seven 
(197) parents expressing and interest in participating in these 
programs;
    <bullet> Of these, eighty-eight followed through.; and
    <bullet> Of these, fifty (50) reached an enforceable 
agreement.

Contracted Services

    Building Cooperative Relationships Counseling: This 
clinical, rather than court-based, intervention has been 
marginally successful. During the grant period, twenty (20) 
families participated. Of those, four (4) have reached an 
agreement, and seven (7) continue to receive counseling. The 
balance has returned to court.
    Transitions in Parenting: This group consists of high 
conflict couples, and has experienced mixed success due to the 
level of hostility and combative behavior of the participants. 
Fifteen families have accessed these services.
    Supervised Access Program: Twenty-two (22) families were 
referred to these services and made use of the highly 
structured clinical environment for visitation.
    To summarize, early results (18 months) point to a positive 
impact of the mediation and casework process applied by court 
personnel, and to the supervised visitation services. On the 
other hand, the contracted clinical services are showing less 
positive results. This may in part be attributed to the 
extremely high conflict and complex set of circumstances 
surrounding these referrals. These programs are being reviewed 
to tailor and augment these clinical interventions to better 
provide the client with an opportunity to realize a favorable 
response.
    Currently, the Judicial Branch is restructuring the 
clinical approach to merge the Building Cooperative 
Relationships and Transitions in Parenting programs into one 
intensive clinical intervention, which will:
    <bullet> Service 25-28 families;
    <bullet> Offer joint and individual adult and child 
counseling;
    <bullet> Offer expanded parenting classes;
    <bullet> Offer expanded substance abuse treatment;
    <bullet> Offer expanded clinical assessments; and
    <bullet> Serve as a bridge from supervised to unsupervised 
visitation.

       Court-Based Access and Visitation Programs in Other States

    To provide a broader understanding of the ways that State 
courts have used the access and visitation grants, a brief 
summary is provided for programs in five (5) other States.

Michigan

    In Michigan, the family division of the circuit courts is 
principally responsible for the initial entry of orders 
relating to the support of children and for the enforcement of 
those orders. That responsibility is carried out through the 
work of the Friend of the Court. Final responsibility for 
individual orders and for the operation of the Friend of the 
Court office rests with the chief judge of the circuit court. 
The Friend of the Court assists custodial and non-custodial 
parents in the establishment and amendment of appropriate 
orders for financial support of children and for orders 
relating to the custody and for parenting time. It has been 
Michigan's experience that providing comprehensive enforcement 
services to both parents (on behalf, ultimately of children) 
has benefited the well being of children and has contributed to 
Michigan's recognized success in the enforcement of child 
financial support. Chief circuit judges, presiding family 
division judges and friend of the court staff have indicated 
that where the court is able to ensure enforcement service to 
both parents, and where vigorous enforcement of custody and 
parenting time is available, non-custodial parents are more 
likely to stay involved in their children's lives.
    More recently, experiences in a few pilot jurisdictions 
have led to a partnership with the Michigan Department of 
Career Development to give priority employment support services 
to non-custodial parents. Under this program, any non-custodial 
parent reporting that he or she is unemployed or underemployed 
in cases which are currently or have once been TANF eligible 
are referred by the court to the local jobs agency for job 
support services. This program provides another tool to ensure 
a comprehensive, even-handed approach the well being of 
children. A significant share of those non-custodial parents 
failing to provide financial support are those who are 
unemployed or underemployed, and who may have difficulty in 
maintaining stable employment. Obviously, traditional 
enforcement mechanisms such as income withholding, contempt 
proceedings, garnishment, and property seizure will not produce 
results in those cases, and may in many cases serve to decrease 
future opportunities for those parents to contribute to the 
support of their children.
    Michigan circuit court friend of the court offices are 
responsible to provide enforcement services for child support, 
custody and parenting time in domestic relations cases to both 
parents. The responsibilities include the following duties:
    <bullet> Investigate and provide a written report and 
investigation regarding financial support of children;
    <bullet> Receive, record and disburse payments;
    <bullet> Initiate and carry out proceedings to enforce all 
orders entered regarding custody, parenting time, support and 
health care;
    <bullet> Provide voluntary domestic relations mediation to 
assist in settling custody and parenting time disputes;
    <bullet> Prepare orders for agreements relating to support, 
custody and parenting time;
    <bullet> Initiate post judgment child support 
investigations to determine if an increase or decrease in 
support is appropriate; and
    <bullet> Investigate complaints regarding violations of 
custody and parenting time orders, and make recommendations to 
the court for disposition of those complaints which are not 
voluntarily resolved.
    Many circuit courts have a variety of discretionary 
services that they have made available, including parent 
education programs, and additional support services for 
supporting the active involvement of both parents in children's 
lives. Among those programs is the now nationally recognized 
``S. M. I. L. E.'' program, introduced by the Oakland County 
Circuit Court and geared towards educating parents in the 
beginning stages of a domestic relations regarding the impact 
of divorce on children.

Alabama

    Upon being designated the State agency for administering 
the Access and Visitation Grant funds, the Alabama 
Administrative Office of the Courts established an Access and 
Visitation Oversight Committee. The Committee conducted an 
assessment to identify the State's needs. The assessment 
resulted in the issuance of a Supreme Court Rule that 1. 
authorized parent education programs, 2. established a pro se 
process whereby parties can file a notice of non-compliance 
with the courts, and 3. developed strategies for implementing 
pilot projects. Grant funds have been used to support the pilot 
projects and to support a Statewide judicial training program.
    The pilot project in Geneva County offers voluntary 
mediation services to pro se parties prior to filing a court 
action related to a custody or visitation dispute. The goal is 
to resolve the dispute through mediation and develop parenting 
plans. Once agreements are reached through the mediation 
process, the parties are referred to a legal facilitator to 
assist them in filling out forms to establish an agreed court 
order. Project funds have been used to develop informational 
materials, a part-time mediator, and a part-time legal 
facilitator. Parties partially pay for the services through a 
sliding scale fee structure, however, fees are waived for 
indigent parties.
    Pilot projects have been developed in Jefferson County and 
Lowndes County to offer parenting education classes to never-
married parents. Parents participating in the program attend 
eight (8) informational/educational sessions. The court refers 
parties to the program as a result of visitation and custody 
disputes that have arisen as part of a petition to establish 
paternity, a motion to establish custody/vistation, or a motion 
to modify a visitation or custody order. Project funds have 
been used to pay for the education materials and the 
facilitator/faculty. The services are provided to the parties 
at no cost.
    In Madison County, a pilot program has been established to 
offer supervised visitation services and a neutral drop-off/
pick-up location. The program was developed in conjunction of a 
``one-stop'' Family Resource Center. Project funds have been 
used for the supervision staff. There is no cost to the parties 
for these services. Additionally, the Madison County project is 
working with the local Legal Services agency to develop pro se 
packets related to custody and visitation enforcement.

Alaska

    The Access and Visitation Grant funds have been used in 
Alaska to offer both mandatory and voluntary mediation services 
for visitation and custody disputes. A pilot project was 
established in Anchorage where about half of the State's 
population resides. Any domestic relations cases involving a 
custody or visitation dispute is appropriate for referral to 
mediation services whether the case is pre-divorce, post 
divorce or involves never-married parties. The judge can order 
parties to participate in mediation or the parties can 
voluntarily request services on a motion form filed with the 
court. In developing this pilot project, court officials had to 
be mindful of their State law, which limits mediation in cases 
involving domestic violence. Alaska State law requires that in 
cases involving domestic violence that 1. the victim must 
consent to the mediation and 2. the victim can bring an 
attorney or other person to the mediation sessions. The Alaska 
court rule establishing the pilot project allows any part to 
bring an attorney to the mediation sessions. Project funds have 
been used to pay for contract mediators. Financial guidelines 
have been established for the mediation participants. The 
parties with a combined income of greater than $75,000 are not 
referred to the program, but are referred to private services. 
Parties participating in the program partially pay for services 
based on a sliding scale fee system. The parties with a 
combined income of less than $40,000 receive the services at no 
cost to them.

Arkansas

    The Arkansas program is similar to the Alaska program in 
that voluntary and mandatory mediation services are offered. In 
Arkansas, the services are offered Statewide. The Alternative 
Dispute Resolution (ADR) Commission manages the program in the 
Administrative Office of the Courts. If both parties agree to 
mediation, they can request services directly from the ADR 
Commission. If both parties do not agree to mediation or the 
court on its own motion can order parties to participate in 
mediation. Early experience with the program was that most 
referrals were related to parenting plans and custody disputes 
in paternity cases. Future plans for the program are to develop 
a parent education program for the mediators to present to the 
parties. Project funds are used to pay for mediators' time and 
travel expenses. Services are available at no cost to the 
parties.

New Jersey

    New Jersey took a different approach in using their Access 
and Visitation Grant funds. They sent a Request for Proposal 
out to all of their counties and eleven (11) counties 
responded. All eleven (11) counties received funding with each 
county developing a program to meet its unique needs. Some 
counties just needed help in tracking cases, while others used 
the funds to implement a range of services. As one example, 
Essex County enhanced their parental skills workshop. As 
another example, Camden County, they developed a mediation 
center that includes an array of services, has a program to 
assist pro se litigants, and is developing a parental skills 
class in cooperation with the City of Camden. In New Jersey, 
all of the court-based services fall within 3 categories--
mediation, therapeutic services, and parent education.
    Additionally, New Jersey planned a 1-day conference for 
non-custodial parents and service providers. They established 
an advisory committee, which included non-custodial parents, to 
assist in the planning for the conference. Over 200 non-
custodial parents and service providers participated in the 
conference. The format of the conference was a combination of 
educational sessions with discussion opportunities. The 
conference panels included a combination of professionals, 
parents, and children. Participants were provided with 
information on parenting skills and about the court process, 
the scope of authority which judges possess, and how to access 
the courts. The conference evaluations indicate that the 
conference was very well received by the participants.

  Connecticut's Experience with Allegations of Abuse, which Result in 
                      Supervised Visitation Orders

Frequency of Allegations

    The Judicial Branch is in the process of developing a 
comprehensive case management system for family and civil 
cases. Our current system does not allow for the collection of 
comprehensive data. Because of this limitation, the Branch does 
not have statistics on allegations of abuse in these cases.

Process

    When an allegation of abuse is made, the judge refers the 
case to the Court Support Services Division's Family Services 
Unit to determine the validity of the allegations. If this 
screening indicates it is necessary, the case is referred to 
the family services unit for a comprehensive family assessment, 
which takes four (4) months to complete and includes multiple 
interviews with all family members, observation of parent-child 
interactions, and contact with personal and professional 
sources, such as neighbors, school officials, day-care 
providers, psychiatrists and doctors. During the pendency of 
the investigation where abuse has been alleged, measures are 
put in place to ensure the children's safety. These measures 
may include visitation in a supervised setting or strictly 
structured visitation. The most restrictive form of supervised 
visitation necessary to ensure the child's safety occurs in a 
private clinic, where safety and security measures such as 
metal detectors, two-way mirrors, cameras, and a social worker, 
are present at all times. The least restrictive form of 
supervised visitation would be a brief interaction in a public 
setting with specific conditions imposed.
    At the conclusion of the family assessment, the Family 
Relations Counselor presents recommendations to the family. 
These recommendations would include future custody and 
visitation arrangements. Seventy-eight percent (78%) of the 
time the families accept the recommendations in part or in 
total. If there is a recommendation that supervised visitation 
continue, they will also include a provision for review of that 
arrangement, with the goal of phasing into unsupervised 
visitation.
    Currently, the Judicial Branch is implementing a plan to 
enhance the supervised visitation program funded by the federal 
grant by providing subsequent interventions that would allow 
the access between the parent and the child to progress to an 
unsupervised setting.

                         COSCA Recommendations

    It is our understanding that this Committee may consider 
developing legislation, which would expand the resources 
available to States for access and visitation programs. If the 
Committee does undertake such an initiative, we ask that 
consideration be given to requiring that the entity receiving 
federal grant funds seek input from the chief of the highest 
court of the State in planning for the use of the funds. Courts 
play a pivotal role in access, visitation, and custody 
disputes. As such, they have a valuable perspective to offer 
related to the types of disputes that are being filed in court 
and regarding the types of services needed to support families 
and the gaps in service delivery. Congress included the 
following language in the Crime Identification Technology Act 
(CITA) of 1998 (P.L. 105-251) related to the assurances States 
must make to qualify for the CITA grant funds.

          An assurance that the individuals who developed the grant 
        application took into consideration the needs of all branches 
        of the State Government and specifically sought the advice of 
        the chief of the highest court of the State with respect to the 
        application;
          If this Committee develops a legislative proposal to increase 
        or enhance federal funds for access and visitation programs, we 
        ask that consideration be given to requiring a similar 
        assurance related to eligibility for grant funds.

    Secondly, we are aware that Congress and OCSE are considering 
possible changes to the funding structure for the Title IV-D Child 
Support Enforcement program. I would like to bring to your attention a 
resolution recently adopted by COSCA and the Conference of Chief 
Justices. The resolution encourages OCSE to make Title IV-D Federal 
Financial Participation funds available to States for custody and 
visitation support services. We believe that while child support and 
access and visitation are separate issues, they are very much 
interwoven. It makes sense that parents actively involved in their 
children's lives are more likely to make their child support payments. 
As such, we believe that assisting parents in exercising their access 
and visitation rights can result in increased compliance with child 
support orders. A copy of the resolution is attached to my testimony 
for your further consideration.
    Once again, I thank you for this opportunity to share with you the 
thoughts of the COSCA on this most importune issue. I would be glad to 
address questions from the Subcommittee.

                               References

    Goerdt, John A., Divorce Courts: Case Management, Case 
Characteristics, and the Pace of Litigation in 16 Urban Jurisdiction, 
Williamsburg, VA:, National Center for State Courts Publication Number 
R-141, 1992.
    Keilitz, Susan L., et al., Domestic Violence and Child Custody 
Disputes, Williamsburg, VA:, National Center for State Courts 
Publication Number R-202, 1997
    Ostrom, Brian J. and Neal B. Kauder, Examining the Work of State 
Courts, 1997: A National Perspective from the Court Statistics Project, 
Williamsburg, VA, National Center for State Courts Publication Number 
R-210, 1998.
      

                                <F-dash>


CONFERENCE OF CHIEF JUSTICES

CONFERENCE OF STATE COURT ADMINISTRATORS

                             Resolution XIV

 In Support of Federal Financial Support of Enforcement of Custody and 
   Visitation Support Services by State Courts and Executive Agencies

    WHEREAS, Title IV-D of the Social Security Act provides for 
federal financial participation in support of State and local 
judicial and executive branch agencies enforcing orders of 
financial support of children; and
    WHEREAS, data provided by the federal Office of Child 
Support Enforcement show that 85% of parents who have regular 
contact with their children also meet their financial child 
support obligations; and
    WHEREAS, children generally benefit from the financial and 
emotional support of both parents; and
    WHEREAS, State judicial and executive branch agencies with 
responsibility for ensuring the welfare of children and 
families must have flexibility to address all issues relating 
to the well-being of children without artificial legal or 
financial barriers; and
    WHEREAS, parents and children in separated families 
frequently do not have effective access to services to resolve 
issues relating to custody and visitation; and
    WHEREAS, unresolved issues relating to custody and 
visitation often lead to increased stress for parents and 
children, refusal or failure to pay child support, and in some 
cases family violence;
    NOW, THEREFORE, BE IT RESOLVED that the Conference of Chief 
Justices and Conference of State Court Administrators encourage 
the Department of Health and Human Services, Administration on 
Children and Families, Office of Child Support Enforcement, to 
make available Title IV-D Federal Financial Participation to 
States for custody and visitation support services, at the 
option of the various States; and
    BE IT FURTHER RESOLVED that the Conferences urge Congress 
to provide adequate funding for this purpose.
    Adopted as proposed by the Courts, Children and the Family 
Committees of the Conference of Chief Justices and Conference 
of State Court Administrators in Williamsburg, Virginia on 
August 5, 1999.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thanks very much, Judge 
Leuba.
    Mr. Cady.

    STATEMENT OF TERRY W. CADY, VOLUNTEER MEMBER, BOARD OF 
DIRECTORS, AND STATE OF ILLINOIS COORDINATOR, CHILDREN'S RIGHTS 
 COUNCIL; AND SENIOR VICE PRESIDENT, BANK OF AMERICA, CHICAGO, 
                            ILLINOIS

    Mr. Cady. Thank you. Madam Chair and Representative Cardin, 
my name is Terry Cady. I'm a banker, but I'm also a volunteer 
board of director of the Children's Rights Council, as well as 
the Illinois coordinator. And, in that capacity, I've been 
working with the visitation access grant in Illinois, 
specifically in DuPage County, which is a collar county to Cook 
of Chicago, Illinois.
    I'd like to accomplish three things today. The first is in 
regards to the visitation and access grant. Number one is to 
thank you on behalf of the Children's Rights Council and all 
noncustodial parents, both never-married as well as divorced. 
And I believe I can also speak on behalf of those professionals 
in DuPage County who are dealing with children and parents in 
the stress of paternity or divorce.
    Second, I'd like to talk a little bit about DuPage County 
and talk about some of attributes that we think make it 
successful. One of which is we have a State coordinator, Joseph 
Mason, who's in the audience in the back somewhere, who I'm 
sure is available to answer questions, who buys into the 
mission Statement that it is in the best interests of the child 
to have access to both parents. Second, he has experience with 
noncustodial parents.
    Third, we used the funds to supplement existing programs in 
DuPage and we were able to put together a comprehensive, 
integrated program that included mediation, counseling, 
education, parental planning, supervised visitation, and a 
neutral drop-off site. We believe firmly that the coordinated, 
integrated approach works best. Finally, we got the entire 
community's support, particularly the court. The court was very 
instrumental in working with us. We had over 32 different 
community parties involved in the process of putting together 
the plan.
    And, finally, we wanted our program to be measurable. And 
we can report today that one of the first successes after the 
first full year is that agreed order parenting plans have 
improved to 87 percent of the cases, which is some 2 to 3 times 
higher than it had been before, as a result of the fund's use 
in expedited mediation.
    My experience as a banker seems to indicate that there must 
be some real linkage between the mission Statement suggesting 
that access to both parents is good for children and real 
results. And, as such, it is in our best interests to make sure 
these programs work, that I humbly offer three suggestions. One 
is, unilaterally include in the program both divorced as well 
as never-married noncustodial parents. Two, we are currently, 
in the State of Illinois and most States, at least to my 
knowledge, we are helping hundreds of cases in isolated, 
concentrated test areas. However, there are tens of thousands 
if not hundreds of thousands of annual cases in each State that 
we need to approach. And that leads to the third point. I'd 
like you to consider an increase to the funding from $10 
million to at least $50 million.
    And, finally, I'd like to address Representative Cardin's 
comments earlier about the culture. In years past, there was a 
fair amount of animosity between the various advocacy groups on 
the issue of the problem. I'm beginning to find that that is 
changing. I am very pleasantly surprised and pleased to find 
that the social service official; that are involved in dealing 
with the children and the parents in the trenches also agree 
that the problem should be framed as getting access to both 
parents instead of winning or losing for a mother or father.
    [The prepared Statement follows:]

Statement of Terry W. Cady, Volunteer Member, Board of Directors, and 
State of Illinois Coordinator, Children's Rights Council; and Senior 
Vice President, Bank of America, Chicago, Illinois

                        Summary and Background:

    Mission Statement: A child should have the benefit of 
access to, and the involvement of both parents

Background

    My name is Terry W. Cady. I am a volunteer member of the 
board of director of the national organization Children's 
Rights Council and a State of Illinois coordinator for CRC. I 
am a Senior Vice President and manager of a healthcare-lending 
unit of the Bank of America. I also have been active in helping 
DuPage County, Illinois family court and its affiliated and 
community based Parents and Kids in Partnership Program 
(P.A.K.) to obtain a contract to administer a portion of 
Illinois's Visitation and Access grant funds (DuPage County's 
share has been $200,000 each year)
    I am here to make the following five points:
    1. Thank you for the $10 million visitation and access 
grant. I can report that the community of non-custodial parents 
and the front line professionals dealing with children and 
their parents in conflict appreciate the funding. It is the 
first real attempt by any agency to try to help the non-
custodial parent gain access to, and visitation with their 
children.
    2. I can report the money disbursed in Illinois was well 
spent on a community and court supported comprehensive access 
and visitation program. It has helped to provide tools to the 
courts and the county-based professionals to help both parents 
obtain meaningful, reportable access to their children.
    3. It is our view that, in general, most States made good 
use of their share of the $10 million grant. Most courts 
community child welfare professionals and conflict resolution 
professionals have recognized the proven developmental and 
financial benefits to the child with access to both parents. It 
is our belief that another benefit of the program is its 
catalytic impact. It has helped officers of the court to, for 
the first time, focus and work with others on solving the 
problems of the non-custodial parent and their opportunity and 
responsibility to be a parent.
    4. The program's benefits justify its continuation. You 
planted the seeds. The seedling is growing. Please allow the 
program to mature.
    5. The program could provide further benefits if:
    <bullet> The program were universally expanded to include 
the divorced population,
    <bullet> The size of the total annual program was increased 
to at least $50 million. Each States' grant share is just large 
enough for application in a few selected court or county units; 
limited funds have also forced some States to focus on only one 
aspect of the program,
    <bullet> States were directed to award the funds management 
to a program director, and mission champion experienced in 
visitation and access conflict resolution. It is our experience 
that a program's success is correlated to the effectiveness of 
the State program administer and to States that support an 
integrated, comprehensive program that allows mediation to 
compliment parent planning and parent education. Non-custodial 
counseling helps access and visitation enforcement become less 
confrontational and reduce the parental conflict.

Illinois Grant

    Joseph Mason, Illinois Department of Public Aid, Division 
of Child Support, manages the Illinois grant. One of his 
responsibilities has been to work with the dads of children of 
the never-married population of Cook County, Illinois. Illinois 
used their portion of the Visitation and Access grant funds 
(nearly $500,000) to fund the Cook and DuPage County Domestic 
Relations Court based on a proposal to target the IV-D never-
married population.
    Mr. Mason contracted with the Cook County court and the 
DuPage County court systems in 1998 and 1999. Peoria County has 
just been added. Joseph Mason is a good example of a program 
manager who has experience in dealing with the non-custodial 
parents, is a champion of the two parents' mission, and is 
skilled in bringing broad community support.
    Mr. Mason has also caused Cook and DuPage County to jointly 
develop a program video that sells the benefits of community 
(court, consumers, and other conflict professionals) support of 
the mission and the elements of the program.

Cook County

    The Cook County program has been effective in hiring 
lawyer/ mediators to expedite agreed-order-parenting 
arrangements. The program has already showed success in 
obtaining non-custodial parents' visitation and access with 
much reduced adversarial and time-consuming courtroom 
litigation. Non-custodial parents and the court officials 
report enthusiastic support of the program.

DuPage County

    DuPage used its contract funds to help complement an 
existing program, the Kids in Partnership program (P.A.K). The 
resulting program includes a comprehensive set of elements 
including mediation, counseling, supervised visitation, neutral 
pickup and drop off sites, and development of parenting plans. 
I can report on behalf of DuPage County the following:
    <bullet>  expedited mediation has helped move agreed order 
parenting plans from less than 40% of the time to 87% of the 
time.
    <bullet>  consumers have utilized supervised visitation on 
domestic violence, orders of protection, as well as to increase 
the comfort level of parents and children who they may not know 
or had a previous relationship.
    <bullet>  developed a measurement system to document 
program progress related to child support payment compliance, 
education, consumer satisfaction through focus groups and court 
follow-up.
    <bullet>  gained broad based community support for a short 
term drop off and supervised center as well as plans for a 
longer term full service family center-see the attached list of 
involved community participation as an example of community 
support.

Review of State by State Grant Success:

    We do not yet have the benefit of any empirical State by 
State analysis, but our own unofficial review would seem to 
indicate the following elements exist in the successful State 
programs:
    <bullet>  it appears that the more successful State 
programs occurred where the State used the grant funding to 
complement, expand and improve existing Kids, Conflict 
Resolution, Mediation or other related programs,
    <bullet>  the more successful State funding was applied in 
a concentrated manner to a few pilot metro county or court 
areas instead of a full State wide program,
    <bullet>  the State grant administration in more successful 
programs avoided funding the theoretical study or the too 
general program and focused on immediate, measurable practical 
applications,
    <bullet>  the grant administrator in the more successful 
programs attempted to gain buy-in from a broad based local 
community. The primary support came from the court; in DuPage 
county, the court became the driving force that mandated 
program usage.
    The CRC was an early voice in calling for the pilot 
visitation grants in 1985 that we believe led to the 
$10,000,000 national grant in 1996. We believe that giving each 
State wide latitude in program implementation allows for a 
continuation of the experimental, pilot approach to the search 
for the best solution. We hope that as reliable data is 
obtained and analyzed, best practices will be shared with all 
States. At that point, and with greater funding, the States can 
increase the reach and impact of the programs.

Program Critique

    Although we believe the program is working, we recommend 
the committee consider the following program additions that 
would improve the program's impact:
    1. Increase the annual national State grant to at least 
$50,000,000 for two more years. Upon receipt of the anticipated 
positive data and its implication of improved access and 
improved child support payment, the program should be increased 
to $100,000,000 for the following two years. At that point each 
State should be able to service most court and county consumers 
in need in all the States.
    Many States received the minimum of $55,000 out of the 
current $10,000,000 grant and only 5 States received more than 
$500,000. The average State grant level is $191,000.This is a 
great capital start, it representing seed investment capital, 
but it is not enough to develop Statewide programs. It is also, 
in many States not enough funds to cover both the never-married 
and divorced non-custodial populations. The current program 
funding level allows for impact on hundreds of cases, we would 
like to see the program expanded to effect thousands of cases 
in each State each year. We believe the success data points 
will justify the increased investment.
    Any meaningful expansion of the program to the divorced 
population (as in #3, below) would also significantly increase 
the service need.
    And finally, we believe that real success of a State's 
program relies on a multi-element program approach (as in #2, 
below), which would further increase the funding need.
    2. We recommend a statute change that would require each 
State not to use its funding on any one-program element more 
than 25% of the total. As an example, supervised visitation can 
play an important part in giving children access to both 
parents but real progress in achieving reduced conflict access 
requires mediation, counseling, education and neutral drop-off 
sites.
    Our review of the research seems to indicate that long-term 
program success requires an integrated approach. Mediation is 
needed as soon as possible, supported by constructive 
counseling, parenting education, supported parental planning, 
and then in only some high conflict cases or cases where the 
non-custodial parent is not familiar with the child, supervised 
visitation or neutral drop-off sites.
    To use all or most of a State's grant on supervised 
visitation may be an acceptable short-term remedy to some of 
the community's problems and we fear that in many non-custodial 
parents' cases it may be their only access to their children. 
However, we believe longer term single element approaches may 
not show the non-custodial parent the empathy and support they 
are seeking, because supervised visitation is anathema to many 
experienced parents.
    3. Several States have focused the grant only on the IV-D 
never-married population. There is unquestionably a great need 
to help the never-married father understand his parenting 
obligations, be taught how to parent, obtain access to his 
child, and there are few if any resources available to these 
fathers. We believe the grant should continue to be available 
to this group.
    However, the divorced non-custodial parent also needs the 
same resources. The divorced parent who is denied access and 
visitation with his children because of conflict with their 
child's other parent needs counseling, mediation, education, 
and visitation enforcement. Some court jurisdictions have 
limited public mediation services for the divorced population, 
but we are not aware of any existing programs that provide 
counseling, parenting education, and subsidized or free 
supervised visitation or neutral drop off sites. We are not 
aware of any comprehensive conflict programs, encouraging 
access and visitation, outside the grant program.
    We have discussed an increase to DuPage County's program to 
include the divorced population, with the divorced parent 
paying for all or part of the program on a sliding income 
scale. We would like to compliment their financial payment with 
public and perhaps private or corporate support.
    Most divorced non-custodial parents dealing with visitation 
or access conflict or denial and the related court costs do not 
have the financial, network or emotional capital to obtain 
effective help.
    According our review of the current research, there are 
over 5.9 million children now living with a never-married 
custodial parent, while there are over 24.7 million children in 
the United States in 1995 who did not live with their 
biological father. Both of these statistics indicate a societal 
problem that has increased four fold since 1960.
    What really troubles the CRC is that 40% of the children of 
divorced non-custodial parents have not seen the non-
residential parent during the last year.
    4. The most successful State programs include thought, 
planning, creativity, and a strong, experienced, sponsor 
champion. It is apparent to us that some States could use 
stronger guidance from the Office of Child Support Enforcement. 
The signs are that some States are having a slow start to 
program implementation, that some States have non-specific 
program outlines, and a few States have made program contracts 
with outside groups that have a mission inconsistent with the 
both parents is the best parent focus.
    5. We believe there are already good examples of State 
guidance in how to administer the grant. Again, community 
support, court support, focus on mission, experience with the 
non-custodial population and building on existing stand-alone 
forward thinking counties are all consistent patterns of 
excellence.

Summary of the Program Elements

    1. Mediation--voluntary and court compulsory. We have found 
that expedited mediation (particularly right after a judge has 
emphasized the importance of getting both parents to agree to a 
parenting plan and visitation schedule) is critical in dealing 
with parental conflict.
    Mediation is best provided by county or court affiliated 
paid professionals, with judiciary support, monitoring and 
reporting. Mediation is an important step in avoiding fruitless 
and expensive litigation.
    2. Counseling. The non-custodial parent in conflict goes 
through extreme emotional trauma and in many cases that parent 
needs counseling to help him/her through the trauma/grieving. 
Non-litigated settlements require parents who are ready to 
accept the new family reality and compromise respecting their 
parenting role. We have found that hearing from an empathic 
ear, given support, told they are not alone, and encouraged to 
consider the best interests of the children while keeping 
consistent contact with the child, eases the family transition.
    Counseling to the non-custodial parent requires 
understanding, and credibility. We believe qualified groups 
like the CRC can provide that service, as they already have 
experience and a network for an effective 800 number.
    3. Education. Parenting training, conflict or stress 
management, and teaching both parents the benefits to the child 
of shared parenting are all important in both the IV-D and 
divorced population. Our review of the research suggests that 
50% of all custodial parents believe that the custodial 
parent's non-financial involvement is unnecessary. It also 
suggests that 40% of the custodial parents' admitted that they 
had interfered with the non-custodial parent's visitation on as 
least one occasion, just to ``punish'' the ex-spouse.
    Individual and group education seems to help convince 
custodial parents of the other parents importance to their 
children and that is an important element in achieving some 
level of non-conflict joint parenting.
    IV-D non-custodial parents (dads) generally do not have a 
parenting perspective, experience being a parent, or the 
network of family and friends to deal with sharing the 
responsibility of being a parent.
    4. Parenting Planning. Our review of the research seems to 
indicate that up to 33% of the non-custodial parents with 
visitation agreements have been denied access on an ongoing 
basis. Related research seems to indicate that up to 38% of all 
non-custodial parents never have had access to their children. 
Structured parent planning, in conjunction with mediation and 
counseling, seems to help both parents see the benefit of the 
other parent.
    5. Visitation Enforcement, including supervised, monitored, 
mandatory and non-mandatory, as well as neutral drop-off sites 
can play an important role. Visitation enforcement may be 
appropriate where the non-custodial parent has no parenting 
skills, has no familiarity with the child, or the court 
believes there is some risk to the child or to the custodial 
parent.
    The unfortunate reality is that in some cases, there would 
be no visitation, if there no supervised visitation. There are 
other cases where the con-custodial parents parenting skills or 
familiarity with his/her child is limited and supervised 
visitation is helpful to the non-custodial parent. However, 
please understand that most divorced and many never-married 
non-custodial parents dislike the concept of not being able to 
see their children without supervision. It is an area of strong 
emotion, and it is recommended that supervised visitation be 
used with care and discretion and in the case of the divorced 
population with the other more constructive, non-conflict 
elements.
    In many communities, the experienced non-custodial parent 
is forced to use paid (up to $75 a hour) supervised visitation 
to see his/her own children. In many conflict divorce cases, it 
is very difficult for the court to determine real or imagined 
risk to the child or non-custodial parent. It is hard to blame 
the courts, should they err on the side of excessive 
precaution, but the CRC would like to see the program be an 
agent of conflict resolution and not conflict separation. 
[GRAPHIC] [TIFF OMITTED] T4324.011

[GRAPHIC] [TIFF OMITTED] T4324.012

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Cady.
    Mr. Doar.

  STATEMENT OF ROBERT DOAR, DEPUTY COMMISSIONER AND DIRECTOR, 
 OFFICE OF CHILD SUPPORT ENFORCEMENT, NEW YORK STATE OFFICE OF 
              TEMPORARY AND DISABILITY ASSISTANCE

    Mr. Doar. Thank you, Chairman Johnson and Congressman 
Cardin. I want to thank you for giving me the opportunity to 
testify. My name is Robert Doar and I am the deputy 
commissioner for the Division of Child Support within the 
Office of Temporary and Disability Assistance in New York.
    In the wake of the passage of the Federal Welfare Reform 
Act, New York moved very aggressively to apply for the funds 
made available for access and visitation programs. We did this 
because we knew that there was a strong demand from families 
and from organizations which work with families for the 
services covered by this program. Governor Pataki made the 
decision to place the responsibility for administering access 
and visitation funds with the Child Support Program because he 
recognized that the Child Support Program was the one program 
in the State that had a relationship with most of the key 
players essential to successful access and visitation programs.
    We obviously work with families. We work with the family 
courts. And we have relationships with community-based 
organizations serving children.
    While there is a connection, there are also significant 
differences between access and visitations programs and the 
Child Support Program. Differences in volume, approach, and 
process. Access and visitation programs are, by nature, labor-
intensive and case-specific, while child support is and must be 
highly automated and volume-driven. Governor Pataki also 
recognized the very real problems caused by family situations 
which do not ensure that both parents play a role in nurturing 
children. Teen pregnancy, behavioral disorders, drop-out rates, 
substance abuse, and juvenile crime have all been related to 
children going without the involvement of both parents. Quite 
simply, children need the positive influence of both parents, 
emotionally as well as economically, to be successful.
    By October 1997, only 1 month after receiving the notice of 
grant award, New York had developed and released a request for 
a proposal to not-for-profit organizations throughout the 
State. The RFP gave preferences to proposals that demonstrated 
some level of local match to ensure local community involvement 
in these projects. We felt it important to encourage addressing 
the problem at a community level instead of imposing a 
standardized Statewide program that may not fit each 
community's needs.
    Thirty-nine organizations submitted proposals with a total 
dollar value of more than $3 million. The State had slightly 
more than $600,000 to contract-for-services. We selected nine 
programs spread throughout the State with two large programs in 
New York City. All of our original contracts have been renewed 
and are continuing to operate successfully today.
    But we greatly appreciated the benefits to be derived from 
these programs outside of the traditional mission of the child 
support enforcement program. We made clear in all of our 
contracts that financial support of children be emphasized and 
expected and that family economic independence be addressed as 
a desired outcome. The programs we have funded include the 
Catholic Charities Visitation Program in Buffalo; the 
Children's Rights Council Program in Vestal that provides 
counseling and parenting education; and the New York Society 
for the Prevention of Cruelty to Children in New York City that 
provides supervised visitation services.
    When we began, we projected that the programs would serve 
1,200 children during the first contract period. In fact, 
during that period, the program served 1,368 children. Here are 
some other key statistics from our experience. 127 families 
have achieved a level of cooperation that has permitted the 
court to lift the requirement for supervised visitation. Of the 
families we serve; one-third are separated; and one-third are 
never-married. And almost one-third of the visiting parents in 
supervised visitation situations are mothers.
    With regard to child support enforcement, the numbers show 
that the time of completion of the programs--from the time of 
the completion of the programs, 70 percent of the families 
served report some form of child support commitment in place 
with more than 79 percent of those families complying with that 
commitment. Notably, when the commitment requires payment 
through the Child Support Program, the rate of compliance, at 
86 percent, is higher than when it does not.
    All in all, New York State's experience with access and 
visitation programs has been positive. The program has enabled 
diverse community-based organizations to offer greater 
varieties of services to families and those services have 
benefited families. The long-term benefits remain to be seen as 
we conduct further analysis and collect more data. We are 
cautiously optimistic that community-based access and 
visitation programs can play an integral part in the resolution 
of the problems resulting from the break-up of families.
    And I just want to add, from someone who's visited these 
facilities and these programs, the demand in the community and 
from the courts for these programs, particularly from the 
absent parents for supervised visitation, is very strong. And 
we have been able to meet that demand as a result of this 
funding. So I also want to thank the Subcommittee for making it 
available.
    [The prepared statement follows:]

Statement of Robert Doar, Deputy Commissioner and Director, Office of 
Child Support Enforcement, New York State Office of Temporary and 
Disability Assistance

    On behalf of Governor George Pataki and the New York State 
Office of Temporary and Disability Assistance, I want to thank 
you for giving me the opportunity to testify. My name is Robert 
Doar and I am the Deputy Commissioner for the Division of Child 
Support within the Office of Temporary and Disability 
Assistance.
    In the wake of the passage of the Federal Personal 
Responsibility and Work Opportunity Act, New York moved 
aggressively to apply for and use the funds made available for 
access and visitation programs. We did this because we knew 
that there was a strong demand from families and from 
organizations which work with families for the services covered 
by the access and visitation program.
    Governor Pataki made the decision to place the 
responsibility for administering the Access and Visitation 
funds with the child support program because he recognized that 
the child support program was the one program in the State that 
had a relationship with most of the key players essential to 
successful access and visitation programs. We obviously work 
with the families; we work with the family courts; and we have 
relationships with community based organizations serving 
children.
    Governor Pataki also recognized the very real problems 
caused by family situations which do not ensure that both 
parents play a role in nurturing children. Teen pregnancy, 
behavioral disorders, drop out rates, substance abuse and 
juvenile crimes have all been related to children growing up 
without the involvement of both parents. Quite simply, children 
need the positive influence of both parents, emotionally as 
well as economically, to be successful. To Governor Pataki it 
was and is clear that it takes two parents to successfully 
raise a child, and to the extent that government can help 
parents fulfill this vital responsibility, we should try.
    By October of 1997, only one month after receiving the 
notice of grant award from the federal government, New York had 
developed and released a Request for Proposal to not-for-profit 
organizations throughout the State. We decided to entertain 
proposals that addressed the following five activities listed 
in the federal law:
    1. Mediation;
    2. Counseling;
    3. Education;
    4. Development of Parenting Plans;
    5. Visitation enforcement.
    We made clear in our released RFP that the targeted 
performance outcomes for the programs were:
    1. Support and facilitate noncustodial parents' access to 
and visitation with their children;
    2. Reduce family discord through improved parental 
functioning and parent-child interactions;
    3. Stabilize the family environment emotionally and 
economically for children with an absent parent.
    The RFP gave preference to proposals that demonstrated some 
level of local match, to ensure local community involvement in 
the projects. We felt it important to encourage addressing the 
problem at a community level, instead of imposing a 
standardized Statewide program that may not fit each 
community's needs.
    Thirty-nine organizations submitted proposals with a total 
dollar value of more than three million dollars. The proposals 
reflected the entire spectrum of requested activities, with 
some organizations seeking to accomplish all of the Stated 
goals.
    The State had slightly more than $600,000 available to 
contract for services. We reviewed each proposal and selected 
nine programs spread throughout the State with two large 
programs based in New York City. The first contract period 
began March 1, 1998 and ran through November 30, 1998. All of 
our original contracts have been renewed and are continuing to 
operate today.
    Though we understood and greatly appreciated the benefits 
to be derived from these programs outside of the traditional 
mission of the child support enforcement program, we made clear 
in all of our contracts that financial support of children be 
emphasized and expected, and that family economic independence 
be addressed as a desired outcome. We also required each 
contractor to gather data at the time of a family's enrollment 
in the program so that we could evaluate to the level of 
financial support provided by both parents.
    We also made clear that these programs had to establish 
successful working relationships with both local social 
services offices and the family courts and I should say that in 
every case the programs now have a much more positive working 
relationship with the local child support enforcement office.
    The programs we have funded include the Catholic Charities 
Visitation program in Buffalo, a Children's Rights Council 
program in Vestal that provides counseling and parenting 
education; and the New York Society for the Prevention of 
Cruelty to Children in New York City that provides supervised 
visitation services.
    When we began, we projected that the programs would serve 
1200 children during the first contract period. In fact during 
that period the programs served 1368 children. Since we began 
the programs through May 31, 1999, 127 families have achieved a 
level of cooperation that has permitted the court to lift the 
requirement for supervised visitation. Of the 1,573 families 
referred for enrollment, one third are divorced, one third are 
separated and one third are never-married.
    The second contract required the additional gathering of 
the gender of the noncustodial parent to give us a more rounded 
picture of the services. We discovered that of the 271 visiting 
parents referred in the first six months, 184, or 68%, were 
fathers, while 87, or 32%, were mothers.
    With regard to child support enforcement, the numbers show 
that at the time of completion of the programs, 70% of the 
families served report some form of child support commitment in 
place, with more than 79% of those families complying with that 
commitment. Notably, when that commitment requires payment 
through the child support program, the rate of compliance (86%) 
is higher than when it does not.
    In essence the desired results for families are: 
improvement of parents' individual and cooperative parenting 
skills; better opportunity for both parents to apply those 
skills to their child raising responsibilities through mutually 
supported and meaningful parent-child time (access and 
visitation); and improvement in noncustodial parents' attitude 
leading to greater compliance with child support obligations.
    I think it instructive to briefly describe each of the nine 
funded programs within New York State so you can appreciate the 
variety of approaches taken in access and visitation programs. 
While all programs are similar in taking stringent security 
measures and providing services tailored to family need, there 
are differences in the services provided and the philosophy and 
make-up of these community based organizations.

                   Catholic Charities of Buffalo, NY

    This program expands the existing ``Catholic Charities 
Visitation Program'' and provides visitation enforcement 
services from safety-only through therapeutic supervised 
visitation to monitored exchange on an individual family basis. 
Visitation may be monitored either by direct supervision or 
through one-way glass observation ports, according to family 
need. The program also provides group parent education, and 
individual counselor assistance with development of a parenting 
plan for families experiencing entrenched custody and access 
disputes. The facility design precludes unauthorized ingress 
and parent-to-parent contact.
    The contractor expected to provide services to benefit 
approximately 243 children and actually reached 254 children in 
the first contract period.

 Child Care Coordinating Council of the North Country, Plattsburgh, NY

    This is a new program called the ``Family Connections 
Visitation Program.'' It provides mediation, parent education, 
parenting plan development and court ordered visitation 
enforcement through supervised visitation, on an individual 
family basis. Parents enter the visiting facility through 
different access points. Visitation may occur in a single 
family area or as a family activity within a larger shared play 
area. In addition outdoor recreational facilities exist which 
allow family visits in a natural yet secure environment due to 
the agency's location on a large, former military base which 
includes an on-site security force backed up by the Plattsburgh 
City Police.
    The contractor expected to provide services to benefit 
approximately 50-75 children and actually reached 72 children 
in the first contract period.

              Children's Rights Council of NYS, Vestal, NY

    This is a multi-faceted program, which provides new, 
individual counseling to parents as a follow up to an existing 
group parent education program known as ``WAR TO PEACE.'' The 
following are highlights of activities:
    1. A group training session for local law guardians and 
attorneys on issues of access was provided.
    2. The establishment of group parent education programs in 
two other counties in the 6th Judicial District.
    3. Creation of a counseling program, called ``Special 
Masters,'' in which the family court refers embattled parents 
to a confidential team of trained mental health professionals 
and trained mediators to resolve access and visitation dispute 
and create definitive parenting plans to accommodate future 
situations.
    The contractor expected to provide services to benefit a 
minimum of 200 children and actually reached 398 children in 
the first contract.

         Family Nurturing Center of Central NY, Inc., Utica, NY

    This is a new program called ``The Family Place: Child 
Visitation Program.'' It provides group parent education, with 
development of parenting plans and court ordered visitation 
enforcement through supervised visitation on an individual 
family basis. Visits take place in a former school building 
that has other family centered venues simultaneously occurring 
in the building. Visits may vary in session duration by family, 
and may move into community settings as visiting parents 
transition in their relationships with their children. Parent 
to parent contact is avoided by staging of drop-off and pick-up 
of children. Families also benefit from other agency programs 
that involve child development and nurturing emphasis.
    The contractor expected to provide services to benefit 
approximately 50-75 children and actually reached 80 children 
in the first contract period.

 New York Society for the Prevention of Cruelty to Children, New York, 
                                   NY

    This program expanded an existing supervised visitation 
program, and is called the ``Ezaccess'' Supervised Visitation. 
It provides group parenting education, and counseling with 
court ordered visitation enforcement through supervised 
visitation on an individual family basis. Visits are directly 
monitored on an individual family basis or can be remotely 
observed through one-way glass. Hand held metal detectors are 
used to screen visiting parents. This program adds a bilingual 
visitation supervisor to meet the needs of the Spanish speaking 
community; and connects families to the agency's guardian or 
mediation programs as well as other community referrals on an 
as needed basis.
    The contractor expected to provide services to benefit 
approximately 160 children and actually reached 190 children in 
the first contract period.

            St. Catherine's Center for Children, Albany, NY

    This is a new program called ``The Comprehensive Access and 
Visitation Program.'' The program provides group parent 
education with counseling and development of parenting plan 
services on an individual family basis. It includes court 
ordered visitation enforcement through supervised visitation of 
multiple families in a large, communal environment in the 
Center's auditorium that allows each family individual space. 
Families have the opportunity for referral to other services 
offered by this large agency.
    The contractor expected to provide services to benefit 
approximately 110 children and actually reached 129 children in 
the first contract period.

     Society for the Protection and Care of Children, Rochester, NY

    This program is called the Supervised Visitation and 
Exchange Program. It provides individual and group parent 
education, as well as court ordered visitation enforcement 
through supervised visitation and monitored visitation exchange 
on an individual family basis. Each family visit occurs in a 
single family environment with the visit supervisor in 
attendance.
    The contractor expected to provide services to benefit 
approximately 150 children and actually reached 190 children in 
the first contract period.

                    Victim's Services, New York, NY

    This program is known as the Bronx Family Court Supervised 
Visitation program. It is an expansion into Bronx County by an 
agency with existing supervised visitation program experience 
in other New York City locations. The services are provided in 
facilities located within the family court building and thus in 
a very secure environment. The program provides individualized 
counseling and parent education, as well as enforcement of 
visitation through supervised visitation in a communal 
environment that allows each family to have individual space. 
Two visit supervisors oversee up to four family visits per 
session. The program plan includes the addition of group 
custodial parent support sessions.
    The contractor expected to provide services to the benefit 
of approximately 150 children, however unexpected staff 
shortages and agency leadership changes resulted in a 
shortfall. Direct care provider staff and supervisory staff 
positions are expected to reach the necessary level in the next 
quarter of service assuring the expected service delivery.

               YWCA of Dutchess County, Poughkeepsie, NY

    This is a new program called ``The YWCA Supervised 
Visitation Program'' with service delivery located in the very 
secure environment of the Dutchess County Family Court. The 
program provides mediation, counseling, education, and court 
ordered visitation enforcement through supervised visitation, 
on an individual family basis.
    The contractors expected that services would be provided to 
the benefit of approximately 50-60 children and actually 
reached 53 children in the first contract period.
    All of the agencies listed above were required to capture 
various statistics to allow us to analyze the success of the 
programs. The following is a compilation of the statistics 
covering the twelve months of the first Access and Visitation 
contract and the six months of the second Access and Visitation 
contract. The statistics cover the time period of March 1, 1998 
through May 31, 1999: \1\
---------------------------------------------------------------------------
    \1\ It is important to note that these fifteen months of services 
to families were continuous; that is, there was no break in services to 
the families between the first and second contracts.
---------------------------------------------------------------------------
    Total number of referred families to enroll for services: 
1573
    Total number of children in enrolled families: 2605


------------------------------------------------------------------------

------------------------------------------------------------------------
Source of referrals of enrolled families:
  Family Court.............................          880           71.3%
  Law Guardian.............................          183           14.8%
  Supreme Court............................           20            1.6%
  Local DSS................................           19            1.5%
  Public human service agency..............            3             \1\
  Private human service agency.............            6             \1\
  Private counselor........................           49            3.9%
  Private attorney.........................           20            1.6%
  Court appointed attorney.................            7             \1\
  Self.....................................           34           2.75%
  Friend...................................            5             \1\
  Other: (Probation, Parole, D.V. Early                9             \1\
   Intervention, etc.).....................
\1\ less than 1%




------------------------------------------------------------------------

------------------------------------------------------------------------
Profiles of enrolled families:
  Divorced..............................          355             30.82%
  Separated.............................          352             30.56%
  Not-Married...........................          445             38.63%
  Partner abuse.........................          540             46.88%
  Child Abuse...........................          249             21.61%


    More than 70% reported some form of child support 
commitment in place. Overall rate of compliance with the child 
support commitment is 79%.


------------------------------------------------------------------------

------------------------------------------------------------------------
Enrollment for services by family unit:
  Counseling............................          468             19.58%
  Mediation.............................           50              2.09%
  Education.............................          614             25.69%
  Development of Parenting Plan.........          436             18.24%
  Supervised Visitation.................          795             33.26%
  Monitored exchange....................           26              1.09%
  Neutral drop/pick-up..................            1              0.04%
 AAA(Total will exceed family unit enrollment as families may receive
  more than one service.)



------------------------------------------------------------------------

------------------------------------------------------------------------
Known Supervised Visitation Outcomes by family:
  Court restores unsupervised visitation................    127 families
  Court suspends all visitation.........................     38 families
  Court continues S.V. at contract site.................    354 families
  Court continues S.V. at alternate site................     98 families
  Parents reconcile differences over visitation.........     28 families
  Family reunification..................................      7 families
                                                         ===============
                                                                     652

    All in all, New York State's experience with Access and 
Visitation programs has been positive. The program has enabled 
diverse community-based organizations to offer greater 
varieties of services to families, and those services appear to 
have benefitted the families. The long term benefits to 
families remains to be seen as we conduct a cost-benefit 
analysis and collect more data. We are cautiously optimistic 
that community-based Access and Visitation programs can play an 
integral part in the resolution of the problems resulting from 
the breakup of intact families.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very for your 
excellent testimony. I'm going to give my colleague, Ben 
Cardin, a chance to go first this time.
    Mr. Cardin. Thank you very much, Madam Chair, and let me 
thank all of our witnesses because I think it's extremely 
helpful to our work and appreciate you for being here and 
telling us the experiences in your particular States.
    If I might go back first to the paternity determination, 
particularly in-hospital determinations, and the numbers that 
you're giving us appear to be very impressive about the number 
of successful paternity identification for children born out of 
wedlock. Could you give us some historic--are these numbers 
better than they used to be? What's happening after the initial 
birth of the child? Are we still getting significant paternity 
determinations after that? How many children will never really 
have a paternity identification? And how does this deal with 
some of the historical numbers that we've had? Can anybody help 
me with some of these numbers?
    Ms. Saunders. Well, I can tell you that in Ohio in State 
fiscal year 1990, we established only 17,000 paternities. Here 
it is not even 10 years later and last year we established 
60,000 paternities. So it's quite exciting to us.
    Unfortunately, our program, since we're only in the second 
year of implementation we don't have the statistical data yet 
pulled together to see what happens afterward, though a lot of 
what you see for the child support agencies establishing are 
your older children and your backlog cases. That's why it's so 
important to have this voluntary process in the hospitals, so 
that they can get the work done as close to birth as possible 
or have it done at the register's office or even parents can 
mail it in. That way, the agencies can focus on the older 
children, the cases that show up 5 years from now and go, oh, 
by the way, I think I do want paternity established.
    With education and public service announcements that we're 
releasing--and I think New Jersey has done the same thing--
we're starting to get into their brains and they're starting to 
think about the importance of it. Eventually, what we hope to 
see the trend that parents are not waiting 5 or 10 years; 
they're going to establish paternity in that first year of 
birth.
    Ms. Griffin. Yes. I mean, I would agree with the statistics 
that Ohio has. We, as I said earlier, prior to 1994, we knew 
that only 46 percent of all out-of-wedlock births had paternity 
established, either in-hospital or posthospital. I think it's 
in the one chart that we provided in the written testimony, 
what you can see is the difference between what we're doing 
annually with out-of-wedlock births and then what we're doing 
in addition to that. We're establishing at an average rate of 
114 percent. So that we're doing that catch-up; we're able to 
go back and get the prior years and that percentage of 
population so that that's been very effective for us. And we 
think many more children are benefiting greatly.
    Mr. Cardin. I know the experiences in Maryland with the in-
hospital paternity identification, that, where we have 
established paternity for the child in the hospital, the 
compliance with paternal responsibility for child support is 
much higher. Are you finding that to be true when you get early 
paternity determination that it is more likely that the 
noncustodial parent will be involved in the family in paying 
child support and in being part of the family unit?
    Ms. Griffin. Yes, well, again, we said that when there's an 
application--because our program certainly covers the broader 
out-of-wedlock birth for nonmarried parents--smaller 
percentages of those come and apply for IV-D services at some 
point in time, either immediately or, in general, much later on 
because they're in some sort of relationship at the time of the 
child's birth, but that doesn't necessarily maintain over time. 
Our experience has been that we've seen--and, again, I talked 
about that earlier--was that our paternity establishment rate 
has led to an order establishment rate and a collection rate 
that has significantly gone up about 12 percent in the last 
2\1/2\ years.
    So, again, you have to look at that in the context that our 
public assistance rolls have dropped, but we have continued to 
increase not only our order establishment, but our paternity 
establishment and our collections in that category.
    Mr. Cardin. Could you just briefly tell us, how does the 
hospital cooperate with you in the in-hospital paternity 
determinations? The parents are in the hospital for such a 
short period of time today and getting shorter, how do you work 
with the hospitals themselves in order to bring the 
noncustodial parent into parental determinations for birth 
certifications?
    Ms. Saunders. Well, we have a--it's not so unique in Ohio; 
I think New Jersey and several States--we have public and 
private partnerships where we have a vendor who does our in-
hospital paternity work for us. They have gone out to, I 
believe it's 139 Ohio birthing hospitals and done on-site 
training. They have a contact person in every hospital. They 
provide a videotape where the new mother and father can see the 
tape and realize the importance of establishing paternity. They 
keep an ongoing connection with each hospital for us, providing 
them resource materials and pamphlets and actually on-site 
training.
    Then they can monitor what hospitals--what's their 
affidavit signature rate in hospitals. The vendor can begin to 
analyze what hospitals are not really coming through for them 
and go back out and give them hands-on technical assistance.
    Mr. Cardin. Does this start before the mother comes to the 
hospital to deliver?
    Ms. Saunders. It can, yes. I think New Jersey has probably 
better experience at that because they've been doing it a 
couple of years longer. But we go out to doctors' offices. We 
do teen programs in the high schools. They go out to WIC. They 
go all over the place getting the word out. It's really an 
information exchange to the communities.
    Ms. Griffin. And we do a lot of work with prenatal clinics 
and our prenatal physicians. Healthy Mothers, Healthy Babies 
Project. We've also done a lot of work with our Head Start 
agencies. So that we're getting out there early on talking 
about the benefits of establishing paternity, but also, then, 
talking about the process so that when somebody comes into the 
hospital, they've already heard about it once; it's not a new 
event for them.
    Mr. Cardin. Let me change gears and talk a little bit about 
the Access and Visitation Grant Program. A modest program, $10 
million nationwide, so appreciate your desire, Mr. Cady, to 
have that increased. I think many of us would support that if 
we can figure out a way to pay for some of those changes.
    I'm curious. It seems like in Illinois and seems like in 
New York, the money acted as seed money or impetus for getting 
more money and more interest involved in the area and I think 
that's exactly what Congress intended. I'm curious whether, as 
happened in your two States, is happening around the Nation. 
Your observations as to whether--I mean, it's just not enough 
money to set off a major program in any State of this country.
    The need is so great, I think all of us agree that a 
noncustodial parent is not just a means of support financially, 
but emotionally and part of a family unit could be more healthy 
for the child. It's also true that if a noncustodial parent is 
paying--is seeing the child, it's much more likely to be paying 
child support. So I'm curious as to how the Federal program has 
been used nationwide--or is what's happening in your States of 
what's happening around the country?
    Mr. Cady. I'm not sure, to be perfectly honest. But my 
sense of things, just talking to other Members, is that it's 
uneven. I think it has a lot to do with the coordinator within 
the State and how soon they get started and the sense of 
urgency. And the buy-in to the mission Statement that it is in 
the best interests of the child to have access. In some cases, 
the minimum amount I think was $55,000 and it's awfully 
difficult to get buy-in and to get support at that level.
    So I don't have any empirical data, but my sense of it is 
that there are probably half the States who are implementing it 
and there are some real success stories and I would suggest in 
the other half it's still a work-in-progress.
    Mr. Cardin. Have you quantified how much resources have 
been made available in your State as the result of the Federal 
grant? How much you've leveraged?
    Mr. Doar. Well, in the testimony I gave you, I gave the 
numbers of parents we had received. The program in New York 
State is entirely federally funded, except what comes from the 
community base. The State does not----
    Mr. Cardin. You said part of the application process was 
local----
    Mr. Doar. Required some local community involvement or 
their own privately raised funds. But the State does not add 
additional dollars to the program, outside of providing the----
    Mr. Cardin. Do you know how much local funds are being put 
in?
    Mr. Doar. I can't say. But I will tell you that the demand 
exceeds the supply.
    Judge Leuba. If I could add to that, Representative Cardin.
    Mr. Cardin. Sure.
    Judge Leuba. Looking in my written, filed testimony, the 
National Center for State Courts did a study of the various 
States to determine what their needs were and the primary, the 
single highest item that was reflected, was resources, so that 
the Federal Government here is filling what the administrators 
and the chief justices feel is a necessary adjunct to what's 
already being done to assist the family.
    Mr. Cardin. Thank you. And thank you----
    Mr. Cady. If I can just add one comment to that, in DuPage 
County, the funding is entirely Federal except that, that was 
one of our points, was to encourage community involvements with 
the idea that the continuation of the program would be taken 
over by either the county or the State or possibly even things 
like corporate gifts in the form of employee assistance 
programs. This is something that's helping communities and we 
think that with results that will encourage funding.
    Mr. Cardin. Thank you. Thank you, Madam Chairman.
    Chairman Johnson of Connecticut. Mr. Doar, I was looking at 
the profiles of your enrolled families and it was interesting 
that they were about a third divorced, a third separated, and a 
third nonmarried. But it was amazing that, in 46 or 47 percent 
of the cases, there was some partner abuse and in 21 percent 
some child abuse.
    Mr. Doar. Congressman, one of the things we discovered when 
we got into this was that when we issued the RFPs that the 
demand really from community-based organizations and courts, 
from organizations that had been in this business, was for 
supervised visitation. And one of the things that is clear 
about New York's experience was that when we went out to the 
community, we found that's what was most in need and came from 
organizations that were most ready to get going and keep going. 
So our program is, by the way it was funded and the 
applications we got, is heavily focused on supervised 
visitation. I don't know whether that's true across the 
country. But that's what we found people wanted most or was in 
most desperate need. I think that's what drives the numbers 
you're seeing there.
    Chairman Johnson of Connecticut. Judge Leuba, would you 
have any comment on that?
    Judge Leuba. Yes. My experience in Connecticut is that 
that's only one of the elements and in all the States that I've 
tried to review in my written testimony, which the National 
Center put together for the Subcommittee, suggests that the 
different States are using many different avenues to approach 
this important issue and that supervised visitation is only one 
of them. Counseling, mediation, parenting education are all 
elements that you'll see used with these grants around the 
different States. And I think that, in one State or another, 
you may find more of a need for one or the other partly because 
of what their funding already through the State system. So you 
may find a gap there and a difference among States.
    Chairman Johnson of Connecticut. The HHS report indicates 
that 73 percent of the participants in these access and 
visitation grants were either divorced or separated. Why are we 
getting such a low percent of participation by never-married 
parents and, what would you suggest about that? It's not 
surprising that the 73 percent would be divorced or separated 
since a lot of this has been implemented through the courts and 
that's the first group that they would probably come into 
contact with. I think that's a good point that you make. And 
even on the mediation services and so on. But it is distressing 
that, as in so many other areas, it's very hard to reach the 
never-married, noncustodial, nonsupporting parent.
    Mr. Doar. I would only add one thing about that. This is 
not the only programs we have. There are, as some of the 
previous testimony showed, there are some great interest in 
father programs for low-income dads for never-married families. 
So we do that also in New York, but we don't do it through the 
Access and Visitation Grant Program.
    Chairman Johnson of Connecticut. I see.
    Mr. Doar. We do that through other partnerships that are--
--
    Chairman Johnson of Connecticut. I see. OK.
    Mr. Doar. And there is a demand for that, but there's a 
different avenue.
    Chairman Johnson of Connecticut. Mr. Cady, in your 
testimony, you mentioned that 38 percent of all noncustodial 
parents don't have access to their children and 33 percent of 
the noncustodial parents' visitation agreements have been 
denied access on an ongoing basis.
    Mr. Cady. That's correct. That's of the divorced 
population.
    Chairman Johnson of Connecticut. Right. That's astounding.
    Mr. Cady. It is.
    Chairman Johnson of Connecticut. That 33 percent of the 
divorced population could have ongoing denial of compliance 
with the visitation agreement. I point it out because this is a 
big problem I see in meeting with fatherhood groups. I am just 
stunned with our inability to enforce agreements, but also the 
fact that a lot of these fathers don't have the money to go 
back to court. So, Judge, is there any effort being made or any 
developments out there that we should be aware of and should be 
encouraging that will help people enforce agreements without 
the cost and time and so on of going back to the courts, either 
adjusting court orders for support amounts with job changes or 
unexpected unemployment or visitation rights?
    Judge Leuba. I don't know of any that specifically address 
that issue that have come to my attention, but I certainly can 
have that looked at at the National Center for State Courts and 
at COSCA to determine whether information can be developed and, 
if so, it will be provided to the staff.
    Chairman Johnson of Connecticut. Yes. If you would do that, 
we'll put it in the record. It's also something we're very 
interested in, as we look at the fatherhood program. One of the 
comments you get from fathers, particularly fathers who either 
didn't finish high school or didn't go beyond high school and 
have an erratic employment history, is they don't know their 
rights. They only know their obligations. They don't even know 
how to adjust their obligations to their capacity to fulfill 
them. And every time they turn around, it costs money. So there 
is a kind of hopeless bind that we're putting fathers in, even 
fathers who are willing to be identified and want to 
participate.
    Judge Leuba. In Connecticut, there is an interesting 
movement headed in that general direction. It's a bipartisan 
program that was adopted in the last legislature creating a 
fatherhood council. And one of my staff members is on that 
council. The purpose of the program is to develop a workable 
solution to problems of bringing the fathers into the family 
and that council is required to report to the Connecticut 
legislature on January 1 of the year 2000. So if Y2K problems 
don't intercede, we should have more information about that in 
Connecticut from that source and I'd be glad to have that 
forwarded to the Subcommittee.
    Chairman Johnson of Connecticut. Well, if you would please 
give me the membership of that Council and contacts, I'd be 
interested to hear what they're hearing.
    [The following was subsequently received:]

    The membership of the CT Fatherhood Council is appointed by 
the Department of Social Services (DSS) Commissioner. The 
statute requires that the Fatherhood Council include, at least, 
the following members.

    * Commissioner of Labor (or designee)
    * Commissioner of Education (or designee)
    * Commissioner of Corrections (or designee)
    * Commissioner of Children and Families (or designee)
    * Director of the Office of Alternative Sanctions (or 
designee)
    * Regional Community-Technical Colleges Chancellor (or 
designee)
    * One expert each on legal assistance to low income 
populations, family relations, male psychology and health, 
domestic violence, and child development
    * One or more representatives each of the clergy and a 
local fatherhood program
    * One representative each of the Family ReEntry Program, a 
regional workforce development board, and the Connecticut 
Employment and Training Commissioners
    * One individual each representing the interests of 
custodial parents, noncustodial parents, and children

      

                                <F-dash>


    Chairman Johnson of Connecticut. But one last question, 
because the information you've provided us with as well as that 
from the preceding panel has been very helpful to us, but, on 
the other hand, we do compartmentalize these issues and 
problems. Now that we have paternity identification in place 
and your data here was really very impressive, that you're 
identifying 75 percent, on average, in-hospital. And I assume 
the rest of you are doing pretty well on in-hospital 
determination?
    Eventually, as we stabilize that, then the backlog of 
people without identified fathers will decline and, if you're 
doing 116 percent, 114 percent, then every year you're picking 
up some of the old cases and, eventually, the real issue is 
going to be that paternity identification program at the time 
of birth. How can we or to what extent are we or how could we 
foster integrating that paternity determination with financial 
counseling, pulling a person immediately into a program of 
financial counseling; budgeting; a good understanding that, if 
there is a change of job, what do you do; what's that system 
that I can rely on for advice and information about my 
obligations; pulling both parents, particularly important for 
unmarried parents into family skills, you know, parenting and 
life skills program?
    So that the first 6 months--in communities where they've 
done this with at-risk children for educational purposes and, 
preventing family abuse problems, it works fantastically. And 
the next step is for us to hook together identifying paternity 
with better preparing young people, men and women, for their 
economic support responsibilities and family support 
responsibilities. This would not be limited to those who are 
unmarried, but certainly that would be the most important 
group: to help them develop the relational skills that they're 
going to need both for their children and for the other parent.
    So if you can give us examples of programs where that's 
been integrated or if you can get back to us on suggestions and 
how we would write this fatherhood bill that we're interested 
in writing in a way that we do, to the extent we can, and 
particularly as a priority because there's never enough money 
for everything, do that.
    Judge Leuba. I have a suggestion in that regard that I 
would think that funding software programs that would permit 
the merging of the information may be helpful.
    Chairman Johnson of Connecticut. Good idea.
    Judge Leuba. If the grant was broadened to cover the 
tracking process and the integration of these systems. Because 
I think most systems are running independently, quite often on 
computers that don't speak to one another and sometimes even in 
different agencies. And having some kind of method to bring 
these all together, which could be patterned after what's being 
done in the criminal justice agency, called CJIS, where all the 
different programs are coordinated by having their computer 
programs integrated so that one computer can talk to the other 
computer and integrate these. It sounds like a----
    Chairman Johnson of Connecticut. Good. Well if you had a 
chance to sort of jot down some of the different systems that 
need to be integrated or need to be looked at if we require 
cooperation and collaboration, that would be very helpful to 
us.
    [The following was subsequently received:]

    In his October 4, 1999 letter to Representative Johnson, 
Judge Leuba identified the following agencies that potentially 
need to be involved in the creation of an Integrated Family 
Information System.

    * Judicial Branch
    -Superior Court Operations--Juvenile Matters
    -Superior Court Operations--Support Enforcement Division
    -Superior Court Operations--Child Protection Session
    -Superior Court Operations--Office of Victim Services
    -Superior Court Operations--Domestic Violence Session
    -Superior Court Operations--Regional Family Trial Session
    -CSSD--Intake, Assessment and Referral
    -Information Technology Division
    * Office of the Child Advocate
    * Office of the Attorney General
    * Department of Child and Families
    * Department of Corrections
    * Division of Criminal Justice
    * Department of Labor
    * Department of Mental Health and Addiction Services
    * Department of Mental Retardation
    * Department of Public Health
    * Department of Public Safety
    * County Sheriffs
    * Department of Social Services
    * Department of Information Technologies
      

                                <F-dash>


    Ms. Griffin. I came to child support after 27 years in 
child protection of child welfare, so I have a particular 
interest in that whole area that you just spoke to. That's why 
we have taken this year to really try and take our paternity 
establishment and link it with outreach and information to 
parents. I mean, we're going out across the State holding 
community meetings, working with parents around providing them 
with information on mediation, on supervised visitation 
programs, on fatherhood initiatives, working at--and trying to 
tailor that to their communities, the particular areas, because 
it's very different from Hudson County, New Jersey, to Cape 
May, New Jersey, and from East to West.
    So we've really tried to incorporate that. We're working 
very closely with our two fatherhood programs at the moment and 
are in the process of, hopefully, rolling out three more 
fatherhood programs across the State, one dedicated 
particularly to the correction and the juvenile justice inmate 
later this spring. So we've seen that as a real area in which 
we need to give people the information about what the child 
support system can do for them. What their rights are; what 
their responsibilities are; but also to provide them with 
comprehensive resources. It's not a one-size-fits-all kind of 
concept, so we want to make sure that if you need counseling 
services or you need mediation services or you need services 
through the courts, that you have a variety of places that you 
can go to do that.
    We've taken review and modification and partnered with the 
court to move that outside of the court so it's only going to 
the judge for review and final sign-off or if the individual 
really objects or they can't reach resolution. So we've, again, 
moved it to more of a mediation kind of concept so that review 
and modification is not so onerous, does not require the hiring 
of a separate attorney, except in very egregious circumstances.
    Chairman Johnson of Connecticut. And, in addition to sort 
of coordinating that information so people know what all the 
different possibilities are, do you have any program that does 
teach parenting skills, relational skills, budgeting, and 
financial rights and responsibilities, and is hooked into a 
paternity identification program?
    Ms. Griffin. Yes. Our Operation Fatherhood component in 
Trenton, New Jersey, was one of the original Parent's Fair 
Share Programs. And they've had a very successful track record. 
They're even improving their services greatly. But we've done a 
lot of work with both Work First New Jersey component, which is 
related to certainly TANF and moving people from welfare to 
work.
    But we've also employed in that guaranteeing a social 
relationship. They have a fatherhood center that they've 
established with local funding to really kind of bring all 
those pieces together using mentoring, working on financial 
planning, and really helping people dealing with license 
suspension issues, because you're dealing with, again, an 
inner-city population that doesn't have a lot of resources, but 
getting a job often requires a license. Many of our parties 
don't even have a license or have had that license suspended 
or, you know, removed for previous or for other problems. But 
it's a myriad of issues that a community agent has to deal with 
to help these individuals.
    Chairman Johnson of Connecticut. Good.
    Mr. Doar.
    Mr. Doar. Madam Chairman, I just wanted to add two points. 
One is that I think you're absolutely right that the first step 
has to be paternity acknowledgement or paternity establishment. 
That with benefits come, first, obligations or meeting 
responsibility and that has to be accomplished before we move 
folks into programs like that.
    And the second is the macro incentives. The more money, 
particularly once a mom leaves public assistance, that goes to 
her in child support, then you're sending the right message 
about financial responsibility. And that is still a subject I 
think that there is work to be done on.
    Chairman Johnson of Connecticut. I think that is a very 
important. You know, the big barrier to that is, as we force 
States to do that, then it reduces the amount they get to keep. 
So either we have to afford to replace that, which in today's 
circumstances is very difficult, but we do it over a longer 
period of time so they gradually just eat the loss.
    Mr. Doar. Well, in New York State, Governor Pataki did 
propose an increase in the passthrough from $50 to $100.
    Chairman Johnson of Connecticut. Good. Excellent.
    Mr. Doar. And he knew that we were going to face that, 
but----
    Chairman Johnson of Connecticut. We do have a couple of 
States that do 100 percent passthrough on their own. But we are 
conscious of it and we----
    Mr. Doar. But there are still those people who leave 
welfare who are still having a portion of their collections. 
And then, also, by changing that both with regard to the 
families, you also are simplifying for those of us in the child 
support business the distribution process.
    Chairman Johnson of Connecticut. No, I think your point is 
very well-taken and that, I think, has been brought back to us 
again. It's certainly a point that my friend Mr. Cardin has 
been working on very hard. Thank you very much for your 
testimony. We appreciate your thoughts. And if you have follow-
up ideas, please feel free to offer them.
    [Whereupon, at 2:05 p.m., the hearing was adjourned.]
    [Submissions for the record follow:].

Statement of John Smith, Research Analyst, Alliance for Non-Custodial 
Parents' Rights, Burbank, CA

                          FOCUS OF THE HEARING

    The Subcommittee will examine four major issues raised by 
implementation of the 1996 child support reforms.
    First, perhaps the most important reform in the 1996 
legislation was the creation of a directory of basic 
information on every person hired in the United States.
    Second, every State is now operating a hospital-based 
program aimed at establishing paternity for births outside 
marriage.
    Third, States are organizing programs that systematically 
search financial institutions for the assets of noncustodial 
parents who owe past-due child support.
    Finally, the welfare reform law created a new program to 
improve relations among separated, divorced, and never-married 
parents in order to facilitate access to, and visitation of, 
children by noncustodial parents.

                                OVERVIEW

    What clearly jumps out is that half of the four issues are 
a direct assault on privacy, personal freedoms and 
Constitutional rights. The paternity establishment issue could 
lead to an even greater governmental invasion of privacy if the 
government is allowed to maintain a paternity database.
    Since 1975, the federal government has been trying to make 
child support work. It hasn't. That's the only thing that both 
sides agree on. It is time to get government out of the 
business of attempting to micro-manage families, something 
which has been a complete failure in all government programs 
(the war on poverty, welfare and child support).

                        POINT-BY-POINT COMMENTS

New Hires Database

    The National Directory of New Hires (NDNH) database, aside 
from its Orwellian connotations, will most likely fail. First, 
when a noncustodial parent is hit with an excessive child 
support order, s/he will simply quit and get another job. 
Because support orders are so high, it makes it economically 
feasible for them to leave their job (for example, a 50% wage 
garnishment is not uncommon in arrearage cases, so by leaving 
and getting a job that pays the same, the person has 
effectively doubled their pay).
    As the economy becomes increasingly entrepreneurial, self-
employment will dominate. This is already happening and will 
render the NDNH database impotent for the non-TANF cases.
    As for the welfare (TANF) cases, most jobs will be at 
minimum wage or temporary, limiting the amount of money to be 
collected (and should someone working at minimum wage--
something liberals are already saying is not a living wage--
have to pay child support anyway?). In both cases, the 
incentive to work underground--escaping both child support 
payments and all taxes--now becomes an attractive option.

Paternity Establishments

    People are acting surprised that 70% of fathers eagerly and 
willingly establish paternity--so much for the ``disappearing 
dad'' myth. The reason why most fathers disappear, is that 
child support forces them into exile, due to its excessive 
awards and draconian punishments.
    At the same time that DNA tests can establish paternity, we 
need to use these same results to clear men who are proven not 
to be the fathers. Over 70% of paternity establishments in Los 
Angeles County are done so using default judgments (``Net to 
Snag Deadbeats Also Snares Innocent,'' Los Angeles Times, April 
12, 1998). Default judgments should not be allowed to establish 
paternity or child support. Personal service must be mandatory.
    In Los Angeles County, over 350 men are billed for child 
support even though paternity cannot be established (``In 9 of 
10 Child Support Cases, D.A. Comes Up Empty-Handed,'' Los 
Angeles Times, Oct. 11, 1998) and no one--the District Attorney 
or the mother--is prosecuted. Men falsely accused of being 
fathers must be allowed to sue government agencies and 
individuals and collect punitive damages.
    The problem is that child support agencies are awarded 
incentive funding based on quantity of cases, not quality of 
cases or child well-being. Until this changes, expect more 
shoddy work.

Systematically Search Financial Institutions

    As predicted by ANCPR, in their vain attempt to collect 
money (as if money will solve the problem), the government is 
taking increasingly drastic steps. Now, everyone--not just 
delinquent parents--is being affected by this 25-year-old 
policy failure.
    The Los Angeles Times reports that small and medium-sized 
banks that cannot afford to search for delinquent parents, have 
been turning over all of their customers' account information 
to the government so that the government can search for it 
(``Many Banks Giving State Extensive Customer Data,'' Los 
Angeles Times, July 16, 1999). When Congress attempted to 
introduce the ``Know Your Customer'' banking invasion of 
privacy bill, it was soundly defeated. Because the public is 
not educated on child support issues, there has not been a 
similar outcry. ANCPR's education and awareness efforts 
combined with the increasingly desperate measures taken by 
Congress should cause the dam to break, opening up the road to 
true child support reform.

Access and Visitation Programs

    For years, Congress and the courts have tried to ignore the 
obvious--child support payments and visitation are linked. 
Fruitless efforts have been made by CSE agencies and judges 
saying they are not legally linked, even though the amount of 
visitation directly and legally affects the amount of the child 
support award.
    How important is visitation enforcement to our government? 
DHHS boasts in a 1999 press release that they have allocated 
$10M to fund various pilot programs across the country for 
visitation and access. By comparison, Los Angeles County spends 
$125M per year in child support enforcement.
    Has the number of visitations increased? Has the amount of 
time spent during visitation increased? Have visitation 
violations decreased? If the answer to any of these is no, then 
more resources must be added to make this program effective. In 
fact, visitation enforcement should have the same amount of 
resources as the CSE programs have--including staff, budget and 
infrastructure. The FPLS database must be open and accessible 
to noncustodial parents, so that they may track down custodial 
parents who have moved away with their children and prosecute 
illegal move-aways, as exemplified by Geraldine Jensen, founder 
of ACES. CSE agencies should dedicate half of their staff to 
helping noncustodial parents locate their children.
    If shared parenting became the presumption in law, the 
concepts of custody, visitation and primary caretaker all 
become obsolete and visitation programs would become moot.

                               CONCLUSION

    Child support has been a 25-year policy failure and will 
continue to be so until true reforms are taken to eliminate 
greed (child support awards) and revenge (custody) from family 
law.
    Are our children better off today than they were 25 years 
ago? According to the child support experts, they should be, as 
we have been receiving record-high collections for the past 
several years. No accountability exists to prove that any of 
this money ever reaches the children. A Bureau of Labor 
Economics Journal study shows that only $1 out of every $5 can 
be expected to be spent on the child (``Child Support Feels 
Different on Male Side,'' Los Angeles Times, Feb 22, 1999).
    Why do we allow the assumption that collecting money is 
directly linked to child well-being? Especially when studies 
have shown just the opposite. If the goal is to raise better 
children, why aren't CSE agencies' funding based on child well-
being measurements?
    As Karen Winner points out in her book, Divorced From 
Justice, ``There is accumulating evidence that men are 
challenging their wives for custody of the children precisely 
because it is cheaper to keep them than to pay child support.'' 
(p. 52). It's time we removed money and revenge from family law 
and replaced them with personal responsibility and the work 
ethic. Both parents should be required to evenly split child-
rearing chores, in cases where a voluntary agreement cannot be 
reached. This would eliminate the need for child support and 
its associated bureaucracy.
    The government has never been able, is not able and will 
never be able to raise a family. The sooner our government 
exits this area of micro-managing raising families, the better 
off our country will be. ABC's John Stossel aired a special (9/
19/99) ``Is America No. 1?'' While this program looked at 
socioeconomic factors and not families per se, it showed that 
countries who got out of the way of individuals, had the best 
economies (e.g. Hong Kong) whereas countries that had the most 
government (e.g. India), had the worst economies and standard 
of living. We need to realize this same principle applies to 
families and act accordingly.
      

                                <F-dash>


Statement of David A. Roberts, President, American Coalition for 
Fathers and Children

    Honorable Chairman and Members of the Subcommittee:

                        I. Introductory Comments

    Although I am President of one of the largest and fastest 
growing fatherhood support organizations in American today, 
with a clear interest in the proceedings of this Subcommittee, 
I would first State that with such short notice of this hearing 
it has been impossible for our organization to complete the 
internal review process that we normally take before issuing 
any public comments on a matter such as this, and therefore the 
following comments are entirely my own. After discussion of 
several related issues, I will address the specific four major 
issues indicated in the hearing announcement, followed by a 
brief conclusion.
    Before anyone gets the wrong impression that the American 
Coalition for Fathers and Children (ACFC) represents only 
fathers and children, I should tell you that about half of our 
members are women, including second wives, grandmothers, 
sisters and friends of fathers. These women have seen from 
personal experience how unfair the current system is to 
millions of fathers, and how destructive it can be to their 
children, and are some of our most ardent advocates. This 
includes Dianna Thompson, who is Chairman of the Board of ACFC. 
I wish that Dianna could be here today because I believe that 
this Subcommittee desperately needs to hear from her. But 
Dianna runs our California office and it is impossible for her 
to be here on short notice.
    The half of ACFC supporters who are women understand from 
direct personal experience that ACFC stands unalterably for the 
principle that mothers, fathers and children equally deserve to 
be treated with the respect, honor, and dignity as a person 
that is the birthright of every person on this planet. 
Unfortunately this principle is poorly reflected in current 
federal and State family policy, and in particular in child 
support policy and practice. ACFC is not opposed to child 
support per se, but believes that the best assurance that child 
support will be paid in full and on time, is when child support 
is set at fair and reasonable levels, and access of children to 
both of their parents is assured.
    ACFC is not a ``gender advocacy'' organization, but an 
``equal rights'' organization. ACFC believes that children need 
both parents. ACFC equally supports the natural human right of 
non-custodial mothers to remain a part of her children's lives, 
as we do in the far more common circumstance of fathers in that 
situation. The name of our organization merely reflects the 
fact that it is overwhelmingly fathers who are most directly 
and most adversely affected by massive inadequacies in current 
federal and State family policies, including child support 
policies. Our name also reflects recent Gallup Polls indicating 
that some 86% of the American public believes that fatherhood 
is one of the most important social issues facing America 
today.
    But although many people see child support as a ``gender 
issue,'' from where I sit, I believe that it is poorly 
understood as a gender issue. In addition to the fact that 
about half of ACFC supporters are women, the Subcommittee 
should also consider that half of the children adversely 
affected by inadequacies in current child support theory and 
practice are also young girls, who are likely to grow up with 
quite a different perspective on this issue than many of those 
who pretend to ``speak for women'' today. The plain fact is 
that thirty years of what could be called ``mother-centered'' 
Federal and State family policies have served the interests of 
women and children extremely poorly.
    While the 1996 Welfare Reform Act was a step in the right 
direction, the fact remains that despite $6 trillion in 
combined Federal and State spending on mother-centered family 
policies in the last thirty years, the vast majority of the 
millions of sole-mother-custody families remain the poorest in 
the nation. Meanwhile, the crisis of fatherless children has 
reached epidemic proportions. Calls for intensification of 
mother-centered family policies, such as you will hear from 
administration and gender advocacy representatives today, are 
unlikely to serve women and children any better in the future, 
than such policies have in the past.
    If $6 trillion dollars made the situation of millions of 
mothers and children worse than it was, attempts to transfer 
the cost of a mother-centered family policy onto the backs of 
fathers are unlikely to help, even if non-custodial fathers had 
that kind of money, which they most certainly do not. Even if 
this Subcommittee cares not a wit about the millions of non-
custodial fathers whose lives have been devaStated by draconian 
child support collection efforts of recent years, I urge you to 
give the most sober reflection to the long-term implications 
just for mothers and children, of continuation of a mother-
centered family policy. Market economics alone suggest that 
intensification of subsidies for fatherless homes are likely to 
produce more of the same.
    ACFC believes that this is not a ``gender issue,'' but a 
civil rights issue. Many years ago in the Lincoln-Douglas 
Debates, Abraham Lincoln argued forcefully that it is 
impossible for any society to enslave part of its population, 
without to an extent enslaving the entire society. ACFC 
believes it is equally impossible to continue the massive 
unfairness of the current child support practice without 
ultimately having equal numbers of women as men treated 
unfairly. Lincoln lost the Senatorial election of 1858 to 
Douglas, but went on to win the Presidency in 1960, and as we 
all know, went on to end the practice of slavery in America. 
ACFC may also lose the debate here today, but as indicated 
below, we believe that the current child support system is in a 
State of near collapse, and have no doubt that the massive 
unfairness of this system must be reformed in some major ways, 
and the sooner the better.

                     II. Inadequate Representation

    The financial condition of the fatherhood movement in 
America today could best be described as ``barely having two 
nickels to rub together.'' Millions of non-custodial fathers 
have been economically devaStated to the point that ``two 
nickels'' is an optimistic assessment of their net worth, 
considering ``arrearages'' that they will never be able to pay. 
ACFC has never received a penny of taxpayer subsidies, and is 
not seeking any such subsidies. Meanwhile, gender advocacy 
organizations have been lobbying Congress for decades for 
Federal subsidies, and have received billions of dollars of 
Federal subsidies. Federal agencies that are essentially 
operating as gender advocates have had trillions of Federal 
dollars. This situation has resulted in an extreme imbalance in 
the ability of fatherhood organizations to be heard in the 
halls of Congress, even in a hearing such as this that so 
seriously affects the interests of fathers and their children. 
While I apologize for any shortcomings of this Report, I would 
urge Congress not to take it any less seriously than it would 
if we had legions of lobbyists prowling the halls of Congress. 
If the voice of fathers and children is not heard now, it could 
be a long time before you will hear from us again, because 
quite frankly, we just can't afford to get here very often.

                   III. The ACFC Child Support Survey

    Most of the thousands of members I represent are highly 
dissatisfied with current child support practice by both 
Federal and State agencies. ACFC recently conducted a survey, 
and although we have not yet had time to compile all of the 
results, I can tell you that from what I saw of the hundreds of 
survey forms as they came in, that when asked to rate the 
overall performance of child support agencies on a scale from 1 
to 5 as Excellent (1) to Very Poor (5), the overwhelming 
response was Poor (4) to Very Poor (5). While I would expect 
that such a survey conducted on a random basis from the actual 
client population served by child support agencies would be 
somewhat better than this, from discussions with hundreds of 
people all over the country, my impression is that it would not 
be that much better, whether the rating is from mothers or 
fathers. The amazing thing is that I have never heard of ANY 
child support agency conducting such a survey of their client 
population. Any private business that totally ignored its 
client base dissatisfaction for decades would have disappeared 
long ago, but somehow these folks keep churning out rosy 
reports of ``progress'' for Congress. ACFC would be pleased to 
provide this Subcommittee with the results of our survey as 
soon as we have it, if this Subcommittee would be willing to 
accept it, but I would also urge this Subcommittee to recommend 
that OCSE conduct similar surveys on a random basis of its 
actual client base nationwide, and report the results to 
Congress. I would suspect that the picture that you will get 
when you hear from the people affected by current child support 
policies, will be quite different from the picture you will get 
from bureaucrats and lobbyists.

                  IV. False Claims of Gender Advocates

    First, no doubt you are going to hear claims of an ``80% 
increase in child support collections'' in recent years. But if 
you look carefully at the latest figures from OCSE, you will 
find that low-income family IV-D collections have remained 
static or actually declined over the same period of time. The 
claimed ``80% increase'' is actually the result of bringing 
increasing numbers of non-IV-D fathers into the Federal 
reporting system. This is a false claim, because much of this 
non-IV-D child support was already being paid anyway through 
the ordinary operation of the courts, without any Federal 
assistance whatsoever. It's hard to get the truth out of OCSE 
and for this reason I would urge the Subcommittee to request a 
GAO audit of the claimed increase in collections to determine 
how much of this increase resulted from the massive amounts 
spent on the new collection apparatus, and how much would 
probably have been paid even if no Federal effort was involved.
    Second, no doubt you are going to hear wild claims of $40 
to $50 billion that ``could be collected'' through increased 
effort. The first thing that I would ask the Subcommittee to 
consider about such claims is to suppose that the claim is 
true--what overall impact would this have on the $600 billion 
Federal and State annual spending on a mother-centered family 
policy? Because that doesn't take very long to figure out, the 
next question is, is there any truth to such claims? Despite 
the fact that at great expense, the ``get tough on deadbeat 
dads'' campaign has systematically eliminated almost all due 
process protections for non-custodial parents, claims of 
increased collection are suspect (See above). According to OCSE 
itself, collections for low-income families that the 
Subcommittee ought to be most concerned with have remained 
static or actually declined. According to the GAO Report, HEHS-
99-105, June 30, 1999, 22 States now report that cost of 
collection of child support already exceeds the amounts of 
child support retained by the States to offset this cost, up 
from such 12 States in 1994. According to the pie chart in 
Figure 3, page 36, Preliminary Data Report for FY 1998, DCL-99-
55, June 4, 1999, Federal and State CSE programs already retain 
92% of child support collected in IV-D programs, to offset the 
cost of collection. Given that only 8% of child support 
collected by draconian efforts in the most critical IV-D cases 
now actually goes to children, it is hard to see how this could 
be significantly increased without rendering the entire program 
of no benefit to children at all. Given these stubborn facts, I 
urge the Subcommittee to request a GAO audit to determine how 
much increased collection might realistically be expected from 
any reasonable level of increased collection effort? Based on 
my experience, my guess would be that at this point, the net 
effect of increased spending on collection efforts would be 
negative--i.e. that it would cost more than the increased 
amount that might realistically be expected to be collected. 
But this Subcommittee ought to base its recommendations on 
facts developed in a businesslike manner by the GAO, not on 
guesses, and certainly not on the wild claims of gender 
advocates.
    Third, OCSE often makes the claim of a 1-4 ratio of cost of 
collection versus collection received (see page 39 of DCL-99-
55). I would urge the Subcommittee to take a long hard look at 
the basis of this claim. When you do, you will see that it is 
highly misleading at best. As indicated in the chart on page 39 
of DCL-99-55, the ratio is actually negative and continuing to 
decline in the most critical IV-D cases. The ratio in non-TANF 
cases has been increasing in recent years to offset this 
decline, but again this is deceptive because most of this 
increase is simply due to including already paying cases in 
OCSE reporting. Lumping these two types of cases together 
totally obscures the fact that for the most critical low-income 
families, more is spent on collection efforts than is received 
in benefits to children. Nor should it surprise any reasonable 
person that low-income mothers tend to have children by low-
income fathers. Because IV-D fathers generally don't have any 
more money that IV-D mothers, increased expenditures for 
collection efforts are unlikely to produce positive results. 
The irony is that low-income fathers need just as much 
assistance as low-income mothers in things like health care, 
housing, and job training, but under current policy, the mother 
gets a check, while the father faces garnishment of wages, 
seizure of bank accounts and tax refunds, lose of driver's 
license and other identity papers, and quite likely time in 
jail. The social costs of these punitive measures are not taken 
into account in OCSE claims of effectiveness.

                   V. Social Costs of Current Policy

    What is most deceptive about the OCSE claims of a 1-4 
``effectiveness'' ratio is that it includes only program 
administrative costs of about $3.9 billion annually, and 
totally fails to take into account the social costs of the 
father-punitive measures necessary to maintain current policy. 
Social costs are always difficult to estimate, but the 
following is a very reasonable estimate. Studies have shown 
that domestic discord is the leading cause of lost productivity 
in the business world. Roughly half of about 20,000,000 active 
non-custodial parent cases are settled fairly reasonably, but 
this leaves 10,000,000 difficult cases. If productivity loss is 
reasonably estimated at $10,000 annually per difficult case, 
this alone would be $100 billion annually in social costs. If 
half of these social costs are caused by the disruptive effects 
of current father-punitive policies, this suggests annual 
social costs in the range of $50 billion caused by current 
policy. Based on my experience, I believe this is a very 
reasonable figure from loss of productivity alone, but there 
are a number of other social costs to be taken into account. If 
any reasonable estimate of social costs is factored into the 
OCSE claims of effectiveness, it would indicate that instead of 
any net gain, current child support policy is an economic 
disaster for America. Common sense should tell you that money 
spent on punitive measures against low-income fathers might be 
far better spent on supportive policies, so they could actually 
be able to begin to pay child support. I would urge the 
Subcommittee to request that the GAO conduct a study to 
estimate the social costs of current punitive policies, in 
order to be able to develop a realistic estimate of the 
``effectiveness'' of current child support policy.

                         VI. Four Major Issues

    1. New Hires Directory--My first comment on this program is 
that it is an example of the dynamic that Lincoln observed with 
respect to slavery, that you cannot disparage the rights of 
part of the people, without disparaging the rights of all the 
people. In order to track down perhaps a few hundred thousand 
``deadbeat dads'' that might otherwise not be found, the 
government launched an unprecedented intrusion into the privacy 
rights of 100 million employed Americans. The social costs of 
this unfunded mandate on employers do not seem to be included 
in OCSE estimates of their ``effectiveness.'' The law of 
unintended consequences is also involved here. An all-to-common 
reaction of many employers faced with a garnishment order for a 
low-income worker who is also likely to be behind in child 
support, is to find an excuse to fire him. Unable to find 
legitimate employment, many such workers drift into an 
underground economy of barter and under-the-table employment, 
with consequent loss to the government of taxable income, 
another social cost not reflected in OCSE estimates of their 
effectiveness. To my knowledge, the overall cost-effectiveness 
of this program has never been properly evaluated. Quite aside 
from civil rights implications of unwarranted intrusion into 
what ought to be private relationships, I would recommend a GAO 
study of the cost-effectiveness of this program before drawing 
any conclusions about whether it should continue.
    2. Hospital Paternity Establishment--I can tell you from 
personal experience that the emotional bonds that develop 
between father and child when a father is present at the birth 
of the child are perhaps the most powerful force linking 
fathers to their children. I cannot imagine a father who would 
ever forget his child if he was present at their birth. But 
unfortunately, I believe that the law of unintended 
consequences will also comes into play in the hospital 
paternity establishment program for unmarried fathers. It is 
probably true that 70% of unmarried fathers who are present at 
the birth of their child, are currently willing to sign 
paternity acknowledgement. But I would expect that as more and 
more such fathers come to realize that the current mother-
centered policy offers such fathers essentially no due process 
protection for the right to a continuing relationship with 
their child, but only a potentially huge liability for child 
support, that the long-term application of this policy will be 
that large numbers of fathers will simply avoid being present 
at the birth of their children, with consequent weakening of 
father/child bonds that are the best assurance that child 
support will be paid. My general feeling is that I am simply 
ashamed of a government that would resort to insidious 
exploitation of emotional vulnerability at such a time, for the 
sole purpose of taking money from a father, when it has no 
intention of assuring his continuing relationship with his 
child. I believe that the government should either get serious 
about visitation and access, or terminate its involvement in 
this program as soon as possible.
    3. Financial Reporting Program--My thoughts on this program 
are similar to the New Hires Registry--once again it is an 
unprecedented intrusion into the privacy rights of all 
Americans for the purpose of obtaining payments from only a 
few. But in addition, because of the sensitive nature of 
banking relationships, which depend entirely on trust between a 
bank and its clients that money deposited in the bank will be 
secure, the law of unintended consequences could come into play 
with a vengeance. I would expect that if this program continues 
for any length of time, non-custodial parents will simply stop 
using banks in large numbers, and any short-term gains from 
this program will soon evaporate. I find it hard to believe 
that it will ever recover the cost to implement the program, 
let alone the unfunded mandate costs to financial institutions. 
But I would also expect that insofar as the very existence of 
this program tends to undermine confidence in the security of 
American banks, large numbers of people who have no immediate 
concern about child support, might begin to look overseas for 
greater security in their banking relationships. Again I would 
recommend a GAO study of cost effectiveness this program before 
reaching any conclusions as to whether it should be continued.
    4. Access and Visitation Grants--This is an area where I 
believe the government is on the right track, even if the $10 
million initial funding of this program is a pittance compared 
to the $3.9 billion budget for child support collection. 
Despite an often repeated legal opinion that visitation and 
child support should be separate issues, human nature being 
what it is, common sense tells any reasonable person that these 
issues are inextricably linked. The best guarantee that child 
support will be paid, is to assure not only that visitation is 
not obstructed, but that it is actually encouraged. As a 
national organization, ACFC has had no direct involvement in 
this program, which consists entirely of grants to local State 
organizations. But we have heard some disturbing reports from 
our State affiliates about mis-management of this program by 
allocation of funds to projects that have no direct connection 
to assuring visitation and access, while denying funding to 
worthy projects by fatherhood groups that are directly 
connected to the goals of the program. Rather than get into the 
details here of the complaints we have received, I would only 
say that I do not know of any fatherhood group likely to apply 
for such a grant that would not manage it in a responsible 
manner. Contrary to the rhetoric of gender advocates, the 
primary focus of the leaders of the local groups that I deal 
with would be counseling for newly divorced fathers, who may be 
in emotional shock from a divorce that they didn't expect or 
want, that nevertheless such fathers need to conduct themselves 
in a responsible manner in visitation if they want to have a 
continuing relationship with their children. Often having 
learned their lessons the hard way, these leaders know what 
they are talking about, and are likely to be even harder on 
newly divorced fathers than any government bureaucrat could 
ever be. I would urge continuing Congressional oversight of the 
Visitation and Access program to assure that its intended 
purpose is complied with.

                            VII. Conclusion

    My general assessment of Federal and State child support 
programs is that they are a shambles near a State of collapse, 
with a lot of patchwork solutions that probably do as much harm 
as good. But the good news is that there is no actual child 
support crisis in America. You don't see hordes of children on 
the streets dressed in rags and begging for scraps of food as 
in many countries. Any crisis that exists is mostly confined to 
the management of the child support bureaucracy itself. I urge 
Congress to continue its oversight by the GAO audits and 
studies indicated above, so that all mothers, fathers and 
children can be treated equally with the dignity, honor and 
respect that is their birthright, and public confidence in the 
child support bureaucracy can be restored.
      

                                <F-dash>


Statement of Geraldine Jensen, President, Association for Children for 
Enforcement of Support, Inc., Toledo, Ohio

    ACES members are clients of State Title IV-D child support 
enforcement agencies. ACES has 40,000 members, and 390 chapters 
located in 48 States. We are representative of the families 
whose 30 million children are owed $50 billion in unpaid child 
support. We have banded together to work for effective and fair 
child support enforcement. ACES has surveyed our membership to 
gather information from families as they make the transition 
from welfare to self-sufficiency. We have asked welfare 
recipients about the actions taken or not taken by child 
support enforcement agencies that have assisted them to become 
self sufficient. Collection of child support when joined with 
available earned income allows 88% of our membership to get off 
of public assistance. Collection of child support enables our 
low income working poor members to stay in the job force long 
enough to gain promotions and better pay. The collection of 
child support means our members can pay the rent and utilities, 
buy food, pay for health care, and provide for their children's 
educational opportunities. Lack of child support most often 
means poverty and welfare dependency.
    ACES has been monitoring State government child support 
agencies as they implement the child support provisions of the 
Personal Responsibility and Work Opportunities Act of 1996. Our 
general findings are:
    <bullet> States have large amounts of undistributed child 
support payments on hand.
    Thirty-four States responded to our request for information 
about undistributed/unidentified funds. They reported that they 
are holding, $68,712,546
    <bullet> States are encountering problems with payment 
distribution by New Central Payment Distribution Units
    <bullet> No increased collection rates are reported after 
receipt of data from National Directory of New Hires
    <bullet> Most States lack management and tracking systems 
for new hire reporting
    <bullet> Some State computer systems are nonexistent or 
ineffective
    In response to an ACES survey requesting information about 
undistributed and/or unidentified funds, thirty-four States 
reported that they have $68,712,546 on hand as of the end of 
December 1998. [See an attached chart for specific amounts and 
explanations.] Some of the reasons listed by States for the 
undistributed funds were unknown addresses of the custodial 
parent, computer distribution problems, interstate cases with 
unknown case number or non-matching case numbers in both 
States, uncashed checks, and internal accounting and processing 
issues. ACES monitoring of the New Central Payment Distribution 
Units led to the discovery of large amounts of undistributed 
funds. Sixteen States failed to respond to a Freedom of 
Information request about the amount of undistributed/
unidentified funds they have on hand. Since 1984, States have 
had access to the Federal Parent Locator System. Few have used 
this service to find the addresses of families for whom 
payments are being held. The majority of children entitled to 
child support payment being held are growing up in single 
parent households that are the poorest families in the nation. 
Between 1996-97, because of loss of public assistance, there is 
a 26% increase in poverty in the number of children growing up 
in single parent households.
    The National Directory of New Hires has sent more than one 
million matches to State child support agencies. Most States 
reported that they have no system in place to track the number 
of matches used to initiate income come withholdings, 
establishment of orders, establishment of paternity, 
administrative enforcement, or court enforcement. Nor could 
they identify the number of cases where payment resulted from 
use of data received from the National New Hire Directory. 
State directors told us during meeting with them to discuss the 
issues that the data received from the National New Hire 
Directory is difficult to use because it contains previously 
sent data with new matches.
    Preliminary statistical reports from the U.S. Department of 
Health and Human Services, Administration of Children and 
Families, Office of Child Support Enforcement show that the 
average State collection rate for 1998 is 23%. This is about 
the same rate as the 20% rate in 1995 which was pre-welfare 
reform. The National New Hire Directory identifies information 
about where parents who owe child support live and work so that 
the State can process an income withholding or establish a 
child support order. For example, Ohio reports they have 
received information about where 98,437 parents who owe child 
support live and/or work. This would enable Ohio to issue 
income withholding orders to collect child support or establish 
a support order if needed. Ohio does not have a functioning 
child support enforcement computer system to match the data 
with the federal registries and has no manual system in place 
to distribute the data to counties that are responsible for 
acting on the cases. Other States with the same problems who do 
not have certified automated child support tracking systems 
include Alaska, California, District of Columbia, Indiana, 
Kansas, Michigan, North Dakota, Nebraska, Nevada, Pennsylvania, 
South Carolina and the Virgin Islands. Thirty-five per cent of 
the child support caseload in the U.S. is in these States.
    Problems persist with State Automated Child Support 
Tracking Systems. In addition to the States listed above, 23 
States who are conditionally certified, have systems that are 
missing key capabilities, such as not being able to send 
payments out to families, not being able to distribute the 
correct amount of payments to families and pay off State 
welfare debts, not being able to process interstate cases, and 
not being able to communicate with existing welfare computer 
systems. Only Virginia, Washington, Wyoming, New Hampshire, 
Idaho, Colorado, Iowa, Maine, Kentucky, South Dakota, Arkansas, 
Massachusetts, Florida, Missouri and Hawaii have Statewide 
child support computers that are working. For example, 
California paid a private contractor more than $200 million for 
a system whose design was so flawed it was unable to perform 
even basic required functions. With all of these problems 
experienced within the States, how can we expect these systems 
to be successfully linked nationwide?
    Access/Visitation Projects fail to reach families most in 
need of help in solving visitation problems. States that have 
set up mediation/counseling programs to help families resolve 
visitation problems are often voluntary and therefore don't 
reach families with ongoing disputes. Voluntary projects have 
successfully helped families establish visitation orders and 
custody agreements at the time child support orders were 
entered. Programs such as the Fatherhood Initiative have had 
minimal impact. For example: the Los Angeles Fatherhood 
Initiative has only 39 fathers enrolled in the program. There 
are 650,000 open child support cases in Los Angeles. Manpower 
of New York reviewed the Fatherhood Initiative by establishing 
a control group of non-custodial parents to determine the 
effectiveness of the program. The review showed that 30% of the 
fathers participating in the Fatherhood Initiative Program and 
30% of the fathers not enrolled in the program paid child 
support. The program did successfully ``smoke'' out those who 
were really working because, after the court ordered them to 
attend job training, they began paying child support to avoid 
losing their jobs!
    In 1995, the U.S. Census study of children growing up in 
single parent households showed that 2.7 million children 
received full payments, 2 million received partial payments, 
and 2.2 million who had support orders received no payments. 
About 6.8 million children received no payments because they 
needed paternity or an order established. About 32% of the 
families who do not receive child support live in poverty. In 
single parent households, 28% of Caucasian children, 40% of 
Black children and 48% of Hispanic children are impoverished.
    There are now 30 million children owed $50 billion in 
unpaid child support according to the Federal Office of Child 
Support Enforcement's 1998 Preliminary Annual Report to 
Congress. If we are truly serious about strengthening families 
and promoting self-sufficiency rather than welfare dependency, 
by making parents responsible for supporting their children, it 
is time to get serious about setting up an effective national 
child support enforcement system. Taking care of the children 
one brings into the world is a basic personal responsibility 
and a true family value.
    Due to the 50% divorce rate and the fact that 25% of all 
births are to parents who were never-married, 60% of the 
children born in the 1990's will spend part of their lives in a 
single-parent household. In its impact on children, the child 
support system is now only second to the public school system. 
We need a national enforcement system where support payments 
are collected just like taxes, instead of a 50 State 
bureaucracy full of loopholes and red tape.
    A congressional bill, H.R. 1488, sponsored by 
Representative Henry Hyde (R) IL and Lynn Woolsey (D) CA, sets 
up a federal and State partnership to collect child support 
throughout the nation even when parents move across State 
lines. These interstate cases now make up almost 40% of the 
caseload and are the most difficult to enforce. State courts or 
government agencies through administrative hearings would 
establish orders within the divorce process or through 
establishment of paternity and would determine the amount to be 
paid based on parental income, modifying orders as needed. 
Enforcement would be done at the federal level by building on 
the current system where employers payroll-deduct child support 
payments. Instead of the State government agencies in each 
State having their own systems to do this, the new law would 
have payments paid just like federal income taxes. Withholding 
would be triggered by completion of a W-4 form, and a 
verification process. Self-employed parents would pay child 
support quarterly just like Social Security taxes. At year's 
end, if all child support due was not paid, the obligated 
parent would be required to pay it just like unpaid federal 
taxes, or collection would be initiated by the IRS.
    For low income and unemployed fathers, States could 
continue to operate fatherhood programs. Such programs offer 
fathers, many of whom are young, an opportunity to develop 
parenting skills and job skills that will allow them to 
financially support their children. About 40% of the children 
who live in fatherless households haven't seen their fathers in 
at least a year. Census Bureau data shows that fathers who have 
visitation and custody arrangements are three times as likely 
to meet their child support obligations as those who do not. If 
collection of child support were through the tax collection 
system, local Domestic Relations Courts would have more time 
and resources to focus on visitation and custody issues. The 
child support system was established in 1975 in the Social 
Security Act. When the children born in 1975 were age 9, 
Congress acted again by passing the 1984 child support 
amendments. They deemed it necessary because the collection 
rate for children with cases open at the State government 
agencies was only about 20% and 50% of the children still 
needed orders established. When the children were age 13 in 
1988, Congress acted again and passed the Family Support Act. 
This law promised collection of child support via payroll 
deduction right from the time the order was entered in the 
divorce or paternity decree. It required the States to place a 
lien on the property of those who failed to pay support, and 
set up mathematical guidelines to determine a fair amount of 
support to be paid. In 1996, with the children grown (age 21), 
only 20% of them received child support and 50% never did get 
an order established to collect support. Congress, acted again 
through the welfare reform laws. Unfortunately, this didn't 
solve the problem because the infrastructure for an effective 
State-based child support enforcement system does not exist.
    State child support caseloads grow yearly and the amount of 
support collected increases, but the percentage of families 
receiving support remains at about 25%. We have now lost a 
whole generation of children because of a ``broken system''--
one that is State-based, different everywhere, and one where 
judges review cases one at a time in a slow, antiquated process 
designed for the 19th Century, when divorce or having children 
outside of the marriage was unusual. For example, in the State 
of Ohio, there are about 600 judges and more than 700,000 child 
support cases in need of legal action to establish or enforce a 
child support order. Even if every judge, Traffic Court to 
Supreme Court, worked day and night on child support cases they 
could not handle this caseload.
    Further, privacy issues associated with passing sensitive 
social security and financial information between many agencies 
and a private contractor hired by government is worrisome. It 
is almost impossible to ensure confidentiality when States have 
county child support agencies and contracts with private 
collection companies. Literally, any child support worker in 
the county could gain access to sensitive financial information 
that is essential for successful child support enforcement. The 
IRS already has this information listing place of employment 
and income. They have a proven track record of maintaining 
confidentiality.
    The child support agencies and courts throughout the county 
are already overburdened, and backlogged. They will not be 
capable of handling the new tools provided to them by the child 
support provisions in Welfare Reform. Please enact HR 1488, 
make children as important as taxes!

Child Support Enforcement Survey Results

    ACES, Association for Children for Enforcement of Support, 
conducted a survey with all State Offices of Child Support 
about the use and effectiveness of the National Directory of 
New Hires. The information contained in this table is the 
response we received from the States for the following 
questions:
    How many matches did your States receive from the National 
Directory of New Hires?
Results from the New Hire Matches:
    <bullet> Of the matches made, how many matches resulted in 
support Order? Income withholding orders? Paternity orders? 
Court enforcement?
    <bullet> Other administrative enforcement?
    <bullet> Number of cases with payments received as result 
of the above actions?
    We also asked the States for the amount of undistributed/
unidentified child support payments as of December 1998 because 
they did not have a current address of the custodial parent.



----------------------------------------------------------------------------------------------------------------
                                                                                            Unidentified Child
                State                     Number of Matches      Results of the Matches  Payments as of 12/31/98
----------------------------------------------------------------------------------------------------------------

Alabama..............................  The computer does not    Computer does not
Alaska...............................  Not available..........  Not available..........  $3,967,484.21 as of 12/
                                                                                          98
Arizona..............................  Not available..........  Not available..........  $2,535,727
Arkansas.............................  First reports received   Data unavailable.......  $149,000
                                        3/99.
California...........................  California is currently  As California is a       ``Following the Public
                                        unable to submit data    State supervised,        Records Act request
                                        to the National          county run operation,    CDAA's Office of Child
                                        Directory of New Hires   we at the State level    support has no data on
                                        due to lack of           are unable to track      the dollar amount of
                                        automation..             how the county Family    undistributed child
                                       To compensate for this    Support Division uses    support payments. We
                                        inability, OCSE          the data..               are not required to
                                        conducted a one time                              report any such
                                        data match of new hire                            information to the
                                        records with the                                  Federal OCSE, and do
                                        69,811 Tax Refund                                 not collect this
                                        Offset requests sent                              information from the
                                        for the 1997 Tax Year..                           counties''
                                       New Hire Matches: 6,162
                                       Quarterly Wage: 19,301.
                                       Unemployment Insurance:
                                        2,710.
                                       Of the 422,735 cases
                                        processed through the
                                        Federal Parent Locator
                                        Service for 10/97-5/
                                        98, 102,999 delinquent
                                        California parents
                                        were matched to non-
                                        California employers.
Connecticut..........................  No response............  No response............  $385,302
District of Columbia.................  2,400 for 1998.........  Unknown................  $1,376,298
Delaware.............................  ``State computer does    6,000 wage withholding   $2,040,215
                                        not process matches      notices sent out since
                                        from federal registry,   1/29/99, impossible to
                                        being done manually.     tell which are from
                                        No records available     State new hire data
                                        of number of matches''.  and which from federal
                                                                 new hire data.
Florida..............................  No response............  No response............  ``Our undistributed
                                                                                          balance includes
                                                                                          receipts that are
                                                                                          awaiting normal
                                                                                          monthly processing as
                                                                                          well as those which
                                                                                          require additional
                                                                                          research.
                                                                                          Unfortunately, neither
                                                                                          the Florida Online
                                                                                          Recipient Integrated
                                                                                          Data Access(FLORIDA)
                                                                                          computer system or the
                                                                                          State Automated
                                                                                          Management Accounting
                                                                                          Subsystem (SAMAS) can
                                                                                          differentiate between
                                                                                          these two.
                                                                                          Consequently, we
                                                                                          cannot provide a
                                                                                          specific delineation
                                                                                          of those funds which
                                                                                          are being held pending
                                                                                          additional research.''
Georgia..............................  As of April 1999,        Not successfully         $966,403
                                        ``Georgia's system has   interfaced with
                                        not successfully         federal new hire
                                        interfaced with the      information..
                                        federal new hire
                                        information.''.
Iowa.................................  12,887.................  30% resulted in income   $712,330 in
                                                                 withholding, does not    undistributed
                                                                 track orders             collections of IV-D
                                                                 established,             families whose
                                                                 paternity, or other      addresses were not
                                                                 administrative or        verified. In a typical
                                                                 judicial enforcement.    month, the percentage
                                                                                          of payments processed
                                                                                          that are held until a
                                                                                          IV-D family's address
                                                                                          is verified is .06%
Indiana..............................  Not available at         Not available at         No response
                                        current time.            current time.
Kansas...............................  94,418 with State new    Unknown, don't track...  $528,931, ``this
                                        hire registry. We                                 includes money
                                        don't know how many                               eventually retained by
                                        matches were made at                              the State as well as
                                        the national level and                            money due to the
                                        sent to us through the                            family. We do not
                                        Federal Parent Locator                            track the reason the
                                        Service.                                          money could not be
                                                                                          distributed.''
Kentucky.............................  115,343................  System does not gather   $1,726,981
                                                                 this information.
Louisiana............................  We receive around        Information not          $60,825
                                        50,000 records each      available.
                                        month, of these we
                                        match about 7% or
                                        3,500.
Maryland.............................  10,958.................  Support Orders: 2,164..  $228,244
                                                                Income Withholdings:
                                                                 8,493.
                                                                Court Enforcement:
                                                                 7,473* (totals more
                                                                 than received).
Michigan.............................  ``We do not have this    ``We do not have this    As of 12/98,
                                        information available    information available    $21,974,063, This
                                        in Michigan''.           in Michigan''.           amount is in the
                                                                                          process of being
                                                                                          revised due to the
                                                                                          submission of
                                                                                          additional collection
                                                                                          reports by the offices
                                                                                          of the Friend of the
                                                                                          Court
Minnesota............................  Unknown................  Unknown................  $255,632 unknown
                                                                                          address of custodial
                                                                                          parents, 43,673
                                                                                          interstate cases,
                                                                                          unknown case numbers
Mississippi..........................  101,286................  ``8,544 matched our      No response
                                                                 records. We receive
                                                                 employer name and
                                                                 address for NCP, which
                                                                 is very helpful''.
Montana..............................  172,686 (State and       Does not have            $295,208
                                        federal new hire         information.
                                        matches).
Nebraska.............................  901....................  Does not have            No response
                                                                 information.
Nevada...............................  Statistical data is not  Statistical data is not  $121,835
                                        kept on matches.         kept on matches.
North Dakota.........................  31,968 reports           Not tracking results...  No response
                                        received; 1,410
                                        matches.
North Carolina.......................  142,967................  381 orders established,  $7,862,986 total
                                                                 order data not           consists of:
                                                                 available.               $3,857,585: futures;
                                                                                          $390,922: canceled
                                                                                          checks; $508,725: hold
                                                                                          transactions;
                                                                                          $583,794: hold
                                                                                          accounts; $2,490:
                                                                                          adjusted. not
                                                                                          approved; $125,251: no
                                                                                          mail address;
                                                                                          $962,692:
                                                                                          miscellaneous;
                                                                                          $16,672: unidentified
                                                                                          payor; $1,414851:
                                                                                          agency level
Ohio.................................  98,437.................  Not a federal            $10,897,870 IV-D funds
                                                                 requirement to track     and $677,141 non-IV-D
                                                                 this information.        Funds; $15,561,361 as
                                                                                          of 9/99
Oklahoma.............................  4,158 received.........  Not available..........  No response
Texas................................  1.34 million matches...  Unable to track          As of December 1998,
                                                                 results, in process of   $16,298,991, of this
                                                                 automating.              $3,179,002 is due to
                                                                                          unknown addresses of
                                                                                          custodial parents,
                                                                                          $6,361291
                                                                                          undistributed as of 3/
                                                                                          26/99
Tennessee............................  We sent our test load    Did not track results..  No response
                                        of 500 cases and
                                        received matches of 16.
Utah.................................  12,441.................  ``We do not have         $268,313
                                                                 computer capability to
                                                                 track''.
Vermont..............................  5,010..................  Still determining......  $1,434,499 as of 12/98;
                                                                                          this includes
                                                                                          contested tax
                                                                                          intercept money and 2
                                                                                          month delay on EOG's
Virginia.............................  57,000.................  Have not yet studied     $40,900 due to unknown
                                                                 the results.             address of custodial
                                                                                          parents
Washington...........................  23,722 total, 10/98:     Washington does not      $3,036,757
                                        9,049; 11/98: 8,796;     technologically link
                                        12/98: 5,877.            new hire data to child
                                                                 support or payments.
                                                                 Current electronic
                                                                 tracking methods are
                                                                 inaccurate and
                                                                 unreliable. Resources
                                                                 not available to do
                                                                 manual tracking.
Wisconsin............................  35,911 NCP* matches....  Income withholding       $3,168,757 accumulated
                                                                 25,000, approximately,   since 10/1/96 of which
                                                                 based on worker          $1,761,472 is held
                                                                 estimates of 75%.        because of unknown
                                                                                          custodial parent
                                                                                          address
----------------------------------------------------------------------------------------------------------------
* NCP--Non-Custodial Parents

      

                                <F-dash>


Statement of Stephen Baskerville, Washington, DC

Q: Is court-ordered child support doing more harm than good?; Yes: This 
     engine of the divorce industry is destroying families and the 
                             Constitution.

    Geoff came home one day to find a note on the kitchen table 
saying his wife had taken their two children to live with their 
grandparents. He quit his job as head of his department in a 
university and followed. He was summoned to court on eight-
hours' notice and, without a lawyer and without being permitted 
to speak, was stripped of custody rights and ordered to stay 
away from his wife and children most of the time. Because he 
had no job, no car and no place to live, his mother cancelled a 
pending sale of her house, and he moved in with her. Geoff and 
his mother now pay about $1,200 a month to his wife and her 
wealthy parents, and he is left to live and care for his two 
children on about $700 a month. A judge also threatened him 
with jail if he did not pay a lawyer he had not hired. When his 
temporary job ends, the payments must continue, and he is not 
permitted to care for the children while unemployed. He also 
expects to be coerced into paying more legal fees. He has never 
been charged with any wrongdoing, either criminal or civil.
    Geoff's experience increasingly is common. In fact, it is 
epidemic. Massive numbers of fathers who are accused of no 
wrongdoing now are separated from their children, plundered for 
everything they have, publicly vilified and incarcerated 
without trial.
    About 24 million American children live in homes where the 
father is not present, with devastating consequences for both 
the children and society. Crime, drug and alcohol abuse, 
truancy, teenage pregnancy, suicide and psychological disorders 
are a few of the tragic consequences. Conventional wisdom 
assumes that the fathers of these children have abandoned them. 
In this case the conventional wisdom is dangerously wrong. It 
is far more likely that an ``absent'' father is forced away 
rather than leaving voluntarily.
    In his new study, Divorced Dads: Shattering the Myths, 
Sanford Braver of Arizona State University has shown 
conclusively that the so-called ``deadbeat dad,'' one who 
deserts his children and evades child support, ``does not exist 
in significant numbers.'' Braver confirms that, contrary to 
popular belief, at least two-thirds of divorces are filed by 
mothers, who have virtual certainty of getting the children and 
a huge portion of the fathers' income, regardless of any fault 
on their part. The title of Ashton Applewhite's 1997 book says 
it succinctly: Cutting Loose: Why Women Who End Their Marriages 
Do So Well.
    Other studies have found even higher percentages of 
divorces filed by mothers, and lawyers report that, when 
children are involved, divorce is the initiative of the mother 
in virtually all instances. Moreover, few of these divorces 
involve grounds such as desertion, adultery or violence. The 
most frequent reasons given are ``growing apart'' or ``not 
feeling loved or appreciated.'' (Surveys consistently show that 
fathers are much more likely than mothers to believe parents 
should remain married.) Yet, as Braver reports, despite this 
involuntary loss of their children, 90 percent of these 
deserted fathers regularly pay court-ordered child support 
(unemployment being the main reason for nonpayment), often at 
exorbitant levels and many without any rights to see their 
children. Most make heroic efforts to stay in contact with the 
children from whom they are forcibly separated.
    The plight of unmarried inner-city fathers is harder to 
quantify, but there is no reason to assume they love their 
children any less. A recent study conducted in Washington with 
low-income fathers ages 16 to 25 found that 63 percent had only 
one child; 82 percent had children by only one mother; 50 
percent had been in a serious relationship with the mother at 
the time of pregnancy; only 3 percent knew the mother of their 
child only a little; 75 percent visited their child in the 
hospital; 70 percent saw their children at least once a week; 
50 percent took their child to the doctor; large percentages 
reported bathing, feeding, dressing and playing with their 
children; and 85 percent provided informal child support in the 
form of cash or purchased goods such as diapers, clothing and 
toys. University of Texas anthropologist Laura Lein and Rutgers 
University professor Kathryn Edin recently found that low-
income fathers often are far worse off than their government-
assisted families, ``but economically and emotionally marginal 
as many of these fathers are, they still represent a large 
proportion of low-income fathers who continue to make 
contributions to their children's households and to maintain at 
least some level of relationship with those children.''
    Yet the voices of these fathers rarely are heard in the 
public arena. Instead we hear the imprecations of a government 
conducting what may be the most massive witch-hunt in this 
country's history. Never before have we seen the spectacle of 
the highest officials in the land--including the president, the 
attorney general and other Cabinet secretaries, and leading 
members of Congress from both parties--using their offices as 
platforms from which publicly to vilify private citizens who 
have been convicted of nothing and who have no opportunity to 
reply.
    Under the guise of pursuing deadbeat dads, we now are 
seeing mass incarcerations without trial, without charge and 
without counsel, while the media and civil libertarians look 
the other way. We also have government officials freely 
entering the homes and raiding the bank accounts of citizens 
who are accused of nothing and simply helping themselves to 
whatever they want--including their children, their life 
savings and their private papers and effects, all with hardly a 
word of protest noted.
    And these are fathers who are accused of nothing. Those who 
face trumped-up accusations of child abuse also must prove 
their innocence before they can hope to see their children. Yet 
now it is well established that most child abuse takes place in 
the homes of single mothers. A recent study from the Department 
of Health and Human Services, or HHS, found that ``almost two-
thirds of child abusers were females.'' Given that male 
perpetrators are not necessarily fathers but much more likely 
to be boyfriends and stepfathers, fathers emerge as the least 
likely child abusers. A British study by Robert Whelan in 1993 
titled Broken Homes and Battered Children concluded that a 
child living with a single mother is up to 33 times more likely 
to be abused than a child living in an intact family. The 
argument of many men legally separated from their families is 
that the real abusers have thrown the father out of the family 
so they can abuse his children with impunity.
    In Virginia alone the State Division of Child Support 
Enforcement now is ``pursuing'' 428,000 parents for up to $1.6 
billion, according to its director, Nick Young. In a State of 
fewer than 7 million people, the parents of 552,000 children 
are being ``pursued.'' That is the parents of roughly half the 
State's minor dependent children. HHS claims that almost 20 
million fathers in the nation are being pursued for something 
close to $50 billion. We are being asked to believe that half 
the fathers in America have abandoned their children willfully.
    These figures essentially are meaningless. If they indicate 
anything it is the scale on which families are being taken over 
by a destructive and dangerous machine consisting of judges, 
lawyers, psychotherapists, social workers, bureaucrats and 
women's groups--all of whom have a direct financial interest in 
separating as many children from their fathers as possible, 
vilifying and plundering the fathers and turning them into 
criminals. The machine is so riddled with conflicts of interest 
that it is little less than a system of organized crime. Here 
is how it works: Judges are appointed and promoted by the 
lawyers and ``custody evaluators,'' into whose pockets they 
funnel fees; the judges also are influenced with payments of 
federal funds from child-support enforcement bureaucracies that 
depend on a constant supply of ejected fathers; child-support 
guidelines are written by the bureaucracies that enforce them 
and by private collection companies that have a financial stake 
in creating as many arrearages and ``deadbeat dads'' as 
possible. These guidelines are then enacted by legislators, 
some of whom divert the enforcement contracts to their own 
firms, sometimes even taking personal kickbacks (as charged in 
a recent federal indictment in Arkansas). Legislators who 
control judicial appointments also get contracts (and 
kickbacks, again the case in Arkansas) for providing legal 
services at government expense in the courts of their 
appointees. And, of course, custody decisions and child-support 
awards must be generous enough to entice more mothers to take 
the children and run, thus bringing a fresh supply of fathers 
into the system. In short, child support is the financial fuel 
of the divorce industry. It has very little to do with the 
needs of children and everything to do with the power and 
profit of large numbers of adults.
    For their part, politicians can register their concern for 
fatherless children relatively cheaply by endlessly (and 
futilely) stepping up ``child-support'' collection while 
creating programs ostensibly designed to ``reunite'' fathers 
with their children. Even some fatherhood advocates jump on the 
bandwagon, attacking ``absent'' fathers while holding their 
tongues about the judicial kidnapping of their children. Though 
almost everyone now acknowledges the importance of fathers, for 
too many there are more political and financial rewards in 
targeting them as scapegoats than in the more costly task of 
upholding the constitutional rights of fathers and their 
children not to be ripped apart.
    There is no evidence that endless ``crackdowns'' on evicted 
fathers serve any purpose other than enriching those in the 
cracking-down business. With child-support enforcement now a $3 
billion national industry, the pursuit of the elusive deadbeat 
yields substantial profits, mostly at public expense. ``In 
Florida last year,'' writes Kathleen Parker in the Orlando 
Sentinel, ``taxpayers paid $4.5 million for the State to 
collect $162,000 from fathers''; and the story is the same 
elsewhere.
    Instead of the easy fiction that massive numbers of fathers 
are suddenly and inexplicably abandoning their children, 
perhaps what we should believe instead is that a lucrative 
racket now is cynically using our children as weapons and tools 
to enrich lawyers and provide employment for judges and 
bureaucrats. Rather than pursuing ever greater numbers of 
fathers with ever more Draconian punishments, the Justice 
Department should be investigating the kind of crimes it was 
created to pursue--such as kidnapping, extortion and 
racketeering--in the nation's family courts.
    Baskerville teaches political science at Howard University, 
serves as spokesman for Men, Fathers and Children International 
and writes about the family-court system.
      

                                <F-dash>


Statement of Richard Bennett, President, Coalition of Parent Support, 
Livermore, CA

                            General Remarks

    The Coalition of Parent Support is a California advocacy 
group representing divorced fathers and non-custodial mothers. 
Many of our members are remarried, and many of our families 
include both obligors and obligees of child support. We've been 
involved in the efforts recently undertaken in California to 
restructure the Title IV-D welfare reimbursement and child 
support and system, as invited speakers and members at several 
legislative committee hearings, commissions, and oversight 
boards. Some of the recommendations we've presented on child 
support reform have been adopted, and some have stimulated new 
dialog on aspects of the system that haven't received adequate 
attention in the past. It is in the spirit of promoting a 
deeper and broader discussion on child support that we offer 
these remarks to Congresswoman Johnson's Subcommittee today.
    Child support collections get a lot of attention, not so 
much because anyone really believes that child support is going 
to alleviate all the problems faced by the children of divorce 
or the increasing numbers of children born out-of-wedlock. 
Research tells us that full compliance with child support 
orders would make a small dent in the problem of child 
poverty,\1\ and that it would alleviate few, if any, of the 
emotional problems faced by these children.\2\
---------------------------------------------------------------------------
    \1\ ``While full payment of child support would have increased 
total money income of custodial parents owed support, the percentage of 
parents due child support whose family incomes fell below the poverty 
level would not have changed significantly. Approximately 24 percent of 
custodial parents due child support were in poverty in 1991, a figure 
not significantly different from that derived had all payments been 
made (21 percent) due them in 1991.'' (U.S. Bureau of the Census, 
Current Population Reports, Series P60-187, Child Support for Custodial 
Mothers and Fathers: 1991, U.S. Government Printing Office, Washington, 
DC, 1995, Page 9)
    \2\ ``Does family structure matter more than income? The answer is 
also ambiguous. The twelve studies show that although family structure 
is related to poverty, the two are not proxies for one another. In most 
instances, coming from a non-intact family reduces a child's chances of 
success, even after low income is taken into account. In some 
instances, the net effect of family structure is larger than the net 
effect of poverty; on others, it is smaller.
    ``Based on these studies, I suspect that family structure is more 
important than poverty in determining behavioral and psychological 
problems, whereas poverty is more important than family structure in 
determining educational attainment. (Sara McLanahan, Parent absence or 
poverty: Which matters more? in Duncan and Brooks-Gunn, The 
Consequences of Growing Up Poor, Russell Sage Foundation, 1997, p. 47-
48.)
---------------------------------------------------------------------------
    But child support gets all the attention because it's so 
easy to measure. It's either paid, or it's not; when it's not 
paid, there's a deadbeat somewhere who needs to be punished.
    Wouldn't it be nice if the more pervasive problems caused 
by father-and mother-absence, such as teen pregnancy, child 
abuse, lower educational achievement and professional 
expectation, could be put into neat, numerical categories? 
Perhaps then these problems would get the attention they 
deserve as well.
    It's important, then, when reviewing the child support 
enforcement system to keep the issues in perspective and 
refrain from making this one system so efficient that it 
compromises children's prospects by driving fathers out of the 
family system altogether.\3\
---------------------------------------------------------------------------
    \3\ ``Poor fathers should be expected to pay child support; but 
their child support orders should be set at levels commensurate with 
their ability to pay. The [PRWORA] adds a layer of unfairness to the 
child-support system, which is already unfair to this population.
    ``Fathers who perceive gross inequities in the child support system 
will turn their backs on it and choose not to comply, taking with them 
potential sources of increased child support.'' (Elaine Sorensen, A 
Little Help for Some ``Deadbeat'' Dads, Washington Post, Nov. 15, 1995)
---------------------------------------------------------------------------

                  General Issues with the IV-D Program

    Since its inception in 1975, the Title IV-D program has 
suffered from conflicting goals. It is supposed to serve the 
taxpayers by reimbursing us for welfare expenditures, and its 
supposed to benefit children by transferring money into the 
home where they spend most of their time. Welfare reimbursement 
hasn't proven to be an effective method of getting and keeping 
people off public assistance. How can we expect that sending a 
bill to one parent for what amounts to a tax increase is going 
to change the behavior of the other parent, the one who gets 
the welfare checks? This policy didn't work; parents cooperate 
with each other to evade the system, as the San Jose Mercury 
News reported in a story on welfare dads in 1997--but obligors 
run up huge debts to the government in the process. (Joe 
Rodriquez, The Father Factor, San Jose Mercury News, July 27, 
1997, p. 1F.)
    But the PRWORA is working, and people are now leaving the 
welfare roles. They will leave faster if you allow them to 
collect the child support that they're entitled to collect. We 
therefore support legislation that would pass child support 
through to child support obligees, regardless of their status 
with the welfare system.

Recommendation 1: Suspend welfare reimbursement and make Title 
IV-D exclusively a child support program.

                  Failures of Congressional Oversight

    The child support system suffers from a lack of realistic 
expectations. States set guidelines well above the ability of 
the typical moderate-to-low-income father, and well above the 
needs of the children of high-income fathers. By way of 
reference, consider the child support guidelines of the two 
most unrealistic States, California and Indiana.

    Table 1: Child support guidelines by income levels in two States.
------------------------------------------------------------------------
     Income level         $510      $670     $1,279    $2,183    $4,583
------------------------------------------------------------------------
Indiana;                     42%       49%       54%       41%       32%
California                   46%       41%       37%       35%       32%
------------------------------------------------------------------------
Source: interstate Comparisons of Child Support Orders Using State
  Guidelines, Maureen A. Pirog, Marilyn E. Klotz, and Katharine V.
  Byers, Family Relations,July 1998, Vol. 47 Issue 3, page 289. Gross
  income levels in study converted to nets, before child support.

    A California father at the lowest rungs of the economic 
ladder is expected to pay forty percent of his income in child 
support, including the mandatory add-ons for health insurance 
and day care. An Indiana father has to pay as much as 54% of 
his meager income for child support if he's unlucky enough to 
earn only $1,279 a month after taxes.
    It's no coincidence that Indiana and California lead the 
nation in levels of uncollected support: Indiana collects an 
annual amount of child support equal to about 9% of arrears and 
current amounts, where California collects only 10% of 
historical arrears and current amounts.
    This isn't an enforcement problem that's going to magically 
disappear as soon as these States adopt centralized collection 
systems instead of county-based systems. Fathers and mothers 
have a hard time keeping a roof over their heads and a car on 
the road when they are required by the State to cough up 60% 
and more of their monthly gross for income taxes and child 
support: it's not going to happen.
    We certainly don't mean that parents shouldn't support 
their children or that States shouldn't have guidelines. The 
guidelines simply need to be fair and realistic, and the States 
should constantly examine them to ensure they're correct.
    The IV-D legislation requires States to conduct a periodic 
review of their guidelines, but this isn't happening either. 
California gave the job of conducting the review to the 
Judicial Council, the administrative and research arm of the 
courts. But when the time came for the Judicial Council to 
conduct their reviews, the Legislature refused to appropriate 
any money for a study. Consequently, the Judicial Council 
undertook a minimal study, performed by people who were already 
assigned other responsibilities, and failed to conduct any 
economic analysis at all.
    If there were a mechanism for the Congress or the DHHS to 
conduct an audit of the States' reviews of their guidelines, 
California would be out of compliance and theoretically subject 
to losing its PRWORA block grant. But there isn't, so we have 
large numbers of fathers fleeing the enforcement system, 
grandstanding politicians vowing to catch them, and children 
growing up without any of the love and support they should be 
getting from their fathers.

Recommendation 2: Make States conduct a thorough economic 
review of their child support guidelines, as existing law 
already requires.

    Congress has also been lax in the enforcement of data 
collection rules against the States. Not only do we need to 
know how well the IV-D system is doing, we need to know how 
well the private system of child support collection is doing, 
and we need to know how well our children are doing. Much of 
the apparent increase in IV-D collections over the last few 
years is simply migration of paying cases from the private 
system into the taxpayer-funded system, as the word gets out 
that free attorneys are available from the State.

Recommendation 3: Child support data reported by States to the 
federal government should include IV-D and non-IV-D cases.

    The ethic that guides this system says the goal is ``to 
collect as much money as possible.'' Even the Internal Revenue 
System is not this brazenly mercenary, stating its goal as ``to 
collect the correct amount of tax from each citizen.'' Child 
support reform needs to begin with a change in this basic sense 
of mission. This system does not exist for the purpose of 
squeezing fathers and non-custodial mothers to the point of 
poverty and bankruptcy. It exists to help children enjoy 
reasonably similar standards of living in the two homes they 
have when their parents are separated. If it radically under-
equalizes or if it over-equalizes, it fails, and children lose.

Recommendation 4: Revise incentives to encourage States to 
adopt realistic guidelines and apply them correctly.

    ``A higher percentage of noncustodial fathers with joint 
custody paid child support due (85 percent) than did fathers 
who had visitation privileges only (79 percent), or those who 
had neither joint custody nor visitation privileges (56 
percent).'' (U.S. Bureau of the Census, Current Population 
Reports, Series P60-187, Child Support for Custodial Mothers 
and Fathers: 1991, U.S. Government Printing Office, Washington, 
DC, 1995, page 6.)

[GRAPHIC] [TIFF OMITTED] T4324.013


Recommendation 5: Expand federal funding for access and 
visitation programs.

    The obligor pays income tax on child support, while taxes 
on spousal support are paid by the obligee. Since obligees are 
typically in a lower tax bracket than obligors, the total tax 
burden on the two households created by a divorce or separation 
is lower when spousal support is used for transferring income 
between households.
    Maccoby and Mnookin \4\ report than the practice in 
California courts prior to our major upward revision of the 
child support guideline in 1991 and 1992 was to use spousal 
support as the primary transfer vehicle: the average child 
support award was $300 per month, while the average spousal 
support award was $540 (p. 129.) An award of $840 in child 
support costs the typical obligor $150 more in taxes than an 
award of $300 in child support and $540 in spousal support, 
while the benefit to the recipient is essentially the same. Yet 
the law requires that child support be transferred before 
spousal support.
---------------------------------------------------------------------------
    \4\ Dividing the Child, Eleanor E. Maccoby and Robert H. Mnookin, 
Harvard University Press, 1994.
---------------------------------------------------------------------------
    Revising the federal tax code to allow States to make child 
support deductible to the payor allows more money to remain in 
both the child's two households.

Recommendation 6: Revise the IRS code to allow States to make 
child support payments deductible to the payor.

    Our IV-D administrators have little or no control over the 
information systems they use in the day-to-day operation of 
their programs. The State has little or no control over Federal 
requirements for these systems. The ten largest States have all 
experienced major problems in implementing systems conforming 
to unrealistic Federal expectations.
    While magic wand solutions rarely translate into technical 
excellence, the States may well benefit by convening a task 
force of child support stakeholders to design a next-generation 
child support and court information system.
    The system should allow customers to look up the status of 
their child support accounts over the Internet, and to schedule 
meetings to review agency actions and to notify the State 
oversight agency of such actions. Corrections to accounts 
should automatically propagate to licensing and credit 
agencies, and changes to orders should automatically propagate 
to the courts.
    Obligors who don't own computers would be able to access 
their accounts at any public library or information kiosk with 
Internet access, provided they have a PIN for security. Thus, 
routine matters could be attended to without direct human 
intervention, and agency personnel would be free to concentrate 
on more pressing concerns.
    Information systems design goals dictated by the Federal 
government emphasize ``tracking down deadbeats'' and other 
outcomes which are generally outside the ability of information 
systems to provide, while ignoring meaningful, practical 
applications of existing computer technology. This needs to be 
corrected.

Recommendation 7: Establish meaningful and technically 
achievable goals for child support information systems, and 
leave the technical architecture to the States.

                               Conclusion

    Title IV-D child support programs are complicated and 
deeply troubled, nationwide. The program has evolved first in 
one direction and then in another since it was originally 
created by Congress in 1975. The program serves a variety of 
masters, none well. It lacks clear lines of accountability and 
rarely imposes sanctions for poor administration.
    Its fundamental weaknesses stem from the dubious nature of 
the child support laws it must enforce, but it is poorly 
administered as well. A restructuring toward equity and 
accountability will solve many of its problems, but a great 
deal of work remains on the underlying body of law it is 
required to enforce.
    While we congratulate the Subcommittee for taking on this 
task, we urge you to consider that the proper administration of 
an unjust law is a fundamentally different proposition than 
enforcement of a just law.
    Programmatic changes that fail to face the unjust and 
unequal nature of the financial provisions of the child support 
statutes are little more than Band-Aids on a gushing wound.
      

                                <F-dash>


Statement David Allen Shelton, Director of Legislative and Judicial 
Relations, Fathers for Equal Rights, Dallas, TX

    We were told that the grants were going to help the denial 
of visitation problem. But is the grant money going to help 
noncustodial parents and their children?

                             NO, IT IS NOT!

    Most noncustodial parents were pleased three years ago when 
they discovered that the Federal Government was going to spend 
$10,000,000 for the establishment and enforcement of court 
ordered possession and access. We thought someone in Washington 
was finally doing something about a problem that has gone 
unnoticed since the first divorce or the first child was born 
to an unwed mother.
    I have been both a noncustodial parent and a custodial 
parent. I have been on both sides of the custody issue, and 
neither side is very pretty if you consider the effect that 
divorce has on children. But, when you are the noncustodial 
parent, and there is no one out there who will establish 
visitation for you or help enforce your visitation with the 
same gusto that any one of several agencies will enforce child 
support when you get behind, your child suffers and you suffer.
    We were told that the grants were going to help the denial 
of visitation problem, but is the grant money going to help 
noncustodial parents and their children? NO, IT IS NOT! In the 
last two years, Texas has handed out over $1,500,000 to 
nonprofit agencies. Over $1,480,000 of that money has been 
wasted on agencies who so absolutely nothing to establish or 
enforce visitation. Only one agency, Fathers for Equal Rights 
in Dallas, used the $20,000 it received in FFY 1998 grant 
program to set up a program to establish and enforce court 
ordered visitation. The State chose not to renew that grant 
this year. The rest of the money went to women's centers, the 
YWCA, Domestic Relation Offices, child exchange agencies, and 
Victim Assistance Centers. An example: Legal Services of North 
Texas has Received $85,000 in the last two years. Many of the 
attorneys that set on the Board of Directors at Legal Services 
Of North Texas, also set on the Board of Directors of ACES, the 
battered women' shelters, and other agencies that cater only to 
mothers. These same board members even offer free legal 
services to custodial mothers, while refusing to assist 
noncustodial fathers with visitation enforcement. They should 
not have received any funding at all.
    The block grant for Access and Visitation was a great idea. 
However, in Texas, and most of the other States, the money is 
not being used to provide the noncustodial parent with the 
services that they really need, services that will insure that 
they can see their children. The money is going to agencies 
that support custodial parents and most of the time just 
mothers. Some of the agencies put the word kids or families in 
front of their names to make them look like something they are 
not. The programs are at best very gender biased.
    I truly believe that the Federal Government should 
discontinue this program unless the money is going to be used 
to establish and enforce visitation. Noncustodial parents need 
to have court approved time with their children and their court 
ordered periods of possession of and access to their children 
enforced. Noncustodial parents don't need the Federal 
Government building more neutral drop off sites and supervised 
visitation locations. These programs end up costing the 
noncustodial parent financially, because the courts always 
require that the noncustodial parent pay for the services.
    Providing parental education, counseling, monitored 
visitation and neutral drop off services can be a useful tool 
to encourage the custodial parent to build a better 
relationship between the father and child. However, these 
programs serve no purpose if the person does not have a court 
order allowing visitation or if that visitation is not 
enforced. Dick Woods of Fathers for Equal Rights of Iowa was 
very successful with a program that was funded by a one-year 
Federal demonstration grant in the early 90's. The Iowa program 
was a mixture of mediation, counseling and court enforcement. 
That program should be the model that is used for all States.
    Statistics show that over 400,000 children in Texas each 
year are being denied their right to have access to both 
parents because of interference by the custodial parent. If we 
consider that 77% of those mothers have interfered with 
visitation, one must conclude that the real need for 
noncustodial parents is to have their court ordered possession 
and access enforced.
    Congress should require that organizations that receive the 
grants use the money to establish legal relationships between 
parent and child and enforce that relationship when the 
custodial parent denies the court approved parenting time.

Either make the States use the money to enforce a parent's relationship 
   with his or child or discontinue the Access and Visitation Grant 
                                Program.

      

                                <F-dash>


Statement of Tracie Snitker, Director, Government Relations, Men's 
Health Network

    We welcome the opportunity to submit testimony on these 
important family issues. Our testimony is brief and examines 
three problem areas:
    <bullet> Fatherhood initiative programs developed by 
Congress and the Administration.
    <bullet> Access and visitation grants created by the 1996 
Welfare Reform Bill.
    <bullet> Outdated child support laws which create problems 
instead of solving them.
    A child's need for two loving and involved parents is now 
accepted fact. Researchers are discovering what fatherhood 
counselors have known all along, that fathers care for their 
children deeply and wish to have a loving relationship with 
them. Researchers are finding that this is as true for unwed 
fathers as it is for married fathers. This Committee heard from 
Sara McLanahan earlier this year, who Stated:

        ``. . .I want to say that the vast majority of unwed fathers 
        are strongly attached to their families, at least at birth. 
        These men want to help raise their child, and the mothers want 
        their help.''
          (Sara S. McLanahan, Professor of Sociology and Public Affairs 
        Princeton University, Center for Research on Child Wellbeing, 
        Princeton, New Jersey, April 27, 1999)

    We share our concerns that fatherhood initiatives may prove 
unproductive unless certain basic protections are undertaken 
and child support laws are upgraded to meet the needs of the 
target population.

     Fatherhood Initiative Programs Developed by Congress and the 
                            Administration.

        Welfare to Work
        Visitation Access grants
        Fatherhood Counts bills
    Just as Congress decided that the financial child support program 
was floundering and needed direction, it also needs to provide 
direction for the growing number of father involvement initiatives. 
Funding programs that claim to promote father involvement does not 
guarantee that the Stated goal is being accomplished. Providing 
guidance for these programs will insure that maximum benefit is being 
derived from the scare funds available for these initiatives. Guidance 
will also insure that the maximum number of children are able to 
maintain a relationship with a caring parent.
    The solution is rather simple and not intrusive on the right of the 
State to develop diverse programs to meet each State's needs:
    <bullet> States should be required to submit a ``State Plan'' 
explaining how the programs will be implemented. Among the items in the 
State plan should be a requirement that parenting plans be developed 
and enforced for parents entering the programs. The parenting plan must 
provide for both financial and emotional support of the children.

 Access and Visitation Grants Created by the 1996 Welfare Reform Bill.

    There appears to be a growing anxiety that some of the 
programs being funded do not actually establish or enforce 
parenting time between unwed, divorced, or separated parents.
    Again, the solution is simple:
    <bullet> Authorizing language should make it clear that the 
grants should be directed to programs that can demonstrate an 
ability to establish and maintain parenting time between 
noncustodial parents and their children.

 Outdated Child Support Laws Which Create Problems Instead of Solving 
                                 Them.

    Bradley Amendment (1986)
    Disabled obligor double-dip

                       Bradley Amendment (1986):

    Who are these unwed and low income fathers who need our 
assistance? Lets look again at Sara McLanahan's testimony:

          ``. . .most unwed fathers are not in a good position to 
        support their new family. Nearly half the men in our study had 
        no high school degree, and only 20 percent had education beyond 
        high school. Twenty percent of the fathers did not work at all 
        during the past year, and those who worked had very low 
        earnings. Ten percent of the fathers had problems with drugs or 
        alcohol, and nearly 5 percent were in jail or prison at the 
        time of the interview. In sum, despite good intentions, most of 
        the fathers in our study have serious handicaps and need help 
        to achieve their goals.''
          (Sara S. McLanahan, Professor of Sociology and Public Affairs 
        Princeton University, Center for Research on Child Wellbeing, 
        Princeton, New Jersey, April 27, 1999)

    As Dr. McLanahan observes, these men may not have high 
school degrees and may not have worked in the past year, but 
they want to be involved with their children, appearing at 
hospitals to see the newborn child and attempting to see their 
child after he or she leaves the hospital.
    From Friend of the Court (FOC) records in Michigan, we also 
know that a high percentage of fathers will not know that a 
court has established a monthly child support obligation, an 
obligation that far exceeds their ability to pay. FOC records 
indicate that over 60% of the unwed fathers in an inner city 
area of Detroit do not appear at the court hearing that sets 
their child support obligation. Why? Because the court had 
inaccurate or insufficient information to notify them of the 
hearing--but proceeded with the hearing anyway. When these men 
are discovered, it is usually found that the obligation was set 
way beyond their ability to pay and that horrendous arrearages 
have accumulated. In order to recruit these men for fatherhood 
programs, courts need the ability to adjust the arrearage 
amount to reflect the person's real income and the State's 
guidelines. The 1986 Bradley Amendment forbids this, leaving 
the obligor with a debt he or she can never hope to repay. This 
encourages them to ``drop out of the system'' and, 
unfortunately, out of their children's lives.
    Trying to enroll fathers in fatherhood programs when they 
have improper arrearages hanging over their heads is a futile 
gesture.
    A similar set of unintended consequences occurs when a 
person becomes ill and falls behind in payments, or loses their 
job and is unemployed for an extended period of time.
    The solution? We offer language that would solve these 
perplexing problems while keeping the protection originally 
offered by Bradley for those instances where a person willfully 
tries to evade payment.
    Sec. 666(a)1A)(9): (C) not subject to retroactive 
modification by such State or by any other State; except that 
such procedures may permit modification with respect to any 
period during which the obligor had diminished income, 
participated in an approved education or job training program, 
or lived with the child who is the subject of the child support 
order. there is pending a petition for modification, but only 
from the date that notice of such petition has been given, 
either directly or through the appropriate agent, to the 
obligee or (where the obligee is the petitioner) to the 
obligor.

Disabled obligor double-dip:

    And what about disabled obligors whose children receive 
direct support payments from government because of the parent's 
disability? The latest information indicates that over 411,000 
dependent children of disabled veterans receive compensation 
because of a parent's disability, and that over 1,420,000 
dependent children and students receive compensation from the 
Social Security Administration because of a parent's 
disability. The average monthly Social Security payment to a 
dependent or student child is $ 453.00.
    When a support obligation is established, disabled parents 
should be credited for the amount paid directly to the children 
because of the parent's obligation, but that only happens in 
two States, New Jersey and Texas. To quote the June, 1999, New 
Jersey Supreme Court decision which corrected this oversight:

          ``. . .the supporting parent was entitled to a...credit 
        against his child support. . .for a portion of the social 
        security disability benefits paid to his dependent children 
        during the period of his disability. . . .the primary purpose 
        of the social security payments which is to meet the current 
        needs of the dependents in periodic, regular payments.''
    We offer language similar to the corrections made in Texas:

          In applying the child support guidelines for an obligor who 
        has a disability and who is required to pay support for a child 
        who receives benefits as a result of the obligor's disability, 
        the court shall apply the guidelines by determining the amount 
        of child support that would be ordered under the child support 
        guidelines and subtracting from that total the amount of 
        benefits or the value of the benefits paid to or for the child 
        as a result of the obligor's disability.

                                Summary:

    For fatherhood initiatives to work, they must be focused on 
the basic need of children to have contact with their fathers, 
and that can only be accomplished in the context of child 
support rules that allow States to work with fragile families 
in innovative creative ways.
      

                                <F-dash>


Statement of Moms Against Abuse, Memphis, TN

    What type Mom loses her children in custody? Is she 
neglectful, is she abusive emotionally, physically or sexually, 
is she uneducated? What if you were to find she is intelligent, 
witty, educated, responsible, and non-abusive? What if you were 
to find that the only reason she is not the custodial parent is 
because she refused to endure additional abuse from the father 
of her children. What if you were to find out she lost custody 
simply because she did not have the finances to wage a more 
effective battle?
    Our group is NOT exclusive to non-custodial Moms. . . .it 
is set up for women who fight for the right of women and 
children to live without the abuse of men or other women, 
whether legally, financially, physically, sexually or 
emotionally, and or to give them emotional tools and support to 
deal within those abuses until the day these activities WILL 
subside. We welcome men & women who truly wish to HELP women 
and children. Persons who we find not of this theme will be 
asked to leave.
    Our newly formed organization comprises over 60 women who 
have lost custody of their children, and we have numerous more 
applying for membership. A common thread is the lack of 
substance as to why these children are being denied their 
mothers.
    One mom was denied her child and consequently her case 
became the Bobby Lynn Wilkes Bill in Tennessee.
    Another Tennessee case. . .the judge denied a 5 year old 
girl her mother and three years later has yet to respond to 
Motion for Cause. The mother makes herself part of the 
daughter's life. . .dad continues to fight to keep her out.
    We have a Georgia case and a Texas case of young boys 
molested by their fathers. . . .no action taken. . . .and in 
the Texas case. . . .judge felt not so bad since it was 
determined by the psychologists ``Dad not receiving sexual 
gratification from it''.
    List members tell of teenage daughters living with Dad, 
becoming pregnant when Dad allows boyfriends to move into the 
home. . . .new moms at age 14 and 15, and the girls and newborn 
then allowed to come home to Mommy.
    We have molestations of children ignored, placated, 
justified, etc., from those who are placed to protect children, 
and rather than addressing or helping, Moms are being accused 
of coaching the children against the abuser and thereby losing 
custody. In actuality, the molestation has occurred, some MOST 
clearly physically and emotionally real, and in some cases, 
Dads have been ``coached'' by organizations how to molest just 
enough to gain custody, by claiming the ``bogus'' parental 
alienation syndrome of false accusation.
    We have Moms whose children have not only been adversely 
and without cause separated, but who then with lesser income, 
must pay child support to the at the very least, emotional 
abuser of themselves and their children, and at the same time 
retain a cordial attitude toward Dad or she can be accused of 
being uncooperative.
    We find a societal trend that anyone but a child's natural 
mother fully capable of caring for the child
    We have Moms from California, Colorado to Florida and all 
stops in between.
    We have Moms who are financially incapable of fighting for 
their children, yet they persevere. Our Moms are trusting there 
will surface legislators whose love for their own mothers, 
spouses and children, WILL thereby recognize and act upon the 
need for theirs and ours, in our country for today and its 
future.
    Thank You.
      

                                <F-dash>


                               Mothers of Lost Children    
                                            Davis, CA 95617
                                                    October 5, 1999

Mr. Pete Singleton, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, DC. 20515

    Dear Mr. Singleton,
    I am writing as an advocate for women and children who are involved 
in custody/visitation disputes.
    Our organization has found that, when a child alleges incest by the 
father, the custody case takes an unusual and alarming turn. Rather 
than being protected by the court and child protection system, the 
child is ultimately placed in the unsupervised custody of the 
identified offender. Astonishingly, the non-offending parent is ordered 
to have supervised visitation. The rationale used is that the non-
offending parent is alienating the child. This rationale is based on an 
idea proposed by Richard Gardner, MD which is unproven, untested and 
rejected by ethical professionals.
    We researched this issue in 1998 in California. We found that the 
non-offending mothers were placed on supervised visitation in over half 
of the cases in which sexual abuse was alleged. The identified 
offenders were given full custody or unsupervised access to the child 
in 91% of the cases. Out of 22 cases examined, none of the alleged 
perpetrators were criminally charged. One-third of the children had 
medical evidence of abuse, and were receiving Victims of Crime funding 
for therapy due to the abuse perpetrated upon them. All displayed 
symptoms of trauma in their behavior. Nevertheless, the family law 
courts chose to ignore the evidence, and to place the children in the 
unsupervised custody of the identified offender. The fit parent, not 
accused of any crime, received monitored visits and many were not 
allowed any contact with the child.
    Access to Visitation programs are designed to protect a child from 
being abused by a violent parent, not to be used as a shield to protect 
a pedophile from prosecution. The program is being used to limit the 
child's contact with the protective parent. Thus, the young victim-
witness is effectively silenced, and the perpetrator of the crime is 
protected. These Federal monies are being grossly misspent. We urge you 
to stop this program until adequate controls are in place to prevent 
these absurd and dangerous outcomes.

                                                  Anne Hart

                                   - 

</pre></body></html>
